<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                       WEDNESDAY, MARCH 16, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:17 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Cochran, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. The subcommittee meets this morning to 
receive testimony on the fiscal year 2012 budget request for 
the Navy and Marine Corps.
    And I'm pleased to welcome the Secretary of the Navy, Mr. 
Ray Mabus, and the Chief of Naval Operations, Admiral Gary 
Roughead, and the Commandant of the Marine Corps, General James 
Amos. I look forward to your testimony. I'd like to thank all 
of you for your prepared testimony. And, without objection, the 
full statement will be made part of the record.
    For fiscal year 2012, the President's budget requests $161 
billion in base funding for the Department of the Navy. This is 
an increase of just one-half of 1 percent over last year's 
request. In addition, the budget seeks to reduce overseas 
contingency operation funding from $18.5 billion to $15 
billion, reflecting the changing missions in Iraq and 
Afghanistan.
    The very low growth of the Navy and Marine Corps budget is 
partly attributable to the Secretary of Defense's efficiency 
program. The request includes many commendable proposals, such 
as cutting energy costs by making our ships, aircraft, and 
facilities more efficient and increasing the use of alternative 
energy sources.
    But, the subcommittee may have questions about other 
programs that are claimed as cost savings. For example, the 
Marine Corps' expeditionary fighting vehicle (EFV) has been 
terminated, and three new programs are being established to 
fill the void. While we know how much money will be saved by 
canceling the EFV, it is hard to estimate how much money we 
will spend on the three follow-on programs.
    In an age of tightening budgets, Congress needs to have a 
clear understanding of what budgetary proposals will produce 
real savings that can be better invested for our 
servicemembers, as opposed to delaying tough spending decisions 
for another day.
    While the subcommittee will have many questions about the 
proposed budget over the coming months, there is no doubt about 
the importance of the Navy and the Marine Corps in the world 
today. Even while supporting combat missions overseas, marines 
and sailors are now performing life-saving humanitarian relief 
efforts in Japan after the catastrophic earthquake and tsunami. 
They are delivering supplies, searching for survivors, and 
rendering aid to the victims of this disaster. The people of 
the United States and Japan are grateful for the life-saving 
efforts of these men and women, and our thoughts are with all 
of the victims of this terrible catastrophe.
    In these challenging fiscal times, it is all the more 
important that each dollar that Congress provides to the Navy 
and Marine Corps is put to its fullest use. I'm mindful that 
many of the budget proposals that were delivered to Congress in 
February were based on deliberations that occurred last summer 
and last fall. No matter how well planned the budget may be, it 
cannot predict the future. It is the job of this subcommittee 
and Congress to make adjustments to the defense budget, to 
redirect unneeded spending to higher priorities, based on new 
information and new developments.
    This hearing is just the beginning of the process of 
learning how the budget request will support our national 
priorities. So, I look forward to working with our 
distinguished panel throughout the year so that our fiscal year 
2012 appropriations bill will best reflect the needs of our 
Armed Forces.
    And I'd like to now call upon Senator Cochran, the vice 
chairman, for his statement.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    I'm pleased to join you in welcoming our distinguished 
panel of witnesses this morning. Secretary Mabus, our former 
distinguished Governor of Mississippi, is doing a fine job, in 
my opinion, as Secretary of the Navy. He's reflecting credit on 
our State and our Nation and the United States Navy. And 
Admiral Roughead has become almost like a citizen of 
Mississippi. It seems like we turn around and he's down there 
at a commissioning or a christening, helping to ensure that our 
shipbuilding maintains a pace that will help defend our 
national interests in the waters of the world. And he has had a 
distinguished career in the Navy, and we're pleased to call him 
a friend.
    General Amos, we appreciate very much your being a part of 
this panel and your leadership for the Marine Corps. We're glad 
to have you here.
    Mr. Secretary, I know that we've had an opportunity to 
visit and stay in close touch on issues here. There will be 
questions that'll arise during the hearing, but I think I'll 
reserve my further comments or questions until later in the 
hearing.
    Welcome.
    Chairman Inouye. Thank you very much.
    May I now call upon the Secretary.
    Secretary Mabus.

                  SUMMARY STATEMENT OF HON. RAY MABUS

    Mr. Mabus. Mr. Chairman, vice chairman, members of the 
subcommittee, I have the honor of appearing here today, 
representing the sailors, marines, and civilians that make up 
the Department of the Navy.
    Please let me to first express my deepest sympathies to 
those affected by the terrible events in Japan. Our thoughts 
and our prayers go out to the families of the thousands of 
people who have lost their lives in the earthquake and the 
subsequent tsunami.
    The Navy and Marine Corps are absolutely committed to 
humanitarian assistance and disaster relief operations. Ships 
from the 7th Fleet, including carrier USS Ronald Reagan and its 
strike group, the USS Essex amphibious group, with the 31st 
Marine Expeditionary Unit, embarked, and the command ship USS 
Blue Ridge, as well as helicopters and marines from the 3rd 
Marine Expeditionary Force in Okinawa, are already on station 
or moving to provide assistance. And they will stay in place as 
long as they are needed.
    Ongoing operations in Japan underscore the fact that, 
across the world, Navy and Marine Corps are conducting missions 
over the full range of military operations. They remain the 
most formidable expeditionary force the world has ever known. 
And, thanks to your support, they will continue to meet the 
multiplicity of missions entrusted to them by our Nation.
    Today, I want to spend just a minute talking about an 
immediate crisis that we face: the absence of a Defense 
appropriations bill and the increasingly serious problems of 
operation under a continuing resolution. The pressure of the 
continuing resolution has already significantly impacted 
procurement and reduced the resources available to maintain 
readiness. If the continuing resolution continues for the 
entire year, we will be forced to reduce aircraft flight hours 
and ship-steaming days, cancel up to 29 of 85 ship 
availabilities, defer maintenance on as many as 70 aircraft and 
290 aircraft engines, and defer up to 140 maintenance and 
construction projects across the country. In addition, we will 
be prevented from constructing one Virginia-class submarine, 
two Arleigh-Burke destroyers, and one mobile landing platform. 
It will prevent procurement of two nuclear reactor cores and 
delay increased funding for the Ohio-class submarine 
replacement. It will reduce Marine Corps procurement by up to 
one-third, after the Marine Corps rebalances its manpower 
counts. And it will create nearly a $600 million shortfall in 
combined Navy and Marine Corps manpower accounts. These 
measures not only place additional stress on the force and our 
families, they will weaken the industrial base and affect over 
10,000 private-sector jobs.
    The disruption to our fleet and shore maintenance and 
modernization schedules may take years to recover from and will 
come at a much greater cost. We strongly request congressional 
action to address the implications of this continuing 
resolution. It's particularly important, considering that the 
submission of the 2012 budget was keyed off the 2011 numbers.
    As you pointed out, Mr. Chairman, the budget request for 
the Department of the Navy is a one-half of 1 percent increase 
over the fiscal year 2011 request. It includes funds for 10 
ships and 223 aircraft. It maintains our commitment to take 
care of our people, build a strong R&D and industrial base, and 
to grow the fleet.
    The OCO request, which, as you pointed out, again, 
represents a drop of $3.5 billion, includes funds to sustain 
operations, manpower, and infrastructure, as well as procure 
equipment to support operations in Afghanistan.
    During this budget development, and today, we are keenly 
aware of the fiscal position of the country and the necessity 
to be, in your words, responsible stewards of taxpayer dollars. 
This request, we believe, is a strategy-driven document that is 
informed by fiscal realities. It balances competing 
requirements and does what is best for the country, the Navy 
and Marine Corps, and our sailors and marines.
    We started this cycle by examining every aspect of 
everything we do. Consequently, $42 billion in Department of 
the Navy efficiencies were identified over the 5-year period. 
As a result of these efficiencies, we've been able to add one 
aegis destroyer, three TAO(X) oilers, and one T-AGOS ocean 
surveillance ship to our shipbuilding program. With a dual-
block littoral combat ship (LCS) strategy, this increases the 
total number of ships in the FYDP from 50 to 56, including one 
joint high-speed vessel to be built for the Army. The savings 
also allow us to buy additional F-18s, extend the service life 
of up to 150 aircraft, as a hedge against any delay in the 
deployment of the F-35 Bravo, and allow us to continue 
investing in unmanned systems.
    The upcoming year will see deployment of the unmanned Fire 
Scout system to Afghanistan, and continuing testing of the 
UCLASS D, the forerunner of an integrated carrier-based system.
    In 2010, one of the most important efforts was a decision, 
endorsed by Congress, to pursue the new littoral combat ship 
through a dual-block-buy procurement strategy. At an average 
cost of less than $440 million per ship, and with the cost 
reductions we have seen on LCS-3 and -4, the new strategy will 
save taxpayers $2.9 billion. This is a plan that's good for the 
Navy, good for the taxpayers, and good for the country, and 
shows what can be accomplished when sound acquisition 
principles are enforced.
    We heard the message from Congress very clearly: We need 
more ships, but they have to be affordable. The LCS strategy 
supports the industrial base by keeping workers employed at two 
shipyards, and is indicative of the Department's push to ensure 
acquisition excellence. We believe that the fixed-price 
contracts used for LCS are a model.
    Significant additional savings were also achieved through 
the termination, as you pointed out, Mr. Chairman, of the 
expeditionary fighting vehicle for the Marine Corps. I believe 
it's very important to emphasize that this decision in no way 
changes our Nation's commitment to amphibious warfare. We have 
to maintain an amphibious assault capability that will put 
marines ashore, ready for the fight. But, the EFV is simply not 
the vehicle to do this. Its cost per unit would have consumed 
one-half the Corp's total procurement and 90 percent of its 
vehicle-related operation and maintenance account in the years 
2018 to 2025.
    In aviation programs, we're closely monitoring the Joint 
Strike Fighter (JSF), particularly the Marine Corps variant, 
the B. After a 2-year period of very focused scrutiny, we'll 
make an informed recommendation about resolving the technical 
and the cost issues.
    Ashore, we continue to confront rising healthcare costs 
caused by an increasing number of beneficiaries, expanded 
benefits, and increased utilization. To deal with these trends, 
we must implement systematic efficiencies in specific 
initiatives that improve the quality of care and customer 
satisfaction, but, at the same time, much more responsibly 
manage costs. We concur with the recommendations made by the 
Secretary of Defense to ensure fiscal solvency and benefit 
equity for our retirees.
    Finally, as the chairman pointed out, we are continuing 
efforts to invest in and develop alternative energy. The latest 
headlines from around the world reinforce this basic point. 
Energy is, first and foremost, an issue of national security. 
We cannot allow volatile regions of the world to control the 
price and affect the supply of fuel we use.
    In the last year, the Navy and Marine Corps took huge steps 
forward, flying an F-18 Hornet on biofuel, conducting a large-
scale expansion of solar power, and beginning extensive 
expeditionary energy initiatives in Afghanistan. What we're 
doing in Afghanistan is already saving lives as we reduce our 
reliance on fossil fuels.
    In closing, I want to thank you again for your support. 
Thank you for always looking out for our sailors, marines, and 
their families, and for your support of efforts to make the 
Navy and Marine Corps better, stronger, and better able to 
defend our Nation.

                           PREPARED STATEMENT

    It's a solemn privilege to lead the naval services during 
an era of protracted war and national challenge. I have been 
profoundly moved by the sacrifice and devotion I have witnessed 
in the sailors and the marines who defend us. The Navy and 
Marine Corps are, and will remain, ready to do any mission 
America gives.
    Thank you.
    Chairman Inouye. I thank you very much, Mr. Secretary.
    [The statement follows:]

             Prepared Statement of the Honorable Ray Mabus

    Chairman Inouye and Vice Chairman Cochran, I have the honor of 
appearing here today on behalf of the nearly 900,000 Sailors, Marines, 
and civilians that make up the Department of the Navy. I have appeared 
before this Committee on a number of occasions, and I am happy to be 
here again, along with the Chief of Naval Operations and the Commandant 
of the Marine Corps, to report on the readiness, posture, progress, and 
budgetary requests of the Department. We consider ourselves privileged 
to lead the dedicated men and women of the Department who are 
selflessly serving the United States all around the world.
    Today, your Navy and Marine Corps are conducting missions across 
the full range of military operations. They are engaged in combat in 
Afghanistan, stability operations in Iraq, deterrence and ballistic 
missile defense in the Pacific, Arabian Gulf, and the Mediterranean, as 
well as humanitarian assistance and disaster relief operations across 
the globe. Our unmatched global reach, endurance, and presence continue 
to allow the Navy and Marine Corps--in partnership with our sister 
services--to secure and advance America's interests wherever challenges 
or crises have arisen, as well as operate forward to prevent crises 
from occurring. We remain the most formidable expeditionary fighting 
force the world has ever known, and with your continued support, the 
Navy and Marine Corps will continue to meet the multiplicity of threats 
that endanger international peace and security.
    But today we are very concerned about the absence of a Defense 
Appropriations Bill for fiscal year 2011 and the negative effects of 
operating under a continuing resolution for the remainder of the year. 
We are equally concerned about passage of a bill that reduces the 
topline from the level requested in the fiscal year 2011 President's 
budget. Either course of action significantly impacts the resources 
available to grow the fleet and jeopardizes recent efforts to restore 
and maintain readiness levels commensurate with the standards expected 
of the Navy and Marine Corps.
    Without legislative action, limiting fiscal year 2011 procurement 
accounts to fiscal year 2010 levels will:
  --Prevent start of construction of one Virginia-class submarine to be 
        built in Groton and Newport News which will break the existing 
        Multi-year Contract.
  --Prevent start of construction of one Mobile Landing Platform to be 
        built in San Diego.
  --Prevent start of construction of one or possibly both programmed 
        Arleigh Burke-class destroyers to be built in Bath and 
        Pascagoula due to DDG 1000/DDG 51 swap language that prevents 
        award of either ship unless both are authorized and 
        appropriated.
  --Preclude fourth and final increment of full funding for 
        construction of CVN 78 (U.S.S. Gerald Ford) and advance 
        procurement for CVN 79.
  --Prevent procurement of two nuclear reactor cores for refueling of 
        one aircraft carrier and one ballistic missile submarine, as 
        well as delay increased funding for research and development of 
        the Ohio-class replacement and replacement of two Moored 
        Training Ships that provide half of the force's nuclear 
        training capability.
  --Prevent completion of one Arleigh Burke-class modernization.
  --Reduce Marine Corps procurement by $563 million. This would add to 
        equipment shortfalls generated by 9 years of conflict and 
        prevent equipment replacement or purchase of 4 H-1 helicopters, 
        numerous LAVs, MTVRs, LVSRs; tech upgrades to counter IED 
        jammers; communication and intelligence equipment; tactical 
        fuel systems to power our vehicles and generators; engineering 
        equipment to move ammo, gear and supplies; air conditioners and 
        heaters to take care of Marines and sensitive gear; and EOD 
        improvements to protect them.
    Reductions to expected procurement levels will create additional 
stress on the force, as units in service pick up additional commitments 
to cover the seams created by fewer available platforms.
    Likewise, fixing fiscal year 2011 operations to fiscal year 2010 
levels has created a $4.6 billion shortfall in Navy and Marine Corps 
operations, maintenance, and training accounts. Faced with this 
prospect, the Department began efforts in January to mitigate the 
impacts of operating under the continuing resolution, which over the 
course of the fiscal year will cause us to:
  --Reduce aircraft flight hours and ship steaming days, including a 
        reduction of four non-deployed air wings' flight hours to 
        minimal flight-safety levels.
  --Cancel up to 29 of 85 Surface Ship availabilities.
  --Defer maintenance on 70 aircraft and 290 aircraft engines, bringing 
        the combined backlog of aviation maintenance close to 1-year 
        redlines.
  --Defer 41 facilities maintenance projects and 89 new construction 
        projects in Arizona, California, Florida, Georgia, Hawaii, 
        Louisiana, Maryland, North Carolina, Rhode Island, South 
        Carolina, Virginia, and Guam. These cuts equal an approximate 
        50 percent reduction and will eliminate, among many projects, 
        dry dock certifications, bachelor quarters maintenance 
        projects, repairs to Explosive Handling Wharves (EHW) at Bangor 
        and Kings Bay that support ballistic missile operations, and 
        modernization projects to support introduction of new training 
        aircraft.
    The combined effects of the continuing resolution will directly 
impact the strength of the industrial base and over 10,000 private 
sector jobs at shipyards, factories, and Navy and Marine Corps 
facilities across the country. The degradation or loss of perishable 
skill-sets within our workforce, including many nuclear workers, and 
the disruption to both our fleet and shore maintenance and 
modernization schedules will take 3 years to recover based on 
rotational schedules alone--and only at significantly greater cost than 
requested in the fiscal year 2011 President's budget.
    Finally, there is almost a $600 million shortfall in Navy and 
Marine Corps manpower accounts. As a result of this shortfall, the 
Services must raid other accounts in order to meet payroll for the 
duration of the year. We are currently living within funding 
constraints by limiting or conducting short-notice permanent change of 
station moves; however, this tactic places significant hardship on our 
military families and is not sustainable over the entire fiscal year.
    We strongly request congressional action to address the 
implications of the continuing resolution on our forces and our people 
by taking action to enact the fiscal year 2011 President's budget.

                        DEPARTMENTAL PRIORITIES

    As I testified last year, there are four imperatives I believe the 
Department of the Navy must address to maintain preeminence as a 
fighting force and successfully meet the challenges of the future. They 
are: Taking care of our Sailors, Marines, civilians, and their 
families; treating energy as a strategic national security issue; 
creating acquisition excellence; and continuing development and 
deployment of unmanned systems.
    These priorities underpin every action of the Department, from 
supporting current operations to developing the current year's budget 
request, finding efficiencies within the Department, and preparing our 
Navy and Marine Corps for the future.
    Fundamentally, it comes down to a question of resources, of 
ensuring that our people have what they need to do their jobs, ensuring 
the Nation that the Navy and Marine Corps uses our fiscal and energy 
resources wisely, and ensuring that seapower, as a resource, remains 
readily available to meet the Nation's policy requirements and the 
orders of the Commander in Chief.

                 SEAPOWER: A CRITICAL STRATEGIC ENABLER

    It is clear that we live in a time of sweeping change and an era of 
strategic realignment. The President has stated that we ``must pursue a 
strategy of national renewal and global leadership--a strategy that 
rebuilds the foundation of American strength and influence.'' Seapower 
has always been a part of that foundation and will continue to be an 
indispensible asset to American leadership and economic strength in the 
global community of nations. American seapower, as it has done for 
generations, continues to guarantee freedom of navigation and 
international maritime trade, underpinning global economic stability 
and facilitating continued global economic growth. No other component 
of American military power is as flexible or adaptable as seapower. I 
see one of my primary responsibilities as Secretary to be ensuring 
continuation of this responsiveness, flexibility, and adaptability 
through the policies we adopt and in the ships, aircraft, and weapons 
systems that we build.
    Maritime nations have many inherent strategic advantages. Naval 
forces operating in the open ocean provide an effective conventional 
deterrent to those who threaten regional stability or promote 
extremism. Strong expeditionary forces can swiftly respond to crises 
and make potential adversaries pause before committing hostile actions. 
But should deterrence fail, our combat ready naval forces must be 
prepared to conduct sustained combat operations.
    The Navy and Marine Corps are America's ``Away Team.'' They exist 
primarily to protect our Nation far from home and respond quickly to 
crises wherever and whenever they occur. Exploiting their inherent 
mobility and maneuverability at sea, naval forces gather information, 
perform surveillance of seaborne and airborne threats, defend regional 
partners, deter prospective adversaries, interdict weapons of mass 
destruction, disrupt terrorist networks, conduct humanitarian 
assistance and disaster relief, and support the work of American 
diplomacy. This variety of capabilities is a primary feature of 
seapower, and it provides the President and our Nation with unmatched 
flexibility to deter conflict and, if necessary, project power from the 
sea to defend U.S. national security interests. The ability to 
accomplish these tasks without placing a large presence ashore and 
absent concerns of sovereignty is absolutely critical in our world of 
increasingly sophisticated threats and growing geopolitical complexity.
    It is for these reasons, and in order to improve global force 
projection capabilities that the Navy, Marine Corps, and Air Force are 
working on an Air Sea Battle (ASB) concept to improve joint 
capabilities and cooperation in addressing anti-access/area-denial 
challenges.
    Unique in history, the blanket of maritime security and stability 
provided by American maritime power is the first to be used for the 
good of the whole world. But in order to ensure continued American 
leadership in issues of maritime policy and security, we strongly 
recommend accession of the United States to the Convention on the Law 
of the Sea, an action that has been similarly and repeatedly 
recommended by multiple Secretaries of the Navy and Chiefs of Naval 
Operation. Accession by the United States would enhance stability of 
the navigational rights inherent to the Convention and would strengthen 
our bargaining position in international discussions of Arctic Policy 
and access to resources and sea lines of communication.

                           CURRENT OPERATIONS

    Over the past year, our forces have successfully navigated the 
world's growing complexity and have consistently demonstrated the 
utility, effectiveness, and flexibility of seapower and maritime 
forces.
    Following completion of the Marines Corps' mission in Iraq, the 
primary operational focus of the Department has been supporting the war 
effort in Afghanistan. Over 30,000 Marines and Sailors are committed to 
the fight there, working all across the country, with the largest 
concentration operating as Regional Command Southwest (RC-SW) along the 
Helmand River Valley.
    In my visits to the Marines on the ground throughout the year, I 
had the opportunity to look firsthand at the progress made by our 
increased presence in Helmand. In December, I visited three Forward 
Operating Bases (FOBs) with increasing levels of stability in three 
separate districts of Helmand: Sangin, Marjah, and Nawa--or as the 
Marines put it, I went to look at where the fight is, where the fight 
was, and where there is no fight.
    In Nawa, I saw a strong partnership between the local government, 
Afghan National Police, the Afghan National Army, and our Marines--who 
have built the capacity of their partners so that they may shortly 
assume responsibility for their own security. The district is very 
safe, and because of the success of the counter-insurgency effort, Nawa 
is growing in both political strength and economic activity.
    In Marjah, after successful operations to clear it last spring, the 
markets are open, schools are being built, and a local government is 
working to build capacity. In my visit just 3 months ago, I personally 
walked the streets of Marjah to witness the progress, something that 
even in the summer of 2010 would have been unthinkable. Then, just 
stepping outside the gates of our forward operating base would have 
generated a pitched battle. Now, it brought out street vendors and men 
on motorbikes.
    I also went to Sangin District near the Kajaki Dam in Northern 
Helmand, which has been a Taliban stronghold for years and for the past 
few months has been the main effort of the fight in Helmand. Our 
Marines in Sangin have been conducting intensive combat and security 
missions in support of the counterinsurgency strategy, and 
concurrently--even in the midst of the fight, have been testing new 
solar energy equipment to expand their operational reach. Together with 
their partners from the Afghan National Security Forces, they have 
taken the fight to the Taliban and are facilitating the Afghan 
Government's reestablishment of local control.
    Elsewhere across Central Command, the Navy has over 14,000 Sailors 
on the ground supporting joint and coalition efforts and another 10,000 
Sailors at sea supporting combat operations, including from our 
carriers operating in the Indian Ocean, where we are launching 
approximately 30 percent of the strike or close air support missions 
that watch over our Marines and Soldiers on the ground in Afghanistan.
    In addition to combat operations, the Navy and Marine Corps remain 
globally engaged in a host of other security and stability operations. 
On any given day, more than 72,000 Sailors and Marines are deployed and 
almost half of our 286 ships are underway, ready to respond where 
needed.
    It was the Navy and Marine Corps that were the first on scene after 
both the devastating earthquake in Haiti and the summer's catastrophic 
floods in Pakistan. Within hours of the January 12th earthquake, both 
Navy and Marine Corps assets were en route to Haiti. A total of over 
10,000 Sailors and Marines and 23 ships, including the carrier U.S.S. 
Carl Vinson, the Bataan and Nassau Amphibious Ready Groups, and the 
hospital ship U.S.N.S. Comfort ultimately participated in Operation 
Unified Response.
    Halfway around the world, after Pakistan was struck by devastating 
August floods that impacted nearly a fifth of its population, 
helicopters from the U.S.S. Peleliu and the 15th Marine Expeditionary 
Unit supported the Government of Pakistan through delivery of 2,000 
tons of relief supplies and by contributing to the rescue of over 
10,000 people. Later, the ships of the Kearsarge Amphibious Ready Group 
deployed early to provide a continuous U.S. humanitarian presence.
    In response to the administration's strategic direction, the Navy 
is scaling up our ballistic missile defense (BMD) force and their 
deployments to enhance our deterrent posture, especially in the defense 
of Europe. Our multi-mission, BMD-capable, Aegis cruisers and 
destroyers now routinely deploy to the Mediterranean and the Arabian 
Gulf, as well as the Western Pacific to extend our deterrent umbrella 
for our allies. I had the opportunity a few months ago to visit the 
destroyer U.S.S. Ramage after she completed her first BMD deployment, 
and I can assure you that the Sailors on these ships are some of the 
most professional and dedicated men and women in the country, and they 
are incredibly excited about their work. We appreciate Congress' 
continued support of the destroyer and cruiser modernization programs 
that are bringing additional BMD capability to the fleet.
    Our growing BMD capability is complemented by our traditional sea-
based, strategic nuclear deterrent centered upon our globally deployed 
and proficient ballistic missile submarine force.
    In the Western Pacific, as an integral part of U.S. diplomatic 
actions, several times last year the U.S.S. George Washington sortied 
to the South China Sea and the Sea of Japan in response to territorial 
disputes with North Korea and open North Korean provocation. In late 
November, after the North Korean artillery attacks on Yeonpyeong Island 
west of Inchon, the George Washington strike group conducted a training 
exercise with the South Korean Navy in order to demonstrate the 
continuing value and strength of our alliance.
    We are also working to build regional capacity and resolve security 
issues of common international concern.
    In support of our Maritime Strategy, both the Navy and Marine Corps 
routinely engage with nations all around the world to build capacity 
and forge stronger maritime partnerships. In the ``Rim of the Pacific'' 
or RIMPAC exercise, 32 ships, five submarines, and more than 170 
aircraft from 14 nations participated in the world's largest 
multinational maritime exercise encompassing every aspect of 
traditional naval warfare.
    Global Partnership Stations in Africa, South America, and the 
Pacific are training hundreds of Sailors, Marines, and Coast Guardsmen 
from dozens of nations and are bringing advanced medical and civil 
engineering assistance to those in need. The Africa Partnership Station 
alone has trained with 32 African and European partners since 2007. And 
between them, Pacific Partnership 2010--conducted by the U.S.N.S. 
Mercy--and Continuing Promise 2010--conducted by the U.S.S. Iwo Jima--
treated over 100,000 patients and conducted over 20 civil engineering 
projects.
    In the Caribbean and South America, we continue to work with the 
Coast Guard-led Joint Interagency Task Force--South to synchronize 
forces from 13 nations and interdict the flow of illegal narcotics into 
the United States. In 2010 naval forces contributed to the seizure of 
over 133.2 tons of cocaine, 3.2 tons of marijuana, 92 boats and 
aircraft, and $2.7 billion in drug revenue.
    In the Gulf of Aden and western Indian Ocean, the Navy remains 
committed to counter-piracy efforts with approximately 16 partner 
nations. Combined Task Force 151, in cooperation with forces from the 
EU, NATO, and other nations deploying individual units or task groups, 
is operating off of Yemen and in the Somali Basin to protect the safe 
passage of maritime commerce. Where our forces are located, pirate 
activity has fallen, but the areas involved are huge, and as Secretary 
of State Clinton said in April 2009, the solution to Somalia piracy 
lies largely with Somalia, through building its capacity to police 
itself and offering young pirates viable alternatives to that way of 
life. We are treating the symptoms of piracy, rather than its 
fundamental cause: Somalia's failure as a state. Despite the 
international community's commitment, piracy has both continued to 
increase and move further offshore, a measure of pirate resiliency and 
the strong economic incentives that underpin it. Nine of ten pirates 
captured are ultimately freed as there is often insufficient evidence 
or political will to prosecute them, or to incarcerate them after 
conviction. We strongly endorse additional international efforts to 
address these concerns.

                   FISCAL YEAR 2012 BUDGET SUBMISSION

    Over the past year, I have visited with thousands of Sailors and 
Marines stationed with our forward operating forces at sea and our 
combat forces in Afghanistan. I can report, based on both the direct 
observations I mentioned and from personal inputs from Joint and 
Combined commanders, that the quality of our Sailors and Marines is 
superb and we are continuing to protect America's interests abroad. But 
while we are prevailing today, we must also build the foundation for 
the Navy and Marine Corps of tomorrow.
    During the development of the President's fiscal year 2012 budget 
submission our Navy and Marine Corps leadership team made numerous 
difficult tradeoffs to preserve current readiness while better 
posturing the Navy and Marine Corps for the challenges of the future. I 
believe that the result provides a balanced approach that will enable 
the Services we lead to successfully perform our assigned missions, 
even while setting a course for future success. It is important, 
however, to reiterate that the fiscal year 2012 budget was developed 
based upon ultimate passage of the President's fiscal year 2011 budget. 
If the continuing resolution now in place remains the de facto budget 
for the year, or if a Defense appropriations bill is passed that 
reduces the amounts requested in the fiscal year 2011 President's 
budget, the proposed fiscal year 2012 budget will not be sufficient to 
recover from delays, cancellations, and mitigations we have been forced 
to put in place this year.
    Over the past year, we have examined every aspect of what we do and 
how we do it in order to eliminate waste and move every resource 
possible toward operations and successfully executing our missions now, 
and in the future. At the direction of the Secretary of Defense, in 
June 2010, the Services were formally asked to continue this process 
through an efficiencies review, which we developed through three 
complementary approaches; buying smarter, streamlining our organization 
and operations, and being more efficient in the way we use, produce, 
and acquire energy. This effort has had a substantial impact on our 
overall budget, allowing us to invest more in our core warfighting 
missions and enhance our acquisition plans. Savings were also derived 
from OSD-mandated, Defense-wide efficiencies.
    Since the review began, the Department of the Navy has identified 
approximately $35 billion in self-generated efficiencies over the next 
5 years. When DOD-wide efficiencies are factored in we will achieve $42 
billion in savings. These savings will facilitate adding one guided-
missile Aegis destroyer, three T-AO(X) fleet oilers, and one T-AGOS 
ocean surveillance ship to our shipbuilding plan, which with our dual-
block LCS strategy will increase the total number of ships in the FYDP 
from 50 to 56, including one JHSV to be built for the Army, an average 
of more than 11 ships per year. We were also able to accelerate a 
Mobile Landing Platform from fiscal year 2015 to fiscal year 2012 and 
increase R&D funding to support the accelerated procurement of the T-
AO(X), and the development of the next amphibious dock-landing ship 
(LSD(X)).
    The savings allowed additional investments in the Next Generation 
Jammer to provide greater protection for tactical aircraft, electronic 
warfare systems, ballistic missile sets, and the new air and missile 
defense radar that will equip our DDG-51 Flight III destroyers. The 
savings allowed increased funding for a new generation of sea-borne 
unmanned strike and surveillance aircraft; and gave us the ability to 
buy additional F/A-18s and extend the service life of 150 aircraft as a 
hedge against more delays in the deployment of the F-35B, the Short 
Take-Off and Vertical Landing (STOVL) variant of the Joint Strike 
Fighter.
    We addressed Marine Corps needs by increasing equipment funding for 
units in dwell and for repair and refurbishment of Marine equipment 
used in Iraq and Afghanistan. Based on heavy usage rates, we requested 
$2.5 billion for Marine reset in the fiscal year 2012 OCO request, and 
estimate a $5 billion reset liability upon termination of the conflict 
in Afghanistan. We also added funding for fire and maneuver platforms, 
command and control capabilities, and intelligence, surveillance, and 
reconnaissance.
    We found the $35 billion through a close and systematic review of 
our programs and by cutting excess capacity in our support 
establishment. Over the FYDP, with congressional support we will reduce 
Navy manpower ashore and reassign over 6,000 personnel to operational 
missions at sea; use multi-year procurement and production efficiencies 
to save more than $1.1 billion on the purchase of new airborne 
surveillance, jamming, and fighter aircraft; and disestablish both 
Second Fleet and excess staffs for submarine, patrol aircraft, and 
destroyer squadrons plus one carrier strike group staff.
    Programmatically, one of the most important efficiency efforts was 
the decision endorsed by Congress to pursue the new Littoral Combat 
Ship (LCS) through a dual-block buy procurement strategy. Over the past 
years the message from Congress has been clear, we must build more 
battle force ships as affordably as we can, consistent with the 
statutory requirements laid out in the Weapons System Acquisition 
Reform Act of 2009. We heard that message clearly, and are grateful to 
the administration for its support and to the many Members of Congress 
who worked with the Navy to make the LCS program an example of what can 
be done right when strict acquisition standards are laid out and 
enforced.
    With an average cost of $440 million per ship, and with the cost 
reductions we have seen demonstrated on LCS 3 and 4, the Navy will save 
taxpayers approximately $1.9 billion in fiscal year 2012-16. More 
importantly, the fact that prices were so dramatically reduced from the 
initial bids in 2009 will allow us to save an additional $1 billion--
for a total of $2.9 billion--through the dual award of a 10-ship 
contract to each bidder. This plan is truly one that is good for the 
Navy, good for taxpayers, and good for the country.
    At the recommendation of both the Commandant and myself, 
significant additional savings were also achieved by the Department of 
Defense through termination of the Expeditionary Fighting Vehicle (EFV) 
program. The Nation absolutely must retain and rebuild an amphibious 
assault capability that will get Marines from ship to shore in a 
protected amphibious tracked vehicle ready for the fight. This is a 
core capability the Marine Corps must have. But the EFV is not the 
vehicle to do this. Conceived in the 1980s, the EFV was the previous 
generation's solution to a tactical problem that has since 
fundamentally changed. Just as importantly, the EFV's cost per unit 
would have eaten up over half of the Corps' total procurement account 
and 90 percent of the Corps' vehicle-related operation and maintenance 
account; the requirements levied on the vehicle outstripped what could 
affordably be achieved.
    We are committed to developing and fielding an effective, 
survivable and affordable amphibious capability that will meet the 
Corps' amphibious requirements. This will be done through upgrading 
existing vehicles, through service-life extensions, and by working with 
OSD and industry to go as fast as possible in the acquisition and 
contracting process to develop a successor program to the EFV, one that 
will meet today's requirements for this critical Marine Corps 
capability.
    We are also closely overseeing the Joint Strike Fighter program. In 
particular, we are providing additional focused attention on the Marine 
Corps variant, the F-35B, which the Secretary of Defense has placed on 
a 2-year probation. During this time, solutions to the unique F-35B 
technical issues will be engineered and assessed while production will 
be held to a minimum sustaining production rate of six aircraft per 
year in fiscal year 2012 and fiscal year 2013. This low-production rate 
is required to ensure continuity in the engineering workforce involved 
in the design and assembly of the F-35B at the prime contractor and key 
vendors without a loss in learning and to sustain the supplier base of 
F-35B unique parts. After this 2-year period of focused F-35B scrutiny, 
an informed decision will be made about how to proceed with development 
and production of this variant, to include the potential for program 
cancellation.
    I want to point out that it is only the F-35B (STOVL) variant that 
is on probation. The F-35C variant, which will be flown off of our 
aircraft carriers, is doing satisfactorily and will be procured by both 
the Navy and the Marine Corps.
    The President's budget request of $161 billion will maintain our 
commitment to take care of our people, build a strong R&D and 
industrial base, and grow a fleet capable of sustaining our preeminence 
as the world's most formidable expeditionary force. The fiscal year 
2012 request of $15 billion for contingency operations includes 
incremental costs to sustain operations, manpower, equipment and 
infrastructure repair as well as equipment replacement to support our 
operations in Afghanistan and elsewhere.
    The fiscal year 2012 President's budget request includes funds for 
10 Navy battle force ships, including: 2 Virginia-class submarines, 1 
Arleigh Burke-class destroyer, 1 Mobile Landing Platform ship, 1 Joint 
High Speed Vessel, 1 Amphibious Transport Dock Ship, and 4 Littoral 
Combat Ships.
    In aviation, we have requested 223 aircraft in the fiscal year 2012 
baseline budget, including: 13 F-35 Joint Strike Fighters for both the 
Navy and Marine Corps, 24 MH-60R and 11 P-8As to replace the aging 
current ASW and maritime patrol squadrons, 18 MH-60S for logistics 
support, 1 KC-130J, 25 H-1 variant helicopters, 30 MV-22 tilt-rotor 
aircraft, 28 F/A-18E/F fighter/attack planes, 12 E/A-18G to continue 
replacing the veteran EA-6B, 5 E-2D Advanced Hawkeyes, 36 Joint Primary 
Aircraft Trainers for our student aviators, and 20 Unmanned Aircraft.
    The fiscal year 2012 President's budget request also contains 
funding for the Navy Unmanned Combat Aerial System demonstration and 
continues development of the Broad Area Maritime Surveillance (BAMS) 
unmanned system.
    The individual efficiency initiatives the Department has put in 
place will continue to further streamline our organizations and 
operations, will reshape and reduce both capacity and personnel 
associated with the Department's ``tail,'' and will contribute to the 
dramatic transformation already underway in how the Department does its 
business. More importantly, they will sharpen the operating ``tooth,'' 
free up critical resources for maintaining and accelerating our 
shipbuilding and aviation acquisition plan, maximize fleet 
capabilities, and help preserve a strong industrial base.

     TAKING CARE OF SAILORS, MARINES, CIVILIANS, AND THEIR FAMILIES

    The Navy and Marine Corps have continued to recruit and retain the 
high quality men and women we brought into the Services in the past 
years, and 2010 was no exception. Both the Navy and Marine Corps met or 
exceeded their mission quotas and quality standards.
    We recognize that quality of life programs are important for morale 
and the military mission. We recruit Sailors and Marines, but we retain 
families. We continue to provide a wide array of readiness programs, 
including deployment support services, morale and welfare services, and 
child and teen programs. These award winning career management, 
training, and life-work balance programs are nationally recognized for 
their excellence not only by respected national human resource 
organizations, but even more by the Marines and Sailors that benefit 
directly from them.
    Medical care for our Wounded Warriors, already outstanding, 
continued to get better throughout the year. Since Operations Enduring 
Freedom and Iraqi Freedom began, over 12,000 Marines and Sailors have 
been wounded in action. Their service and sacrifice mandates that we 
provide quality care for those who have given so much for our country. 
Our medical community continues to meet this challenge and make 
advances in dealing with the signature wounds of the current wars: 
traumatic brain injuries, mental health issues, amputation, and 
disfiguring injuries, and Navy Medicine continues to reach out to its 
colleagues in both civilian and Veterans Affairs hospitals to improve 
our understanding and improve overall care for our people.
    But care for our Wounded Warriors does not end in the hospital. We 
have undertaken a commitment to bring our Veterans back into the 
workforce of the Department of the Navy through several Wounded Warrior 
outreach programs and hiring conferences. We are not there yet, but we 
are moving toward the goal of being able to say to every Wounded 
Warrior--if you want a job, we have one for you. As a representative 
example, in the past year alone, the Naval Sea Systems Command hired 
200 Wounded Warriors. In 2011 we will continue to make employment 
opportunities for Wounded Warriors a priority for the Department.
    It is important to note that rising healthcare costs within the 
Military Health System continue to present a fiscal challenge for the 
Department. Like the Secretary of Defense, both I and Departmental 
leadership are particularly concerned that the rate at which healthcare 
costs are increasing and the relative proportion of the Department's 
resources devoted to healthcare cannot be sustained; the Military 
Health System is not immune to the pressure of inflation and market 
forces evident in the civilian healthcare sector.
    The military faces a growing number of eligible beneficiaries, 
expanded benefits, and increased utilization throughout the military 
healthcare system. As a Department, we must be resolute in our 
commitment to implement systemic efficiencies and specific initiatives 
which will improve quality of care and customer satisfaction but will 
at the same time more responsibly manage cost. We have made progress, 
but there is more to do. We concur with the recommendations made by the 
Office of the Secretary of Defense; we must create incentives such as 
the Home Delivery Pharmacy Program and implement modest fee increases, 
where appropriate, to both ensure the fiscal position of the system and 
ensure equity in benefits for our retirees.
    Taking care of Sailors and Marines also means aggressively 
addressing the issues of sexual assault prevention and response. Last 
year, you supported the establishment of a new Office of Sexual Assault 
Prevention and Response (SAPRO) reporting directly to me to focus 
attention on the issue, develop effective training, and coordinate 
prevention and response programs across the Navy and Marine Corps. 
However, it is clear through sexual assault surveys that this crime 
remains a significant problem in the services, and within some 
populations we have seen a negative trend of an increased number of 
assaults. But I can assure you that we are not accepting this trend, 
and we will not rest while any cases of this awful crime continue to 
occur.
    In 2010, the Department moved forward on expanding the 
opportunities for women in the Navy. We established a comprehensive 
plan to integrate women into the submarine force, beginning with our 
ballistic missile and guided missile Ohio-class submarines. This 
summer, the first 21 women officers were selected for nuclear 
training--and they have begun their approximately 15-month training 
pipeline. The first of these officers will get to their boats beginning 
in November 2011.
    We are preparing to move forward with successfully implementing 
congressional guidance with respect to repeal of ``Don't Ask, Don't 
Tell'' in 2011.
    Overall, the fiscal year 2012 budget reflects a carefully crafted 
request for the fiscal support and resources necessary to sustain the 
force in light of the ongoing demands on our people and their families. 
Thank you for your continuing support.

                     ENERGY SECURITY AND LEADERSHIP

    Energy consumption in the Navy and Marine Corps has become a 
strategic vulnerability, an operational Achilles' heel, and a readiness 
challenge. This has made our energy usage a national security issue of 
rising importance. As a Department, we rely too much on fossil fuels, 
making our forces susceptible to fluctuations in both price and supply. 
Dramatic shifts in cost and availability can be caused by a host of 
man-made or natural events in volatile areas of the world. Those 
potential shocks could have, in turn, strategic, operational, and 
tactical effects upon our forces. A survey of headlines around the 
world today demonstrates exactly the point we are trying to make--
energy is first and foremost an issue of national security.
    Without sustainable and reliable sources of energy and increased 
efficiency in our platforms, we may find ourselves paying an exorbitant 
price for operating our fleet, training our aviation and ground forces, 
and running our installations that support them. The ability to train 
and prepare forces for deployment could be curtailed. Worse still, our 
naval forces may find that future adversaries target our operational 
dependence on petroleum, as we see in attacks on fuel convoys in 
Afghanistan today. Our dependence on a fragile fuel distribution 
network increases our footprint, drains resources from the tip of the 
spear to supporting logistics lines, and ties up combat forces for 
security. Thus, energy diversity and efficiency are essential to 
maintain our warfighting capabilities and enhance our combat 
effectiveness.
    This is a topic I have spoken on a great deal, in front of this 
committee last year, around the world in speeches to industry and 
military audiences, and in conversations with international leaders. 
Through these events and discussions, it has become clear that energy 
security is not just an American issue--it is an issue that affects 
both our allies and potential adversaries alike. History has taught us 
that competition for resources has been one of the fundamental causes 
of conflict for centuries, and today, competition for energy still 
provides one of the most inflammatory sources of potential conflict.
    Energy, or more specifically denial of energy, could affect many of 
our NATO partners in Europe and indeed the strength of the alliance 
itself. Many of our partners are dependent upon external sources for 
their energy, so for them--denial of energy is a weapon, one just as 
real as the threat of tanks or airplanes.
    For all these reasons, and in order to improve our long-term 
strategic position and enhance the future operational effectiveness of 
our forces, I have charged the Navy and Marine Corps with accelerating 
the exploration and exploitation of new ways to procure, produce, and 
use energy.
    This effort began in October 2009, when I issued my five energy 
goals for the Department, the most important of which commits the Navy 
and Marine Corps to generate at least 50 percent of all the energy we 
use from alternative sources no later than 2020. Alternative sources 
include all renewable forms of energy such as solar, wind, geothermal, 
and ocean energy, as well as biofuels and nuclear energy.
    We are on track to meet all our goals, and throughout 2010, we 
demonstrated progress through many energy programs, partnerships, and 
initiatives. Throughout the year, we successfully conducted both ground 
and airborne tests of an F/A-18 Hornet and MH-60 Seahawk helicopter, 
and ran a Riverine Command Boat (experimental) on renewable biofuel 
blends made from either camelina or algae. Recently, we also completed 
testing of a marine gas turbine engine that will enable us to certify 
our frigates, destroyers and cruisers for biofuel operations. In each 
case, there was no impact on performance and no degradation to engine 
reliability. Together, these tests represent critical milestones for 
the Department's goal of demonstrating the Great Green Fleet in 2012 
and its planned deployment in 2016. In late 2010, the Navy conducted 
concurrent but unrelated tests of a more efficient F/A-18 engine in 
order to generate an increase in the aircraft's range.
    Afloat, as I discussed last year, the U.S.S. Makin Island is using 
a hybrid-electric drive to dramatically lower its fuel usage at slow 
speeds, which we estimate will generate life-cycle savings of up to 
$250 million at today's fuel prices. Over the next few years, we will 
continue to move forward with installation of a similar system on new 
construction DDGs and look at the feasibility of retrofitting the fleet 
with these systems in the course of routine shipyard availabilities.
    The Marine Corps is also aggressively exploring energy efficiency 
solutions in its operating forces in theater and in the supporting 
establishment. The Marines realize that energy as a resource influences 
a Commander's operational freedom of maneuver, and its conservation and 
wise use can save lives on the battlefield. Reduced logistics support 
and fewer convoys for expeditionary forces would free up resources and 
limit the exposure of Marines to ambush and IEDs. Energy efficiency 
equals better combat effectiveness.
    At home, the Marine Corps demonstrated their traditional spirit of 
innovation by scouring the commercial world for rugged solutions, 
building two Experimental Forward Operating Bases (ExFOB) at Quantico 
and Twentynine Palms. New alternative energy technologies tested at the 
ExFOB deployed this fall with the Third Battalion, Fifth Marines (3/5), 
posted to Sangin District in the north of Helmand Province. Immediately 
upon arrival, they began evaluating expeditionary solar power 
generators at their forward operating bases and combat outposts to 
supplement or replace fossil fuels. They have done this even while 
engaged in near constant combat against a determined enemy in one of 
the most hotly contested districts of the war.
    When I visited Sangin, I heard first-hand from a Marine First 
Lieutenant about what worked, what did not, and how his Marines in 
India Company of 3/5 were using the equipment. Two patrol bases are 
operating entirely on renewable energy, and another with a 90 percent 
reduction. One of the team-portable systems, called GREENS (Ground 
Renewable Expeditionary Energy Network System), is being used to 
provide power for the Operations Center, small radios, and small 
electronic equipment. And across the battalion's operating area, man-
portable SPACES (Solar Portable Alternative Communications Energy 
System) are being used by individual squads to recharge their radios 
and other combat electronics. This capability made it possible for a 
foot patrol to operate for 3 weeks without battery resupply, reducing 
their burden by 700 pounds and saving more than $40,000.
    By deploying these renewable solar energy technologies the Marines 
in Sangin have been able to expand their operational reach, eliminate 
or minimize their need for fossil fuels in their generators, and 
dramatically reduce the need for often dangerous logistic support.
    At Camp Leatherneck, the Marines have likewise begun a small bio-
fuel pilot project for Helmand Province, purchasing locally produced 
cotton oil from an Afghan facility to mix with their own fuel. At 
Leatherneck, a standard generator is producing power from a 20-80 mix 
of cotton oil to fuel, yielding a 20 percent reduction in demand for 
fuel, while simultaneously demonstrating to Afghan farmers that there 
are alternatives to opium, and demonstrating to Afghan leaders that 
they can power their own economy from within Afghanistan. I am 
monitoring its progress closely.
    As the ExFOB gets all this feedback from returning Marines, our 
expeditionary energy systems and programs will continue to improve and 
we will move even further down the road of energy efficient, combat 
effective forces.
    In addition to these tactical and platform applications, we have 
implemented a number of energy projects at our facilities ashore. We 
are actively exploring for new geothermal resources to augment our 
existing 270 MW geothermal powerplant at China Lake. Last year we 
established the Nation's first grid-connected wave buoy at MCB Kaneohe 
Bay, Hawaii. Last December the Marines completed a 1.5 MW solar 
installation situated atop six acres of a landfill. The installation 
was unique because the equipment foundations were designed not to 
perforate the membrane covering the garbage below. Our budget request 
asks for continued support of these and similar projects in order to 
enhance our efficiency and maximize our move to greater independence 
and more resilient infrastructure.
    And finally, throughout the year we developed partnerships with a 
number of Federal agencies, States, academic institutions, and industry 
partners including the Departments of Energy and Agriculture, NASA, and 
the Small Business Administration.
    It is precisely because of the spirit of innovation that these 
partnerships embody that our Nation remains a world leader in its 
unrivaled capacity to stimulate and exploit cutting-edge ideas and new 
technologies. The U.S. Navy has always been a technological leader and 
has excelled at embracing change, particularly in propulsion systems 
and energy sources. We moved from wind to coal in the 19th century, 
from coal to oil early in the 20th century, and added nuclear power 60 
years ago. In every transition there were opponents to change, but in 
every case these changes increased our combat effectiveness by an order 
of magnitude.
    I have tasked the Navy and the Marine Corps to once again pioneer 
technological change through alternative energy sources. I am pleased 
with the progress to date, and expect it to sharply enhance the long-
term strategic agility of our operating forces, as well as better 
posture the Department for an age of fiscal austerity and potential 
energy volatility. I want to stress, however, that every action and 
program we undertake is focused on generating improved warfighting 
capability and strategic flexibility, it is not just change for 
change's sake.

                    CREATING ACQUISITION EXCELLENCE

    Our future combat readiness is dependent upon the design, 
development and acquisition of weapons, platforms, and information 
technology. The current ships and aircraft of the Navy and Marine Corps 
provide decisive advantages over today's threats. But that edge must be 
constantly sharpened and modernized against constantly evolving 
technologies. We must continue to invest in intelligence, precision 
missiles and munitions, networked command systems, stealth technology, 
unmanned vehicles and ground fighting systems. To retain our advantage 
across multiple warfighting areas, we rely heavily upon both our 
dedicated personnel and the expertise resident in America's private 
sector. Throughout my tenure, I have taken the opportunity to visit 
shipyards, aircraft plants, vehicle factories, maintenance facilities, 
and warfare centers for detailed briefings and a firsthand look at the 
people responsible for designing and building our fleet and equipping 
our Sailors and Marines with vital weapon systems and technologies 
necessary to do their jobs. One cannot fail to recognize the 
creativity, dedication, and skills of our Nation's workforce.
    Yet, with Government spending increasingly constrained, 
affordability, cost containment and total ownership costs are more 
important than ever. Because acquisition costs are rising faster than 
our top-line and because replacement systems can be more expensive than 
the platforms or weapon systems being replaced, we are putting 
tomorrow's force at risk.
    Both on our own and as a result of Secretary Gates' guidance, the 
Department has devoted considerable effort to finding efficiencies, 
reducing support costs, and scrubbing our acquisition process to 
mitigate this impact. In accordance with the Weapons System Acquisition 
Reform Act passed by Congress in 2009, we have made the requirements 
and acquisition processes more rigorous in order to better manage the 
resources entrusted to us by the American taxpayer, and we are working 
with OSD to develop a streamlined process for acquiring information 
technology in a more responsive manner to better equip the warfighter 
with emerging technologies and ward off the cyber threat.
    This requires constant examination of every single one of our 
policies, practices, priorities, and organizations, with a clear focus 
on controlling cost. Our acquisition community has been extensively 
engaged with industry and the Services to streamline processes, and 
they are ruthlessly evaluating both requirements and the supporting 
analyses in order to get more value out of the overall acquisition 
system.
    The Navy and Marine Corps will continue initiatives already in 
place to improve processes and to instill discipline in procurement. In 
2010, we strengthened our cost estimating group and met statutory 
requirements to obtain independent cost estimates, and we have 
incorporated Defense-wide best practices in the formulation of all our 
major programs. We have made our cost estimates more realistic and are 
using these improved cost and schedule plans to make necessary 
capability tradeoffs and difficult investment decisions at the front 
end of the requirements process rather than during design or 
construction.
    A professional acquisition workforce is a key element in our 
overall acquisition excellence initiative and a driver in our strategy 
to preserve our fighting edge at an affordable cost. Accordingly, and 
with your strong support, we are rebuilding the acquisition workforce 
within Government to fulfill Federal oversight of the acquisition 
process and ensure that accountability to taxpayers is the foremost 
concern of our employees. In the last year, the Department has added 
nearly 1,300 acquisition professionals toward the goal of increasing 
the community by 5,090 over the FYDP.
    Our acquisition strategies have been shaped to expand the use of 
fixed price contracts, leverage competition, and tighten up on the use 
of incentive and award fees to ensure quality systems are consistently 
delivered on budget and on schedule. The new acquisition plan for the 
Littoral Combat ship epitomizes this strategy, and is indicative of the 
type of fixed price contracts that will be the model for the future. 
The LCS block-buy contracts are the result of effective competition and 
give the Government full ownership of the technical data package used 
in construction. This will ensure our ability to pursue competitive 
strategies for LCS Seaframe requirements in fiscal year 2016 and beyond 
and affords greater congressional oversight of the program. With the 
new LCS strategy, we get more ships, at a faster rate, and at less 
cost.
    The LCS dual-block procurement strategy also contributes to meeting 
another acquisition goal of both this committee and the Navy through 
its strong support of the industrial shipbuilding base. Modernizing 
today's force and recapitalizing the fleet affordably cannot be 
accomplished without a healthy industrial base and strong performance 
by our industry partners. We have worked hard to procure our ships, 
aircraft, and weapon systems at a rate intended to bring stability to 
the industrial base and enable efficient production. The Navy's 
shipbuilding and aviation plans were developed with particular regard 
to maintaining the unique characteristics and strength of the 
industrial base and our efforts have promoted increased competition, 
greater innovation, and better capacity within the base.
    Over the FYDP, we will continue to build upon our progress to date 
and we will work with our shipyards, aircraft manufacturers, weapon 
systems providers and systems integrators to build the best possible 
fleet for the future.

             DEVELOPMENT AND DEPLOYMENT OF UNMANNED SYSTEMS

    The complex nature of today's security environment, as well as 
current and future anti-access/area-denial threats faced by the United 
States, require that the Navy and Marine Corps continue to advance in 
unmanned systems and exploit the contributions they make to warfighting 
capability. Unmanned systems are unobtrusive, versatile, persistent, 
and they reduce the exposure of our Sailors and Marines to unnecessary 
threats or dangerous environments. They can perform a vast array of 
tasks such as intelligence, surveillance and reconnaissance, 
hydrographic monitoring, mine detection, targeting, and precision 
strike.
    Navy and Marine Corps unmanned systems have already made key 
contributions to operations in Iraq and Afghanistan. In Operation Iraqi 
Freedom and Operation Enduring Freedom, unmanned aircraft systems have 
flown thousands of flight hours, enhancing the effectiveness of our 
combat operations and undoubtedly saving lives. Unmanned ground 
vehicles employed by the Marine Corps have conducted thousands of 
missions detecting and/or neutralizing improvised explosive devices. 
And off the Horn of Africa, unmanned systems contribute to surveillance 
and tracking of suspected or confirmed pirate vessels.
    The range of tasks that these capabilities may fulfill will grow 
substantially over time. I am determined to ensure that your Navy and 
Marine Corps are at the cutting edge of this military capability.
    Our vision for the future will exploit unmanned systems in every 
domain of our operating environment (sea, air, and land) while 
maintaining an affordable price. The Department's Unmanned Systems will 
move from adjunct capabilities supporting manned systems and platforms 
to providing autonomous, networked, and interoperable independent 
capabilities--much as naval aviation matured from an adjunct to the 
Battle Fleet to a combat capability in its own right in the first half 
of the 20th century.
    We will field unmanned systems in the near term to:
  --Provide sensing, influence and effects where manned systems are 
        limited by range, endurance or risk.
  --Shift from relying primarily on manned platforms to accomplish 
        missions to combinations of manned platforms, robots, augmented 
        human performance, and remotely operated and unmanned systems 
        that make operational sense.
  --Increase the combat effectiveness of Sailors and Marines, their 
        platforms and combat organizations to better operate against 
        multiple types of threats.
    In implementing this vision, we will embrace Unmanned Systems as 
critical tools in our warfighting quiver of capabilities. We will 
integrate them into everything we do across the full range of military 
operations to enhance our combat effectiveness and efficiency. And we 
will invest in the infrastructure to ensure we have the capabilities 
and capacity to properly task, collect, process, exploit and 
disseminate the information so the intelligence data gets to the 
decisionmakers and warfighters. The initiatives and investments 
contained in the fiscal year 2012 budget request will continue moving 
us along this desired track. I look forward to reporting our progress 
toward this vision throughout the year.

                               CONCLUSION

    Today I have laid out our strategic posture as well as the goals 
and priorities that guide the Department's investment portfolio and 
future direction. These goals and programs will significantly influence 
our future capabilities and ensure we remain ready to deter regional 
conflict or respond rapidly and decisively to emerging crises. Our 
specific requests are reflected in the President's fiscal year 2012 
budget submission.
    In order to retain a ready and agile force capable of conducting 
the full range of military operations, we must carefully weigh risks 
and apply our available resources efficiently and carefully. This 
year's request reflects our strategy-driven priorities and the 
disciplined trade-offs that you and the American taxpayer expect of us. 
The Department's efficiency efforts have been beneficial in terms of 
enhancing our ability to invest in the future even while preserving and 
extending our force structure.
    This is not a one-time event, as we will continuously work to 
increase efficiencies in every project, program, and operation, afloat 
and ashore. The budget request ensures that we will retain the world's 
most powerful and agile expeditionary force. The CNO, Commandant, and 
myself are committed to that aim and to being effective stewards of the 
Nation's resources.
    As Secretary, I have seen firsthand the selfless courage of our 
young Marines and Sailors in Helmand; the dedication of our medical 
community caring for our wounded; the professionalism of our surface, 
submarine and aviation Sailors; and the incredible technical skills of 
the maintenance crews that sustain them. I have also borne witness to 
the sacrifices of our personnel in hospitals in theater and at the 
National Naval Medical Center. A single visit to Bethesda will make you 
marvel at the resilience of the human spirit and the unflagging 
patriotism of our American service men and women.
    Your Navy and Marine Corps are performing at a high operational 
tempo, at unparalleled levels of skill and dedication, and with 
remarkable results afloat, at depth, aloft, in cyberspace, and ashore. 
Thanks to your support, this level of performance has been sustained 
with the modern platforms, weapons systems, and training necessary to 
underwrite our readiness. Your continued support recognizes and 
sustains the sacrifice of our Sailors, Marines, civilians and their 
families. The support of this committee for our key programs and our 
people has been instrumental to operational success of the Navy and 
Marine Corps and maintenance of the world's most flexible instrument of 
national policy--a modernized and ready naval expeditionary force.
    It is a solemn privilege to lead the Naval Services during an era 
of protracted war and national challenge. I have been honored by the 
trust the President and Congress have placed in me, and even more 
honored by the sacrifice and sterling devotion I have witnessed by 
those Sailors and Marine who go forward into harm's way to defend us. 
Preserving our values and our way of life is ultimately dependent upon 
our being prepared to use decisive force against those who threaten 
them. The Navy and Marines have been ready to do so for 235 years, and 
will continue to be ready. You can count on it.
    Thank you again for your support. Godspeed.

    Chairman Inouye. And now, may I call upon the Chief of 
Naval Operations (CNO), Admiral Roughead.

STATEMENT OF ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL 
            OPERATIONS, UNITED STATES NAVY
    Admiral Roughead. Thank you very much, Mr. 
Chairman.Chairman Inouye, Vice Chairman Cochran, and members of 
the subcommittee, it's my honor to appear before you in my 
fourth year as the Chief of Naval Operations, representing more 
than 600,000 sailors, Navy civilians, and families who operate 
and live globally. I appreciate your continued support for them 
as they continue to carry out our maritime strategy.
    I echo the Secretary's comments in extending our 
condolences to the people of Japan, with whom we enjoy a very 
unique relationship with our forward-deployed naval forces 
assigned there.
    Our Navy continues to meet operational commitments and 
respond to crises as they emerge. We're engaged in Afghanistan 
and in Iraq, with about 14,000 sailors on the ground in those 
countries, and another 14,000 at sea in the region. From our 
aircraft carriers there, we fly about 30 percent of the fixed-
wing aircraft sorties over Afghanistan.
    Our presence in the Middle East also gave us the 
flexibility to respond to the events that we see taking place 
there and elsewhere. We have elements of the Kearsarge 
amphibious ready group, with the 26 MEU, in the waters off of 
Libya, and several destroyers and submarines in the 
Mediterranean, available for tasking, as required.
    But, our interests extend beyond the Middle East, and so do 
our operations. Today, we have about 70,000 sailors deployed 
globally, with 40 percent of our ships, aircraft, and 
submarines deployed, as well. They're globally present, 
persistently engaged.
    We provide deterrence in Northeast Asia and forward 
presence in the western Pacific, which has enabled our swift 
response to the natural disaster in Japan, and our good friends 
and allies there. The ships of the USS Ronald Reagan carrier 
strike group remain underway off the east coast of Honshu, with 
significant fixed-wing and helicopter assets supporting search-
and-rescue and humanitarian assistance. At least five more 
ships will soon arrive from exercises in Southeast Asia. These 
include ships from the USS Essex amphibious ready group, which 
has the 31st MEU embarked, and which will bring additional 
humanitarian aid, advanced medical capability, and seaborne 
lift support to the Japanese Government.
    We continue our counterpiracy efforts in the Indian Ocean, 
and we continue to build maritime partnerships in Africa and 
South America and throughout the Pacific.
    These operations represent part of the growing demand for 
the offshore option that our Navy and Marine Corps team 
provides the Nation. We assume the lead for the first phase of 
ballistic missile defense of Europe, and are working with the 
Missile Defense Agency on providing that same capability 
ashore. We created the new Information Dominance Directorate, 
on my staff, which has enabled us to make better decisions and 
investments in countering the anti-access and area-denial 
strategies that we see in the world today. We recently 
established the U.S. 10th Fleet, our cyberfleet, which has 
demonstrated its expertise by conducting joint and naval 
operations in cybernetwork, cryptology, and space arenas.
    To deliver the above, we've been pushing the fleet hard. We 
have 288 ships today. It is the smallest fleet since 1916, when 
our interests and responsibilities were nowhere near what they 
are today. And that's why 313 ships remains the floor of our 
future force, and why sustaining fleet capacity is essential to 
reaching that floor.
    Since I became CNO, I've focused on ensuring that the Navy 
is ready, that our quality of work and quality of life are 
fulfilling to the men and women of our Navy, and that we place 
underperforming programs back on track. We have introduced 
stability, affordability, and capacity into our shipbuilding 
and aviation plans, and, with the assistance of Congress, we've 
advanced capabilities to meet the most likely evolving threats. 
We've secured a fixed-price dual award for 20 littoral combat 
ships, as the Secretary has mentioned. We've addressed our 
strike fighter capacity with a multiyear F/A-18 procurement. 
And pending a decision on the continuing resolution, we will 
build two Virginia-class submarines a year, another DDG-51, 
start the mobile landing platform, construct and refuel our 
aircraft carriers as planned, and continue the design of our 
replacement strategic submarine.
    I'm pleased with our accomplishments to date, and I thank 
Congress for their continued support of our acquisition 
strategy. Our fiscal year 2012 budget request is a balanced 
approach to increasing fleet capacity, maintaining warfighting 
readiness, and developing and enhancing our Navy total force. 
This budget goes beyond ships and aircraft. It enhances 
electronic warfare, information dominance, integrated air and 
missile defense, and antisubmarine warfare capabilities for 
evolving challenges. It continues to develop a family of 
unmanned systems that will work in concert with our manned 
systems to secure access and establish maritime superiority 
where and when we choose. It continues our effort, over the 
last 2 years, to reduce total ownership costs, and leverages 
the opportunity presented by the Secretary of Defense's 
efficiencies to reduce excess overhead, improve readiness, and 
reinvest in warfighting capability and capacity that improves 
the long-term sustainability of our force.
    Importantly, it supports the Secretary of Defense's 
healthcare initiatives, included in the President's budget, 
which continues our efforts to improve healthcare, improve 
internal efficiency, incentivize behavior, and ensure all our 
beneficiaries are treated equitably, and enhance our ability to 
deliver high-quality healthcare for years to come.
    You can be exceptionally proud of our sailors and our Navy 
civilians, who they are and what they do. Today's sailors are 
the best with whom I have ever served.

                           PREPARED STATEMENT

    I ask for your strong support of our fiscal year 2012 
budget. And I thank you for all that you do to support the men 
and women of the United States Navy, our enduring global force 
for good.
    Thank you very much.
    Chairman Inouye. All right. Thank you very much, Admiral.
     [The statement follows:]

              Prepared Statement of Admiral Gary Roughead

    Chairman Inouye, Vice Chairman Cochran, and members of the 
Committee, it is my honor and pleasure to appear before you, in my 
fourth year as CNO, representing the more than 600,000 Sailors and 
civilians of the United States Navy. As we have done for more than 235 
years, our Navy is forward-deployed around the world protecting our 
national security and prosperity. Today, our dedicated Navy men and 
women are operating globally at sea, on land, in the air, and in space 
and cyberspace. I appreciate your continued support for them and their 
families.
    As the demand for our Navy continues to grow, our Maritime 
Strategy, which I issued more than 3 years ago with the Commandants of 
the Marine Corps and the Coast Guard, continues to guide our Navy's 
operations and investments. Its core tenets are enduring and our Navy 
is executing daily the six core capabilities it articulates for our sea 
Services: forward presence, deterrence, sea control, power projection, 
maritime security, and humanitarian assistance and disaster response.
    With your support, since becoming CNO, our Navy has placed 
underperforming programs back on track; we have introduced stability, 
affordability, and capacity into our shipbuilding and aviation plans; 
and we have advanced capabilities to meet the most likely evolving 
threats. We improved the performance of several programs, most notably 
the Littoral Combat Ship. After cancelling the LCS ships we had planned 
for 2007 because of unacceptable costs, last year we were able to 
secure a price for 20 ships through a dual award strategy that will add 
new and needed capabilities to our Fleet, bring important stability to 
the industrial base, and get us closer to the minimum of 313 ships our 
Navy needs. I thank Congress for their support of this strategy. We 
delivered five new ships in 2010, including one Virginia class 
submarine, two Arleigh Burke Destroyers, and two T-AKE logistics ships. 
We commenced testing and low rate initial production of the P-8A 
Poseidon Multi-Mission Maritime Aircraft and continued testing and low 
rate initial production of the E-2D Advanced Hawkeye. Through multi-
year procurement contracts for F/A-18E/F and EA-18G, and Virginia class 
submarines, and planned multi-year procurements for the MH-60R/S and E-
2D, we are introducing affordability in our aviation and shipbuilding 
plans and realizing significant savings. For example, on the Virginia 
class multi-year procurement alone, the savings has been $3.2 billion. 
We are advancing capability to meet emerging threats, particularly in 
Ballistic Missile Defense (BMD) and information dominance. In BMD, we 
assumed lead for the first phase of the President's Phased Adaptive 
Approach (PAA) for BMD of Europe and we are working with the Missile 
Defense Agency on providing Aegis Ashore capability to support the 
second phase of the PAA. Our newly established Fleet Cyber Command/U.S. 
Tenth Fleet demonstrated its expertise conducting joint and naval 
exercises and operations in the cyber, network, cryptology, signals 
intelligence, information warfare, electronic warfare, and space 
arenas. We also achieved the early operational deployment of the MQ-8B 
Fire Scout Vertical Takeoff and Landing Tactical Unmanned Air Vehicle, 
the first successful flight of our Navy Unmanned Combat Air System 
demonstrator, and a memorandum of agreement with the Air Force to 
pursue increased commonality between the Global Hawk and Broad Area 
Maritime Surveillance programs.
    Our Navy continues to meet planned operational commitments and 
respond to crises as they emerge globally. We remain engaged in 
operations in Afghanistan and in Iraq. Our Navy has more than 14,000 
active and reserve Sailors on the ground and another 10,000 at sea in 
Central Command, including ongoing Individual Augmentee support to both 
operations. Our aircraft carriers provide about 30 percent of the close 
air support for troops on the ground in Afghanistan and our Navy and 
Marine Corps pilots fly an even greater percentage of electronic attack 
missions there.
    Because our national interests extend beyond Iraq and Afghanistan, 
so do the operations of our Navy. More than 40 percent of our Navy is 
underway daily; globally present and persistently engaged. Last year, 
our Navy provided deterrence against North Korea; conducted counter-
piracy operations in the Indian Ocean with a coalition of several 
nations; trained local forces in maritime security as part of our 
Global Maritime Partnership initiatives in Africa and the Pacific; 
responded with humanitarian assistance and disaster relief to the 
earthquake in Haiti and the flood in Pakistan; and conducted the 
world's largest maritime exercise, which brought together 14 nations 
and more than 20,000 military personnel, to improve coordination and 
trust in multi-national operations in the Pacific. Navy sealift 
continues to deliver the lion's share of heavy war and humanitarian 
equipment in the Central Command and Pacific Command areas of 
responsibility, while Navy logisticians operate the seaport and airport 
facilities that ensure this vital materiel arrives on time. Our Sailors 
remain forward throughout the world, projecting U.S. influence, 
responding to contingencies, and building international relationships 
that enable the safe, secure, and free flow of commerce that underpins 
our economic prosperity.
    Our Navy's global presence guarantees our access and freedom of 
action on and under the sea. We are developing with the Air Force and 
Marine Corps the Air Sea Battle concept that will identify the 
doctrine, organization, training, procedures, and equipment needed for 
our Navy to counter growing military threats to our freedom of action. 
This joint effort will inform the conceptual, institutional, and 
material actions needed to employ integrated forces that support U.S. 
operations to project power and influence, protect allies and partners, 
and secure our national objectives in peace and war.
    I remain committed to supporting our active and reserve Sailors, 
Navy civilians, and their families. Our Navy continues to be recognized 
as a highly ranked place to work as a result of its workforce planning, 
life-work integration, diversity, and training opportunities. We met or 
exceeded overall officer and enlisted active recruiting goals last year 
and we are accessing a force of extreme high quality. We continue to 
move forward on assigning women into our submarine force, with the 
first women submariners on track to report aboard SSBNs and SSGNs by 
the end of this year. We remain committed to performance as a criterion 
for promotion in our Navy, and have successfully transitioned the 
majority of our civilian personnel out of the National Security 
Personnel System (NSPS). Our remaining NSPS employees are scheduled to 
convert by the end of this year. I appreciate the support of Congress 
for our Fleet and the dedicated Sailors, Navy civilians, and their 
families that serve our nation every day.
    My priorities for the Navy remain unchanged: to build tomorrow's 
Navy, to remain ready to fight today, and to develop and support our 
Sailors, Navy civilians, and their families. We continue to advance our 
Navy in each of these areas thanks to your support.
    Our Navy remains the most capable maritime force in the world; 
however, we are stretching our force to meet Combatant Commander 
demands. Since 2000, our Navy's ship-underway days have increased by 
approximately 15 percent, yet we have about 10 percent fewer ships in 
our Fleet. Greater demand for our forces has led to longer deployments 
and shorter dwell, or turnaround times, which increase stress on our 
Sailors and drive up maintenance requirements for our ships and 
aircraft. We are implementing force management measures in the near 
term to stretch the capacity of our 286-ship force to meet increasing 
global requirements while providing the necessary maintenance our Fleet 
needs to reach its expected service life. Our Navy is different from 
other Services in that we reset our force ``in stride''; that is, we 
rely upon regular maintenance of our ships and aircraft, and training 
and certification of our crews between deployments, to sustain our 
force. I thank Congress for their support of our fiscal year 2011 
Operations and Maintenance (O&M) request, which would enable our Navy's 
continuous reset and translate into decades of service for each ship 
and aircraft, a significant return on investment.
    Regrettably, the continuing resolution (CR) for fiscal year 2011 
prevents us from applying the increased fiscal year 2011 O&M funding to 
improve our readiness, and it negatively impacts our ability to procure 
our future Navy and support our Sailors, Navy civilians, and their 
families. It has forced us to take mitigation measures that include: 
reducing operations, limiting numerous contracts for base operating 
support, slowing civilian hiring, reducing Permanent Change of Station 
notifications for our Sailors from about 6 months lead time to less 
than 2 months, not initiating the Small Business Innovative Research 
program, and delaying procurement contracts for new capabilities and 
existing production lines. Starting this month, we will cancel or scale 
back ship maintenance availabilities in Norfolk, Mayport, and San 
Diego, and cancel more than a dozen Milcon projects in several States. 
If the CR lasts all year, we will have no choice but to make permanent 
these mitigations and others, significantly reducing our operations, 
maintenance, and training. We will be forced to further reduce 
facilities sustainment, cancel training events and additional surface 
ship availabilities, and defer maintenance on our aircraft, which would 
result in almost a 1-year backlog in aviation maintenance. The impact 
of these actions will jeopardize the efforts we made in recent years to 
restore Fleet readiness. Without relief, we will procure only one 
Virginia class submarine and break the multiyear contract. Agreements 
made with our surface combatant builders, as a result of the DDG 1000/
DDG 51 swap, precludes us from awarding any DDG 51s in fiscal year 2011 
unless both ships are appropriated. In addition, without relief, we 
will delay the new start Mobile Landing Platform; we will constrain 
aircraft carrier construction and refueling, negatively impacting 
operational availability, increasing costs, and delaying CVN 79 
delivery by up to 1 year; and we will limit aviation and weapons 
procurement to fiscal year 2010 quantities, impacting E-2D and Standard 
Missile production. A full-year continuing resolution will also defer 
essential research and development in unmanned aerial systems and 
significantly delay the design of our replacement strategic deterrent 
submarine and the recapitalization of our nuclear operator training 
infrastructure. It will eliminate our ability to source out-of-cycle 
overseas contingency operations demands for increased Fleet presence 
and activated Navy Reserve Sailors. Operating under a continuing 
resolution for a full year at the fiscal year 2010 level would have 
negative effects on our Fleet, on the ship and aviation industrial 
base, and on the many workers who support naval facilities. Your 
support in addressing this critical current and long term readiness 
issue is appreciated greatly.
    Our fiscal year 2012 budget submission achieves the optimal balance 
among my priorities, but it is based on our funding request for fiscal 
year 2011. If the CR lasts all year, we will need to revisit our fiscal 
year 2012 request to properly balance our Navy for today and in the 
future. Our fiscal year 2012 budget request continues to rely on a 
combination of base budget and overseas contingency operations (OCO) 
funding, but it reduces the extent to which we rely on OCO funding for 
enduring missions. Our fiscal year 2012 request continues the effort we 
started 2 years ago to reduce the cost to own and operate our Fleet. We 
leveraged the opportunity presented by the Secretary of Defense to 
significantly reduce excess overhead costs, and apply the savings to 
warfighting capability and capacity, by executing a deliberate, 
thoughtful, and integrated approach to finding efficiencies that 
improve the long-term sustainability of our force. We are taking steps 
to buy smarter, streamline our organizations and operations, realign 
manpower, and pursue energy efficiencies. Through these efforts, and 
with your support, we will improve readiness and warfighting 
capabilities and optimize organizations and operations, including 
increasing the number of ships and aircraft in our procurement plans 
and enhancing or accelerating anti-access capabilities, unmanned 
systems, and energy initiatives.
    Our fiscal year 2012 budget request supports our Maritime Strategy 
and continues to support our forces, take care of our people, rebalance 
our force to meet current and future challenges, and reform how and 
what we buy. Highlights follow.

                         BUILD TOMORROW'S NAVY

    Since the release of our Maritime Strategy, I have stated our Navy 
requires a minimum of 313 ships to meet operational requirements 
globally. This minimum remains valid; however, we continue to examine 
this requirement to address increased operational demands and expanding 
requirements for ballistic missile defense, intra-theater lift, and 
forces capable of confronting irregular challenges. Our fiscal year 
2012 submission funds 10 ships, including two Virginia class fast 
attack submarines, one Joint High Speed Vessel (JHSV), one LPD 17, one 
Mobile Landing Platform (MLP), one DDG 51, and four Littoral Combat 
Ships (LCS), which reflects our new LCS procurement plan under the dual 
award strategy. Our submission also supports the acquisition of an 
oceanographic ship. I thank Congress for their support of our LCS 
acquisition strategy and for our shipbuilding program. With your 
support over the last 3 years, we have been able to improve the balance 
among capability, capacity, affordability, and executabilty in our 
shipbuilding plan.
    As I reported last year, I remain concerned about the capacity of 
our Fleet in the future. Starting in the 2020s, many of our existing 
cruisers, destroyers, and submarines will reach the end of their 
service lives. During this period, it will be particularly critical to 
procure sufficient new ships to offset these decommissionings to avoid 
a rapid decline in force structure. In the same timeframe, we will 
begin to procure the replacement for our Ohio class ballistic missile 
submarine, the most survivable leg of our Nation's nuclear deterrent 
triad. While we have reduced the cost of that submarine substantially, 
our total shipbuilding budget will be pressurized in that decade as we 
seek to recapitalize our surface and submarine forces while sustaining 
warfighting readiness and supporting our people. I am confident our 
near-term force structure plans provide the capability and capacity we 
need to meet demands today, but in this decade we must address how to 
best resource the shipbuilding programs required in the 2020s.
    Our fiscal year 2012 program funds 203 manned aircraft. We have 
increased our procurement of P-8A Poseidon Maritime Patrol Aircraft to 
provide needed anti-submarine warfare capacity to our Fleet and 
facilitate a successful transition from our legacy P-3 Orion aircraft. 
Our fiscal year 2012 submission also procures 28 F/A-18 E/F aircraft, 
extending the F/A-18 procurement through fiscal year 2014 and 
purchasing 41 more aircraft than requested in last year's budget 
submission. I remain committed to the F-35 Joint Strike Fighter, and 
was pleased to see the first flight of the F-35C last year. The timely 
delivery of the F-35C remains critical to our future carrier airwing 
strike fighter capacity; however, we are procuring additional F/A-18 
Super Hornets to address the decrease in strike fighter capacity we 
have identified. I thank Congress for their continued support of the F-
35 program and our overall strike fighter fleet.
    Our Navy is also looking beyond our ships and aircraft and 
investing in information capabilities that span space, cyberspace, and 
the electromagnetic spectrum. We moved boldly last year with the 
establishment of U.S. Tenth Fleet and the Deputy CNO for Information 
Dominance. That restructuring has enabled us to focus on enhancing our 
electronic warfare, information dominance, integrated air and missile 
defense, and anti-submarine warfare capabilities. I request Congress' 
support for these programs as they position our Navy to successfully 
conduct operations in an evolving anti-access environment today and in 
the future.
    A viable, highly technical, and specialized industrial base is 
essential to sustaining the capability and capacity of our future Navy. 
Our shipbuilding and aviation industrial base is a strategic national 
asset and a significant contributor to our Nation's economic 
prosperity, employing more than 97,000 uniquely skilled Americans while 
indirectly supporting thousands more through second and third tier 
suppliers. The highly specialized skills in our shipbuilding base take 
years to develop; and, if lost, cannot be easily or quickly 
reconstituted. A viable shipbuilding industrial base, underpinned by 
predictable, level-loaded ship procurement, is essential to meet our 
nation's naval requirements.
    I remain committed to delivering a balanced and capable Fleet that 
will meet our national security requirements. I seek your support for 
the following initiatives and programs:

                           AVIATION PROGRAMS

Aircraft Carrier Force Structure
    Our nuclear-powered aircraft carrier fleet is capable of flexibly 
employing capabilities that span from power projection and deterrence 
to humanitarian assistance and disaster response. Our 11-carrier force 
structure is based on worldwide presence and surge requirements, while 
also taking into account training and maintenance requirements. Our 
Navy has put in place measures to minimize the impact of the 10-carrier 
period between the inactivation of U.S.S. Enterprise (CVN 65) and 
commissioning of U.S.S. Gerald R. Ford (CVN 78). After the delivery of 
CVN 78, we will maintain an 11-carrier force by continuing the 
refueling program for Nimitz class ships and delivering our Ford class 
carriers at 5-year intervals starting in 2020.
    CVN 78, which is approximately 20 percent complete, is the lead 
ship of our first new class of aircraft carriers in nearly 40 years. 
These new carriers incorporate an innovative flight deck design that 
provides greater operational flexibility, a nuclear propulsion plant 
that generates more than 50 percent greater energy while decreasing 
maintenance requirements, and a combination of measures that reduce 
manning by more than 1,200 Sailors. Among the new technologies being 
integrated in these ships are the Dual Band Radar, the Electromagnetic 
Aircraft Launch System (EMALS), and the Advanced Arresting Gear (AAG), 
which will enable the carrier to increase its sortie generation rate by 
25 percent and lower total ownership costs. AAG is currently undergoing 
commissioning testing at our land-based testing facility and, in 
December, EMALS successfully launched an F/A-18 aircraft. Both systems 
are on schedule to support delivery of CVN 78 in September 2015.

Strike Fighter Capacity
    I remain committed to the F-35 Joint Strike Fighter (JSF) program. 
The timely delivery of the F-35C carrier variant is critical to our 
future carrier airwing strike fighter capability and capacity. As a 
result of delays in the F-35 program, we are closely managing our 
strike fighter inventory to address the decrease in strike fighter 
capacity that is projected to peak in 2018 as our F/A-18A-D aircraft 
reach the end of their service life. Our actions include managing the 
service life of our A-D aircraft, extending the service life of our A-D 
aircraft, buying new F/A-18E/F Super Hornet aircraft, and maintaining 
wholeness in the F-35C program. With these measures, we can manage our 
current strike fighter inventory to meet TACAIR requirements.

            F-35 Lightning II Joint Strike Fighter (JSF)
    The F-35 program gives us the advanced sensor, precision strike, 
firepower, and stealth capabilities our Fleet needs. I continue to base 
our Initial Operating Capability (IOC) timeline for the F-35C on the 
level of capability delivered at the completion of Initial Operational 
Test and Evaluation of the F-35C equipped with Block 3 software. We are 
reviewing the results of the in-depth Technical Baseline Review and 
restructuring of the System Development and Demonstration (SDD) phase 
to determine our IOC. While the overall system demonstration and 
development schedule has slipped, we have not reduced the total number 
of airplanes we plan to buy. Our fiscal year 2012 request procures 
seven F-35C aircraft. We are monitoring the program closely and 
managing our existing strike fighter capacity to meet power projection 
demands until the F-35C is delivered. Procurement of an alternate 
engine for the F-35 increases our risk in this program. The Navy does 
not have a requirement for an alternate engine; indeed, we would only 
take one model to sea. Its additional costs threaten our ability to 
fund currently planned aircraft procurement quantities, which would 
exacerbate our anticipated decrease in strike fighter capacity 
throughout the remainder of this decade.

            F/A-18A-D Hornet and F/A-18E/F Super Hornet
    Our F/A-18A-D Hornet aircraft were originally designed for a 
service life of 6,000 flight hours. Through a life assessment program 
and High Flight Hour (HFH) inspections, which have been in place for 3 
years, we have been able to extend the service life of our legacy F/A-
18A-D aircraft to 8,600 flight hours. Our fiscal year 2012 budget 
requests funding to pursue a Service Life Extension Program (SLEP) for 
150 F/A-18A-D aircraft, commencing in fiscal year 2012 at a rate of 
about 40 per year, that would further extend the service life of these 
aircraft to 10,000 flight hours. We are also conducting a life 
assessment program for our Super Hornet aircraft to extend their 
original 6,000-hour service life design to 9,000 hours. The F/A-18A-D 
HFH and SLEP are necessary measures to address our strike fighter 
inventory while preserving our investment in F-35C. To further reduce 
risk, we are accelerating the transition of 10 legacy F/A-18C squadrons 
to F/A-18 E/F Super Hornets, and our fiscal year 2012 budget requests 
funding to procure more F/A-18E/F Super Hornets than we requested last 
year. I thank Congress for their support of the F/A-18 program as we 
introduce F-35C into our Fleet.

EA-18G Growler
    The Navy has been a leader in Airborne Electronic Attack (AEA) for 
more than half a century and AEA is in high demand. AEA provides one of 
the most flexible offensive capabilities available to the joint 
warfighter and is becoming increasingly important as technology capable 
of manipulating the electromagnetic spectrum matures. We are leveraging 
the mature and proven F/A-18E/F Super Hornet airframe to recapitalize 
our AEA capability with the EA-18G Growler. Although the EA-18G 
currently utilizes the same ALQ-99 Tactical Jamming System as the EA-
6B, we are developing a new system, the Next Generation Jammer, as a 
replacement for the aging ALQ-99. The Next Generation Jammer will 
incorporate a Modular Open System Architecture and improved reliability 
and maintainability to provide a robust, flexible jamming capability 
that can evolve to address emerging threats. The EA-18G is in full rate 
production and we have accepted delivery of 43 aircraft. We have 
transitioned three EA-6B Prowler squadrons to EA-18G Growlers and two 
more squadrons are currently in transition. Our first EA-18G squadron 
deployed in November to Iraq. Our program of record will buy 114 total 
EA-18G aircraft, recapitalizing 10 carrier-based EA-6B squadrons and 
four expeditionary squadrons, all to be stationed at NAS Whidbey 
Island. The program continues to deliver on schedule and our fiscal 
year 2012 budget requests funding for 12 EA-18Gs.

P-3C Orion and P-8A Poseidon Multi-Mission Maritime Aircraft
    Our P-3C Orion aircraft remain in high demand today across a range 
of missions including Anti-Submarine Warfare, Anti-Surface Warfare, and 
time-critical Intelligence, Surveillance and Reconnaissance. Our 
Maritime Patrol Aircraft (MPA) force is a direct enabler for troops on 
the ground in Central Command while also ensuring access and battle 
space awareness at sea. Because we are operating our P-3Cs at a high 
rate, about 100 P-3 aircraft have been grounded since February 2005 for 
fatigue life and we anticipate continued groundings through the 
remainder of the P-3 program. Through significant congressional support 
for P-3C wing repairs and sustainment, as of February, we have a 
current inventory of 84 mission aircraft; a 58 percent increase since 
last year. Our fiscal year 2012 budget requests about $100 million to 
continue our P-3C sustainment program. Continued investment in this 
program and in the modernization of our P-3s is critical to ensure we 
retain sufficient capacity to conduct maritime battle space awareness 
and support to land forces in Central Command, while successfully 
transitioning to the P-8A.
    The P-8A Poseidon Multi-Mission Maritime Aircraft is ideally suited 
for regional and littoral operations, and is our pre-eminent airborne 
capability against submarine threats. Procurement of P-8A will deliver 
needed capacity for these missions. The P-8A is scheduled to reach 
initial operating capability and will begin replacing our aging P-3 
Fleet in 2013. The current delivery schedule enables transition of two 
squadrons per year. Our fiscal year 2012 budget requests funding for 11 
P-8A aircraft. I request Congress' support for the P-8A program 
schedule and for our P-3 sustainment and modernization program, the 
combination of which is essential to our transition to the next 
generation of MPA capability while avoiding future gaps in our MPA 
force.

E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye aircraft, will replace the E-2C and 
represents a two-generation leap in airborne radar surveillance 
capability. The E-2D will improve nearly every facet of tactical air 
operations and add overland and littoral surveillance to support 
theater Integrated Air and Missile Defense (IAMD) against air threats 
in high clutter, complex electro-magnetic and jamming environments. The 
airborne radar on the E-2D, with its improved surveillance capability, 
is a key pillar of the Navy Integrated Fire Control-Counter Air (NIFC-
CA) concept. Four test aircraft have been delivered to the Navy and we 
will commence operational test and evaluation in late 2011. The first 
Fleet squadron transition is planned for 2013, with an IOC scheduled 
for late 2014. Our fiscal year 2012 budget requests six E-2D aircraft. 
We plan to procure 75 aircraft, with the final aircraft procurement in 
2019 and Full Operational Capability (FOC) in 2022.

MH-60R/S Multi-Mission Helicopter
    The MH-60R and MH-60S are in full rate production. The MH-60R 
multi-mission helicopter replaces the surface combatant-based SH-60B 
and carrier-based SH-60F with a newly manufactured airframe and 
enhanced mission systems. With these systems, the MH-60R provides 
focused surface warfare and anti-submarine warfare capabilities for our 
strike groups and individual ships. The MH-60S supports surface 
warfare, combat logistics, vertical replenishment, search and rescue, 
air ambulance, airborne mine counter-measures, and naval special 
warfare mission areas. We have delivered 85 MH-60R and 187 MH-60S to 
our Fleet and our fiscal year 2012 budget requests funding for 24 MH-
60R and 18 MH-60S helicopters.

                         SURFACE SHIP PROGRAMS

Littoral Combat Ship (LCS)
    LCS is a fast, agile, networked surface combatant optimized to 
support naval and joint force operations in the littorals with 
capability to support open-ocean operations. It will operate with 
focused-mission packages to counter mine, small boat, and submarine 
threats in the littorals. The modular design and open architecture of 
the seaframe and mission modules provide the inherent flexibility to 
add or adapt capabilities as new technologies mature or to counter 
threats that emerge beyond the Mine Countermeasures, Surface Warfare, 
and Anti-Submarine missions currently planned for LCS. These ships will 
employ a combination of manned helicopters and unmanned aerial, 
surface, and undersea vehicles.
    U.S.S. Freedom (LCS 1) completed her first operational deployment 
to the Southern and Pacific Commands in April 2010, 2 years early. 
While deployed, U.S.S. Freedom successfully conducted counter-drug 
missions and validated its open ocean capability, allowing us to learn 
valuable lessons from these real-world operations. U.S.S. Independence 
(LCS 2) was commissioned in January 2010 and is currently in Norfolk 
undergoing post-delivery tests and trials. We are seeing demonstrated 
performance and stability in the construction of LCS 3 and LCS 4 that 
captures lessons learned from the first ships. PCU Fort Worth (LCS 3) 
was launched and christened in December and is completing final 
construction. PCU Coronado (LCS 4) is almost 50 percent complete and is 
scheduled to be launched and christened later this year. Both LCS 3 and 
LCS 4 are experiencing minimal change and are scheduled to be delivered 
to the Navy in 2012 on cost and on schedule.
    I thank Congress for approving the Navy's dual award strategy in 
December 2010. This strategy enables the Navy to save over $2 billion 
in acquisition costs and acquire these ships well below the 
congressionally mandated $480 million cost cap set in 2009. It allows 
our Navy to acquire an additional Littoral Combat ship, increasing 
needed capacity in our Fleet. I am impressed and satisfied with the 
capabilities of both LCS designs and remain committed to procuring 55 
of these ships. Consistent with the dual award strategy, our fiscal 
year 2012 budget requests four LCS seaframes at a total cost of $1.8 
billion. The budget also requests two mission packages in fiscal year 
2012. These packages provide the vital center for LCS's combat 
capability and we have aligned LCS mission module procurement with that 
of our LCS seaframes. I request your continued support as we continue 
to acquire the future capacity and capability the Fleet requires.

Ballistic Missile Defense (BMD)
    The Navy's mature and proven maritime Ballistic Missile Defense 
(BMD) capability will play a primary role in the first phase of our 
Nation's Phased Adaptive Approach (PAA) for the missile defense of our 
NATO Allies in Europe. Our fiscal year 2012 budget requests funding to 
increase our current BMD ship capacity from 21 ships (5 cruisers and 16 
destroyers) to 41 BMD capable ships by 2016. This planned capacity 
expansion will eventually include all of the Navy's Arleigh Burke class 
destroyers and nine Ticonderoga class cruisers. Until we grow our BMD 
ship capacity, our existing BMD ships may experience longer deployment 
lengths and less time between deployments as we stretch our existing 
capacity to meet growing demands.
    As part of the PAA, we are working with the Missile Defense Agency 
to adapt Navy's proven and flexible Aegis BMD capability for use in an 
ashore configuration by repackaging components of the afloat Aegis 
Weapons System into modular containers for deployment to pre-prepared 
forward sites. The Aegis Ashore Missile Defense Test Complex is 
currently under development, with fabrication to begin in Kauai, Hawaii 
in 2013. This complex is a key enabler of the Aegis Ashore capability, 
which will be tested prior to shore placement overseas in 2015. This 
phased approach provides needed technology and capacity to pace the 
threat; it serves as a conventional counter to trends in global 
ballistic missile technology; and it allows for technological 
maturation through 2020.

DDG 51 Flight IIA and Flight III
    To keep pace with the evolving air and missile defense threats, we 
restarted the DDG 51 Flight IIA production line in the fiscal year 2010 
and fiscal year 2011 budgets with advanced procurement buys for DDG 
113, 114, and 115. The restarted DDG 51 Flight IIA destroyers provide 
Navy with a proven multi-mission combatant that fills critical 
warfighting needs across the spectrum, and is the first warship built 
from the keel up to conduct maritime Ballistic Missile Defense. They 
will be the first Aegis ships to be built with the Open Architecture 
Advanced Capability Build (ACB) 12 Aegis Combat System. ACB-12 will 
allow these surface combatants to be updated and maintained with 
commercial off-the-shelf (COTS) technology, yielding reduced Total 
Ownership Cost and enhancing the ability to adapt to future military 
threats. Our fiscal year 2012 budget requests funding for the 
construction of DDG 116 as part of our plan to build seven more of the 
Flight IIA class over the FYDP (an increase of one DDG 51 over last 
year's budget). We also request just over $75 million to support 
Research and Development for ACB-12, which will support the integration 
of this critical system on DDG 113 and our development of Aegis Ashore.
    The follow-on to DDG 51 Flight IIA is the DDG 51 Flight III, which 
will commence with the construction of DDG 123. Flight III ships will 
be tailored for Integrated Air and Missile Defense (IAMD) and include 
the Air and Missile Defense Radar (AMDR), upgraded command and control 
software and hardware, and enhanced electrical power and cooling. Our 
fiscal year 2012 budget requests funding for a total of eight DDG 51 
class ships, including funding for the first Flight III ship in fiscal 
year 2016.

Modernization
    To counter emerging threats, we continue to make significant 
investments in cruiser and destroyer modernization to sustain our 
combat effectiveness and to achieve the 35 year service life of our 
Aegis fleet. Our destroyer and cruiser modernization program includes 
Hull, Mechanical, and Electrical (HM&E) upgrades, as well as advances 
in warfighting capability and open architecture to reduce total 
ownership costs and expand mission capability for current and future 
combat capabilities. In addition to HM&E upgrades, key aspects of our 
Destroyer and Cruiser modernization programs include the installation 
or upgrade of the Aegis weapons system to include an open architecture 
computing environment, addition of the Evolved Sea Sparrow Missile 
(ESSM), an upgraded SQQ-89A(V)15 anti-submarine warfare system, and 
improved air dominance with processing upgrades and Naval Integrated 
Fire Control-Counter Air capability. Our Destroyers also receive 
integration of the SM-6 missile, while our Cruisers receive 
installation of the AN/SPQ-9B radar and an upgrade to Close In Weapon 
System (CIWS) Block 1B. Maintaining the stability of the cruiser and 
destroyer modernization program is critical to our ability to provide 
relevant capability and capacity in our future Fleet. Our fiscal year 
2012 budget requests funding for the modernization of four cruisers 
(three Combat Systems and one HM&E) and three destroyers (one Combat 
System and two HM&E).

DDG 1000
    The DDG 1000 Zumwalt guided missile destroyer will be an optimally 
crewed, multi-mission surface combatant optimized for long-range 
precision land attack. In addition to providing offensive, distributed 
and precision fires in support of forces ashore, these ships will serve 
as test-beds for advanced technology, such as integrated power systems, 
a sophisticated X-Band radar, and advanced survivability features, 
which can inform future ship designs. Following a Nunn-McCurdy breach 
due to the reduction in procurement to three ships, we restructured the 
DDG 1000 program to remove the highest risk technology, the Volume 
Search Radar, from integration into the platform. DDG 1000 is more than 
37 percent complete and is scheduled to deliver in fiscal year 2014 
with an initial operating capability in fiscal year 2016.

Joint High Speed Vessel (JHSV)
    The JHSV will deliver a new level of organic logistic and maneuver 
flexibility for Combatant Commanders. JHSV is a high speed, shallow 
draft ship. Its unique design allows the ship to transport medium 
payloads of cargo and/or personnel to austere ports without reliance on 
port infrastructure. JHSV-1 and -2 are currently under construction by 
Austal USA in Mobile, AL and are scheduled to be delivered in fiscal 
year 2012 and 2013. Our fiscal year 2012 budget requests funding for 
the construction of the third JHSV. We are currently developing a 
Memorandum of Agreement with the Army that would transfer programmatic 
oversight and responsibility for the entire JHSV program, including 
operations and maintenance, to the Navy. Upon the signing of the 
agreement, all JHSVs when delivered would be operated by the Navy's 
Military Sealift Command and manned by civilian or contract mariners.

                           SUBMARINE PROGRAMS

Virginia Class SSN
    The Virginia class submarine is a multi-mission submarine designed 
to dominate the undersea domain in the littorals, access denied 
environments, and the open ocean. Now in its 14th year of construction, 
the Virginia program is demonstrating its continued ability to deliver 
this critical undersea asset affordably and on time. The Navy continues 
to realize a return on investment in the Virginia cost reduction 
program and construction process improvements through enhanced 
shipbuilder performance on each successive ship. A majority of the 
submarines contracted via multiyear procurement have delivered under 
budget and ahead of schedule, and their performance continues to exceed 
expectations with every ship delivered. I am pleased with the 
accomplishments of the combined Navy-Industry team and anticipate 
additional improvements as we ramp up production to two submarines per 
year, as requested in our fiscal year 2011 and 2012 budget submissions.

SSBN and Ohio Replacement
    The Navy remains committed to recapitalizing the Nation's sea-based 
strategic deterrent, the most survivable leg of our nuclear triad. With 
a fleet of 14 Ohio class ballistic missile submarines (SSBN), we have 
been able to meet the strategic needs of the Nation since 1980. This 
class will begin retirement after more than 40 years of service in 
2027.
    The 2010 Nuclear Posture Review reaffirmed that our Nation will 
continue to rely on a reliable and survivable sea-based strategic 
deterrent for the foreseeable future. To ensure the Navy is able to 
meet the Nation's demand in this critical capability, our fiscal year 
2012 budget requests research and development funds for the design of 
the Ohio class replacement, enabling construction of the class 
beginning in 2019. The Ohio replacement will possess the endurance and 
stealth required for continuous, survivable strategic deterrence for 
decades to come. Appropriate R&D investment is essential to design a 
reliable and survivable submarine capable of deterring all potential 
adversaries. Over the past year, the Ohio replacement program has been 
thoroughly reviewed and all aspects of the program were aggressively 
challenged to drive down engineering and construction costs. Our fiscal 
year 2012 request represents best balance of needed warfighting 
capabilities with cost. The Ohio replacement program will leverage the 
many successes of the Virginia SSN program to achieve acquisition and 
total ownership cost goals. These efficiencies and a record of 
acquisition excellence are critical to minimize risk to our total force 
structure while recapitalizing sea-based strategic deterrence between 
fiscal year 2019 and fiscal year 2033.

                        AMPHIBIOUS WARFARE SHIPS

LPD 17 Class Amphibious Warfare Ship
    The San Antonio class LPD (LPD 17) amphibious warfare ships provide 
the Navy and Marine Corps the ability to embark, transport, control, 
insert, sustain, and extract combat marines and sailors on missions 
that range from forcible entry to forward deployed crisis response. 
These ships have a 40-year expected service life and will replace four 
classes of older ships: the LKA, LST, LSD 36, and the LPD 4. Of the 11 
ships in our program of record, five ships have been delivered, three 
have completed their initial deployments, and four are under 
construction. We continue to resolve material reliability concerns with 
the class and apply the lessons learned during initial operation of the 
early ships to those under construction. Quality continues to improve 
with each ship delivered as we work closely with the shipbuilder to 
address cost, schedule, and performance issues. Our fiscal year 2012 
budget requests funding to procure the final ship in the program.

LHA Replacement (LHA(R))
    LHA(R) is the replacement for our aging Tarawa class ships, which 
will reach the end of their extended service life between 2011-2015. 
LHA(R) will provide flexible, multi-mission amphibious capabilities by 
leveraging the LHD 8 design. The America (LHA 6) is now more than 30 
percent complete and on schedule for delivery in fiscal year 2014. 
Beginning with LHA 8, the Navy will reintegrate the well deck into the 
large deck amphibious assault ships. Our fiscal year 2012 budget 
requests funding for research and development to support reintegration 
of the well deck into the design of the large deck amphibious ship and 
the construction of LHA 8 in fiscal year 2016.

Mobile Landing Platform (MLP)
    Based on commercial technology, the Mobile Landing Platform (MLP) 
will enable the transfer of equipment, personnel, and sustainment at-
sea, and delivery ashore in support of a wide range of contingency 
operations. Our fiscal year 2012 budget requests funding for one MLP 
and we intend to procure a total of three MLPs. We expect the first 
ship to deliver in fiscal year 2013 and project initial operating 
capability and incorporation into the Maritime Prepositioning Force 
(MPF) for 2015. In the Maritime Preposition Force, each of our existing 
Maritime Preposition Squadrons will be augmented by one MLP, one T-AKE 
combat logistics ship, and a Large Medium-Speed Roll-on/Roll-off (LMSR) 
cargo ship. The three T-AKE are all under contract with projected 
delivery dates beginning this year and going through fiscal year 2013.

                     INFORMATION DOMINANCE PROGRAMS

Unmanned Systems
    Our Navy is developing a ``family'' of unmanned systems over, on, 
and under the sea to provide unique capability, in concert with our 
manned platforms, to rapidly secure access and establish maritime 
superiority at the time and place of our choosing. We are developing 
information architecture that will allow us to rapidly assimilate data 
into information for our commanders, enabling shorter decision cycles 
that will give us an advantage in joint and maritime operations.

            Unmanned Aircraft Systems (UAS)
    Our unmanned aircraft family of systems includes the Broad Area 
Maritime Surveillance (BAMS) UAS, which will enhance our situational 
awareness and shorten the sensor-to-shooter kill chain by providing 
persistent, multiple-sensor capabilities to Fleet and Joint Commanders. 
Through our recent memorandum of agreement with the Air Force, we are 
pursuing greater commonality and interoperability between BAMS and the 
Air Force's Global Hawk UAV. Our Vertical Take-off and Landing Tactical 
Unmanned Air Vehicle (VTUAV) is on its second deployment aboard the 
U.S.S. Halyburton (FFG 40) and will deploy in an expeditionary role to 
support combat operations in Afghanistan later this year. Our fiscal 
year 2012 budget includes about $12 million in research and development 
funding to facilitate development of a weapons-capable VTUAV ready for 
deployment in late fiscal year 2012. Our fiscal year 2012 request also 
includes funding to develop a medium range maritime-based UAS (MRMUAS) 
and a Small Tactical Unmanned Aerial System (STUAS) that will support a 
variety of ships, Naval Special Warfare and Navy Expeditionary Combat 
Command units, and Marine Corps elements.
    The Navy Unmanned Combat Aircraft System Demonstration (NUCAS-D) 
will prove carrier suitability of an autonomous, unmanned, low-
observable, carrier-based aircraft. This effort includes maturing 
technologies for aircraft carrier catapult launches and arrested 
landings, as well as integration into carrier-controlled airspace. 
Initial flight tests to demonstrate carrier suitability are scheduled 
to start next year and autonomous aerial refueling demonstrations are 
planned for 2014. We will leverage the lessons learned from operating 
the demonstrator in developing a low-observable unmanned carrier-
launched airborne surveillance and strike system (UCLASS). The UCLASS 
program will shorten the timeline to find, fix, track, target, engage, 
and assess time sensitive targets. UCLASS will integrate with the 
carrier air wings and increase the flexibility, versatility, and 
capability of the carrier force. We are currently developing the UCLASS 
acquisition strategy with OSD.

            Unmanned Underwater Vehicles (UUV)
    UUVs provide an innovative technological solution to augment manned 
platforms. Our Navy has logged more than 85,000 hours of UUV operations 
to improve battlespace awareness. Our small-body Littoral Battlespace 
Sensing (LBS) oceanographic autonomous undersea gliders have 
demonstrated the ability to conduct 6-month long autonomous operations 
and will achieve Initial Operating Capability this year. Our fiscal 
year 2012 budget requests about $13 million for research, development, 
and procurement of the LBS glider. We are also developing Large 
Displacement UUVs (LDUUVs) with the capability to autonomously deploy 
and manage a variety of sensors and payloads. The development of these 
highly capable vehicles will require investment in commercially and 
militarily beneficial alternative energy technologies, including 
refinement of fuel cell technology and cutting edge battery 
technologies. Our fiscal year 2012 budget requests about $50 million to 
develop an LDUUV, and I remain committed to conduct fully independent 
UUV missions with durations of 2 months by 2017. This capability will 
allow full scale employment and deployment of LDUUV squadrons in the 
2020s.

Mobile User Objective System (MUOS)
    Our Maritime Strategy demands a flexible, interoperable, and secure 
global communications capability that can support the command and 
control requirements of highly mobile and distributed U.S. and 
coalition forces. Satellite communications give deployed forces a 
decisive military advantage and often offer the only communication 
means to support ongoing operations. Rapidly expanding joint demand for 
more access at ever-higher data rates requires moving beyond our 
current legacy Ultra High Frequency (UHF) satellite capabilities. The 
Mobile User Objective System (MUOS) will help satisfy those demands 
when initial operational capability is reached in fiscal year 2012. The 
first satellite in our planned constellation of five is scheduled for 
on-orbit capability in May 2012. Our fiscal year 2012 budget submission 
continues our investment in MUOS to replace the aging UHF Follow-On 
(UFO) constellation. I request your continued support of MUOS and the 
critical narrowband communication capability it will provide to the 
joint warfighter.

Next Generation Enterprise Network (NGEN)
    The Next Generation Enterprise Network (NGEN) is a Department of 
the Navy (DON) enterprise network that will provide secure, net-centric 
data and services to Navy and Marine Corps personnel after the current 
Navy-Marine Corps Intranet (NMCI) network stands down. In July, Navy 
awarded Hewlett Packard Enterprise Services with the Navy-Marine Corps 
Intranet (NMCI) continuity of services contract to transition the Navy 
out of Navy-Marine Corps Intranet (NMCI) and into NGEN. NGEN will 
sustain the services currently provided by NMCI, while increasing 
government command and control of our network and enabling secure, 
reliable, and adaptable global information exchange. The initial NGEN 
contracts are expected to be awarded in the first quarter of fiscal 
year 2012. Our fiscal year 2012 budget requests an additional $22 
million to support government command and control of our networks and 
improve our network situational awareness and defense.

                      REMAIN READY TO FIGHT TODAY

    Our Navy continues to experience a high tempo of global operations 
which I expect to continue even as combat forces draw down in 
Afghanistan. Global trends in economics, demographics, resources, and 
climate change portend an increased demand for maritime power and 
influence. America's prosperity depends upon the seas: 90 percent of 
world trade moves on the world's oceans and underwater 
telecommunications cables facilitate about $3.2 trillion of commerce 
each year. As new trade patterns emerge, such as those that will result 
from the expansion of the Panama Canal and the opening of the Arctic, 
and as disruption and disorder persist in our security environment, 
maritime activity will evolve and expand. Seapower allows our Nation to 
maintain U.S. presence and influence globally and, when necessary, 
project power without a costly, sizeable, or permanent footprint 
ashore. We will continue to maintain a forward-deployed presence around 
the world to prevent conflict, increase interoperability with our 
allies, enhance the maritime security and capacity of our traditional 
and emerging partners, confront irregular challenges, and respond to 
crises.
    High operational demand for our force over the last decade has led 
to longer deployments, lower dwell time, and reduced maintenance time 
for our surface ships. If these trends continue, our force will be less 
ready and less available than it is today because of increased stress 
on our Sailors and a reduction in our Fleet capacity as ships fail to 
reach their expected service lives. We have initiatives currently 
underway to address these trends. We are moving approximately 1,900 
Sailors from shore billets onto our ships to meet operational demands 
while maintaining acceptable Fleet readiness levels and Sailor dwell 
time. To enhance the material readiness of our Fleet, we are improving 
our ability to plan and execute maintenance by increasing manning at 
our Regional Maintenance Centers (RMCs), and by institutionalizing our 
engineered approach to surface ship maintenance, converting the 
successes of our Surface Ship Lifecycle Maintenance (SSLCM) initiative 
I began 2 years ago into the Surface Maintenance Engineering Planning 
Program Activity (SURFMEPP). I remain focused on ensuring our Navy has 
a force that is maintained and trained to provide the capability and 
forward presence required in the two areas of interest identified in 
our Maritime Strategy, the Western Pacific and the Arabian Gulf, while 
preserving our ability to immediately swing from those regions and our 
Fleet concentration areas in the United States to respond to 
contingencies globally.
    Our fiscal year 2012 base budget and Overseas Contingency 
Operations (OCO) funding requests balance the need to meet increasing 
operational requirements, sustain our Sailors' proficiency, and conduct 
the maintenance required to ensure our ships and aircraft reach their 
full service lives. It does not address the potential impacts of a 
full-year continuing resolution on our ongoing operations and 
maintenance afloat and ashore. Highlights follow of initiatives that 
ensure our Navy remains ready to fight today.

Depot Level Maintenance
    Our ships and aircraft are valuable capital assets that operate in 
unforgiving environments. Keeping these assets in acceptable operating 
condition is vital to their ability to accomplish assigned missions and 
reach their expected service lives. Timely depot level maintenance, 
based on an engineered assessment of expected material durability and 
scoped by actual physical condition, will preserve our existing force 
structure. Continued investment in depot level maintenance is essential 
in achieving and sustaining the force structure required to implement 
our Maritime Strategy. Our combined fiscal year 2012 base budget and 
OCO funding requests fulfill 94 percent of the projected ship depot 
maintenance requirements necessary to sustain our Navy's global 
presence and 95 percent of our aviation depot maintenance requirements, 
servicing 742 airframes and 2,577 engines. The actual extent of our 
depot maintenance requirements will be determined by the final funding 
levels for fiscal year 2011. I request that you fully support our 
baseline and contingency funding requests for operations and 
maintenance to ensure the effectiveness of our force, safety of our 
Sailors, and longevity of our ships and aircraft.

Shore Readiness
    Our shore infrastructure enables our operational and combat 
readiness, and is essential to the quality of life and quality of work 
for our Sailors, Navy civilians, and their families. High operational 
demands, rising manpower costs, and an aging Fleet of ships and 
aircraft cause us to take deliberate risk in shore readiness, 
specifically in sustaining our shore infrastructure. We have focused 
our facilities sustainment, restoration, and modernization funds on 
improving our housing for unaccompanied Sailors and investing in energy 
efficient building modifications. To source these enhancements, we have 
temporarily cancelled our demolition program and reduced our facilities 
sustainment posture to 80 percent of the modeled requirement. We have 
targeted our shore readiness investments in areas that have the 
greatest impact on achieving our strategic and operational objectives. 
These areas include support to our warfighting missions and 
capabilities, nuclear weapons security, quality of life for our Sailors 
and their families, and energy enhancements. We remain on track in our 
Homeport Ashore initiative to provide sufficient accommodations to our 
junior single Sailors by 2016, and we continue our support for family 
services. We plan to complete an expansion of 7,000 child care spaces 
in fiscal year 2011, allowing us to meet OSD's mandate of providing 
child care for 80 percent of the potential need in fiscal year 2012.

Training Readiness
    Our Navy is leveraging Modeling and Simulation (M&S) extensively 
across the Fleet training continuum to reduce at-sea training 
requirements and associated operating costs and energy use. These 
virtual environments stress critical command and control warfare skills 
and fine tune basic warfighting competencies without going to sea. They 
provide synthetic events that are scalable and repeatable, including 
the ability to train multiple strike groups simultaneously. Synthetic 
training provides a complex, multi-faceted threat environment that 
cannot be efficiently recreated at sea on a routine basis. Ship command 
and control simulations, in conjunction with the Fleet Synthetic 
Training (FST) program, support unit level and integrated pre-
deployment training and certification, including Joint Task Force 
Exercises (JTFEX), Ballistic Missile Defense Exercises (BMDEX), and LCS 
qualification and certification training. In fiscal year 2012, our 
Navy's use of simulators will reduce steaming days by 603 days for a 
savings of $30 million, and flying hours by 5,400 hours, for a savings 
of $35 million. The Fleet has placed FST as a top training priority 
with the objective to increase simulator use and synthetic training to 
reduce Fleet operating costs.
    Although we are maximizing our use of synthetic training, it cannot 
completely replace our need to conduct live training. Simulators cannot 
replicate the physical environment, risks, stress, or experiences that 
live training provides. Naval units must be able to practice and hone 
their skills in the air and at sea. Having the right facilities and the 
ability to practice skill sets in a live operating environment are 
necessary for the proficiency and safety of our Sailors and for the 
warfighting effectiveness of our Fleet.
    The proliferation of advanced, stealthy submarines continues to 
challenge our Navy's ability to guarantee the access and sustainment of 
joint forces. Robust Anti-Submarine Warfare (ASW) training with active 
sonar systems is vital for our Navy to effectively address this threat. 
The Navy remains a world leader in marine mammal research and we will 
continue our investment in this research in fiscal year 2012 and 
beyond. Through such efforts, and in full consultation and cooperation 
with other Federal agencies, we have developed effective measures that 
protect marine mammals and the ocean environment from adverse impacts 
of mid-frequency active (MFA) sonar while not precluding critical Navy 
training. We continue to work closely with our interagency partners to 
further refine our protective measures as scientific knowledge evolves. 
It is vitally important that any such measures ensure the continued 
flexibility necessary to respond to future national security 
requirements.
    In January, we announced our plan to initially focus Joint Strike 
Fighter (JSF) homebasing on the west coast in accordance with 2010 
Quadrennial Defense Review direction and the JSF Transition Plan. We 
also announced that we are suspending work on the Outlying Landing 
Field (OLF) draft environmental impact statement (EIS) planned for the 
east coast until at least 2014. At that time, we will re-evaluate the 
requirement for an OLF based on our east coast JSF basing and training 
requirements. We continue to experience capacity shortfalls at our 
current east coast field carrier landing practice sites that present 
challenges to meeting our current training requirements under both 
routine and surge conditions for existing Navy aircraft. We will 
continue to ensure we meet all our training requirements by 
implementing the measures necessary to use all available facilities.

Energy and Climate Change
    The Secretary of the Navy and I are committed to advancing our 
energy security. I consider energy an operational imperative and I 
established the Navy's Task Force Energy more than 2 years ago to 
improve combat capability, assure mobility, and green our footprint. We 
will achieve these goals through energy efficiency improvements, 
consumption reduction initiatives, and the aggressive adoption of 
alternative energy and fuels. Reducing our reliance on fossil fuels 
will improve our combat capability by increasing time on station, 
reducing time spent alongside replenishment ships, and producing more 
effective and powerful future weapons.
    Our tactical energy efforts fall into two categories: technical and 
behavioral changes that use energy more efficiently, and testing/
certification of alternative fuels. We are making good progress on our 
efficiency initiatives. The U.S.S. Makin Island (LHD 8) uses hybrid 
propulsion and we are installing the same system on LHA-6 and LHA-7. We 
are developing a hybrid electric drive system for the DDG-51 class and 
I anticipate a land-based test as early as this summer. We continue to 
introduce advanced hull and propeller coatings and solid state lighting 
in our ships, and we are developing the Smart Voyage Planning Decision 
Aid to achieve more efficient ship routing. We are also implementing 
policies that encourage Sailors to reduce their personal energy usage. 
These incremental initiatives add up to significant efficiency 
improvements.
    Our alternative energy programs are progressing. We are 
aggressively certifying elements of our operational force for biofuel 
use. To date we have operated the ``Green Hornet'' F/A-18 and MH-60S on 
camelina-based JP-5 fuel and the RCB-X riverine craft on algal-based F-
76 fuel. Operational testing of energy efficiency upgrades to the 
Allison 501k engine completed last month and is a key milestone toward 
certification of our Navy combatants with marine gas turbine engines.
    We have reduced our energy use ashore by more than 14 percent since 
2003, as a result of our energy efficiency efforts, including energy 
efficiency building upgrades, energy management systems, procurement of 
alternative fuel vehicles, and achievement of sustainable building 
standards for all new construction and major renovation projects. Our 
continued investments in advanced metering and energy audits will help 
identify further opportunities for efficiency gains and alternative 
energy use. Our approach remains focused on integrating the right 
technology at the right time in the right place while transforming Navy 
culture and behavior for long term sustainability.
    Since establishing Task Force Climate Change in 2009, our Navy has 
taken several actions to better understand and address the potential 
impacts of climate change on our Navy. We have increased our 
operational engagement in the Arctic, participating this past summer in 
Operation NANOOK/NATSIQ with Canada. We are re-assessing regional 
security cooperation, through our African, Southern, and Pacific 
Partnership station missions to include consideration of climate change 
adaptation, especially with respect to improving water security. We are 
also participating with the National Oceanographic and Atmospheric 
Administration (NOAA) and other Federal agencies to survey in the 
Arctic and improve our environmental observation and prediction 
capability worldwide. Scientific observations indicate that current 
changes to the climate are occurring on a decadal scale, giving our 
Navy enough time to conduct the studies and assessments necessary to 
inform future investment decisions.

Second East Coast Carrier-Capable Homeport
    The Navy continues to focus on achieving the 2010 Quadrennial 
Defense Review direction to upgrade the carrier port of Mayport. Much 
like the dispersal of west coast aircraft carriers between California 
and Washington, a second homeport on the east coast to maintain 
aircraft carriers is prudent in the event of a natural or man-made 
disaster in Hampton Roads. The dredging project funded in fiscal year 
2010 is underway and will ensure unimpeded access to Mayport. Our 
fiscal year 2012 budget requests funding for the Massey Avenue corridor 
improvement projects. We plan to request funding for the Wharf F 
recapitalization in fiscal year 2013, and the remaining projects within 
the FYDP, to establish Naval Station Mayport as nuclear carrier-capable 
homeport by 2019.

United Nations Convention on the Law of the Sea
    The Navy has consistently supported a comprehensive and stable 
legal regime for the exercise of navigational rights and other 
traditional uses of the oceans. The Law of the Sea Convention provides 
such a regime with robust global mobility rules. I believe it essential 
that the United States become a full Party to the treaty. The 
Convention promotes our strategic goal of free access to and public 
order on the oceans under the rule of law. It also has strategic 
effects for global maritime partnerships and American maritime 
leadership and influence. Creating partnerships that are in the 
strategic interests of our Nation must be based on relationships of 
mutual respect, understanding, and trust. For the 160 nations who are 
parties to the Law of the Sea Convention, a basis for trust and mutual 
understanding is codified in that document. The treaty provides a solid 
foundation for the United States to assert its sovereign rights to the 
natural resources of the sea floor out to 200 nautical miles and on the 
extended continental shelf beyond 200 nautical miles, which in the 
Arctic Ocean is likely to extend at least 600 nautical miles north of 
Alaska. As a non-Party to the treaty, the United States undermines its 
ability to influence the future direction of the law of the sea. As the 
only permanent member of the U.N. Security Council outside the 
Convention, and one of the few nations still remaining outside one of 
the most widely subscribed international agreements, our non-Party 
status hinders our ability to lead in this important area and could, 
over time, reduce the United States' influence in shaping global 
maritime law and policy. The Law of the Sea Convention provides the 
norms our Sailors need to do their jobs around the world every day. It 
is in the best interest of our Nation and our Navy to ratify the Law of 
the Sea Convention. We must demonstrate leadership and provide to the 
men and women who serve in our Navy the most solid legal footing 
possible to carry out the missions that our Nation requires of them.

   DEVELOP AND SUPPORT OUR SAILORS, NAVY CIVILIANS AND THEIR FAMILIES

    Our Sailors, Navy civilians, and their families are the backbone of 
our Maritime Strategy. They make us who we are. Their skill, 
innovation, and dedication turn our ships, aircraft, weapons and 
systems into global capabilities that prevent conflict, build 
partnerships, and, when necessary, project combat power to prevail in 
war. Our investment in our Sailors, Navy civilians, and their families 
ensures our Navy's continued maritime dominance today and in the 
future.
    Our fiscal year 2012 budget requests authorization and funding for 
325,700 active and 66,200 reserve end strength. This request includes 
the migration of more than 1,800 military billets from shore and staff 
activities into the Fleet to man new ships and squadrons, restore 
optimal manning cuts, add needed information technology and nuclear 
operators to our force, and restore billets for fiscal year 2013 to 
extend U.S.S. Peleliu in commission. This migration will enhance our 
forces afloat; however, the transition will present challenges to our 
ability to maintain sea-shore flow for some of our enlisted Sailors and 
sustain manning levels across the force. We are aware of these 
challenges and believe the transition is manageable. Our fiscal year 
2012 end strength request also begins to move end strength previously 
supported by OCO funding, namely our Navy Individual Augmentees (IAs), 
into our baseline program. We will execute a phased draw down of our 
OCO end strength as we project a gradual reduction of IA demands in 
Iraq and Afghanistan. Should IA demand remain at current levels, or 
increase over time, we will be challenged to meet manning requirements 
for our Fleet. Our Navy continues to size, shape, and stabilize our 
force through a series of performance-based measures designed to retain 
the skills, pay grades, and experience mix necessary to meet current 
and future requirements.
    Our fiscal year 2012 endstrength reflects efficiencies in our 
manpower account that reduce excess overhead by disestablishing several 
staffs, but not their associated ships and aircraft, for submarine, 
patrol aircraft, and destroyer squadrons, as well as one Carrier Strike 
Group staff. We are disestablishing the headquarters of Second Fleet 
and transferring responsibility for its mission to U.S. Fleet Forces 
Command. These efficiencies streamline our organizations and allow us 
to reinvest the savings into warfighting capability and capacity.
    I would like to touch briefly on the issue of changes to the 
healthcare benefit. Navy Medicine has been a leader in implementing 
pilot testing for the Department in a new concept called the Patient-
Centered Medical Home. Beneficiaries have welcomed Navy Medicine's 
Medical Home Port initiative and it shows in their satisfaction scores. 
I am convinced that our beneficiaries will readily accept very modest 
changes to copayments as long as we continue to invest in these 
transformational approaches to delivering high quality healthcare. The 
proposals in the President's budget are consistent with our efforts 
over the last several years: a focus on internal efficiency, 
incentivizing the health behaviors we want, and ensuring all of our 
beneficiaries are treated equitably. I request you support these timely 
and appropriate efforts.
    The tone of our force continues to be positive. In 2010, we 
conducted the Navy Total Force Survey, which was the first of its kind 
to assess the work-related attitudes and experiences of active and 
reserve Sailors and Navy civilians. The survey reported that Navy 
personnel are, overall, satisfied with the quality of their leadership, 
benefits, compensation, and opportunities within the Navy for personal 
growth and development. The survey results reaffirmed what more than 20 
national awards have recognized: that our Navy is a ``Top 50'' 
organization and an employer of choice among today's workforce.
    Our fiscal year 2012 budget request represents a balanced approach 
to supporting our Sailors and their families, sustaining the high tempo 
of current operations, and preserving Fleet and family readiness. 
Highlights follow of our efforts to develop and support our Sailors, 
Navy civilians and their families.

Recruiting and Retention
    Our Navy has enjoyed strong recruiting success over the past 3 
years, and we expect this trend to continue through fiscal year 2011. 
Fiscal year 2010 marked the third consecutive year Navy met or exceeded 
its overall enlisted recruiting goals in both the Active and Reserve 
Components and we continue to exceed Department of Defense quality 
standards in all recruit categories. We accessed the highest quality 
enlisted force in history last year, with more than 97 percent having 
traditional high school diplomas. Active officer recruiting for fiscal 
year 2010 also exceeded our overall goals. Reserve officer recruiting 
exceeded our fiscal year 2009 levels, but achieved only 95 percent of 
our fiscal year 2010 goal. Reserve medical officer recruiting continues 
to be our greatest challenge as the requirement for medical officers 
has increased by more than 100 percent since fiscal year 2008. We 
continue to explore new avenues for recruiting, including expanding our 
social media engagement to maintain a dialogue with potential 
applicants and influencers nationwide.
    Navy will remain competitive in the employment market through the 
disciplined use of monetary and non-monetary incentives. Using a 
targeted approach, we will continue our recruiting and retention 
initiatives to attract and retain our best Sailors, especially those 
within high-demand, critical skill areas that remain insulated from 
economic conditions. We are taking advantage of current high retention 
rates and success in accessions by reevaluating all special and 
incentive pays and bonuses and reducing them where possible. Judicious 
use of special and incentive pays remains essential to recruiting and 
retaining skilled professionals in the current economic environment, 
and will increase in importance as the economic recovery continues. Our 
goal remains to maintain a balanced force, in which seniority, 
experience, and skills are matched to requirements.
    To ensure we stay within our congressionally authorized end 
strength, we are executing force stabilization measures that include 
Perform-to-Serve (PTS) for enlisted Sailors and a series of Selective 
Early Retirement (SER) boards for Unrestricted Line (URL) Captains and 
Commanders. PTS considers the manning levels in each enlisted rating 
and reviews the record of Sailors eligible for reenlistment to 
determine if the Sailor should remain in the rating, convert to an 
undermanned specialty, transition to the reserves, or separate from the 
Navy. The SER boards will address the excess inventory of active 
component Captain (O6) and Commander (O5) URL officers in our Navy to 
ensure sufficient senior officers are available at the right time in 
their careers to serve in critical fleet billets. We project 
approximately 100 URL Captains and 100 URL Commanders will be selected 
for early retirement through this process. With these performance-based 
measures, we expect to meet our fiscal year 2011 authorized active end 
strength of 328,700 and reserve end strength of 65,500 by the end of 
the fiscal year. We will be challenged to meet our active and reserve 
end strength targets in fiscal year 2012 using existing force shaping 
measures. As a result of continued high retention and low attrition 
across the force, we are facing increasing pressure to use involuntary 
force shaping measures to remain within our authorized end strength.

Diversity
    Demographic projections estimate that today's minorities will make 
up more than one-third of our Nation's workforce by 2020; by 2050, that 
projection increases to about half of our workforce. Our ability to 
access and retain the talents of every component group in our society 
is critical to our mission success. Recruiting and retaining a diverse 
workforce, reflective of the Nation's demographics at all levels of the 
chain of command, remains a strategic imperative and a focus area for 
leaders throughout our Navy. To foster a Navy Total Force composition 
that reflects America's diversity, we are focusing our efforts on 
outreach, mentoring, leadership accountability, training, and 
communication. Our diversity outreach efforts have contributed to our 
2014 U.S. Naval Academy and NROTC classes being the most diverse 
student bodies in our history. We have increased diverse accessions 
through targeted recruiting in diverse markets, developing 
relationships with key influencers in the top diverse metropolitan 
markets, and aligning Navy assets and organizations to maximize our 
connection with educators, business leaders and government officials to 
increase our influencer base. We continue to expand our relationships 
with key influencers and science, technology, engineering, and 
mathematics (STEM)-based affinity groups to inform our Nation's youth 
about the unique opportunities available in our Navy. We are also 
building and sustaining a continuum of mentorship opportunities that 
includes the chain of command, individual communities, social 
networking, peer-to-peer relationships, and affinity groups. We will 
continue to ensure that all Sailors are provided with opportunities to 
develop personally and professionally.

Women on Submarines
    After notifying Congress last year of our intent to assign women to 
submarines, the Secretary of the Navy and I have authorized female 
officers to serve aboard Ohio class SSBN and SSGN submarines. This will 
enable our submarine force to leverage the tremendous talent and 
potential of the women serving in our Navy. The first 18 female 
submarine officers commenced the standard 15-month nuclear and 
submarine training pipeline in 2010, and will begin arriving at their 
submarines at the end of this year. These officers will be assigned to 
two ballistic missile (SSBN) and two guided missile (SSGN) submarines 
which have the space to accommodate female officers without structural 
modification. The plan also integrates female supply corps officers 
onto SSBNs and SSGNs at the department head level. In December, the 
Secretary of Defense notified Congress of Navy's intent to expend funds 
to commence design and study efforts regarding reconfiguration of 
existing submarines to accommodate female crew members, as well as to 
design the Ohio replacement SSBN with the flexibility to accommodate 
female crew members.

Don't Ask, Don't Tell
    I am pleased Congress voted to repeal section 654 of Title 10, 
United States Code, commonly referred to as the ``Don't Ask, Don't 
Tell'' (DADT) statute. Legislative repeal affords us the time and 
structured process needed to effectively implement this significant 
change within our Armed Forces. As I testified in December, we will be 
able to implement a repeal of DADT in our Navy. I assess the risk to 
readiness, effectiveness, and cohesion of the Navy to be low. Our 
implementation process will be thorough, but timely. We are preparing 
the necessary policies and regulations to implement this change in law 
and training Sailors and leaders at all levels to ensure they 
understand what repeal means to them, their families, and the Navy. 
Before repeal can occur, the President, Secretary of Defense, and 
Chairman of the Joint Chiefs must certify that the change can be made 
in a manner consistent with the standards of military readiness, 
military effectiveness, unit cohesion, and recruiting and retention of 
the Armed Forces. I will provide Navy's input to the certification 
process and I remain personally engaged in this process.

Sailor and Family Continuum of Care
    We remain committed to providing our Sailors and their families a 
comprehensive continuum of care that addresses all aspects of medical, 
physical, psychological, and family readiness. Our fiscal year 2012 
budget request expands this network of services and caregivers to 
ensure that all Sailors and their families receive the highest quality 
healthcare available.
    Navy Safe Harbor is at the forefront in Navy's non-medical care for 
all seriously wounded, ill, and injured Sailors, Coast Guardsmen, and 
their families. We have expanded our network of Recovery Care 
Coordinators and non-medical Care Managers to 12 locations across the 
country. Safe Harbor continues to provide exceptional, individually 
tailored assistance to a growing enrolled population of more than 600 
individuals. Over 116,000 Sailors and their spouses have participated 
in Operational Stress Control (OSC) training, which actively promotes 
the psychological health of Sailors and their families by encouraging 
them to seek help for stress reactions early, before they become 
problems. The Warrior Transition Program (WTP) and Returning Warrior 
Workshops (RWW) are essential to post-deployment reintegration efforts. 
The WTP offers an opportunity for IA Sailors redeploying from a combat 
zone to decompress, turn in their gear, and receive tools that will 
help them ease their transition back to their home and families. The 
RWW is designed to address personal stress that may be generated by 
deployment activities and it supports and facilitates the reintegration 
of the deployed Sailor with his/her spouse and family. The RWW also 
provides a safe, relaxed atmosphere in which to identify and address 
potential issues that may arise during post-deployment reintegration.

Stress on the Force
    While the overall tone of our force remains positive, current 
trends suggest that high operational tempo, increasing mission demands, 
lean manning, force shaping, and economic conditions are placing 
increased stress on our Navy personnel. Our fiscal year 2012 budget 
requests increased funding to improve our program manager-level support 
of our suicide prevention and stress control programs.
    Suicide dramatically affects individuals, commands and families. 
Over the last year, we expanded our approach to preventing suicides 
from historic suicide surveillance and annual awareness training to 
include more comprehensive resilience building and tailored suicide 
prevention training, peer intervention, research and analysis. We saw a 
reduction in our number of suicides from 46 in calendar year 2009 to 38 
in calendar year 2010. Our calendar year suicide rate also decreased 
from 13.3 per 100,000 Sailors in 2009 to 10.9 per 100,000 Sailors in 
2010. Our 2010 suicide rate is below the national rate of 19.0 per 
100,000 individuals for the same age and gender demographic; however, 
any loss of life as a result of suicide is unacceptable. Suicide 
prevention is an ``all hands, all the time'' effort involving our 
Sailors, families, peers, and leaders. We continue to work toward a 
greater understanding of the issues surrounding suicide to ensure that 
our policies, training, interventions, and communications are meeting 
intended objectives.
    We are integrating our suicide prevention efforts into the broader 
array of programs we offer to improve the resilience of our force. 
These programs, aimed at reducing individual stress, address issues, 
such as substance abuse prevention, financial management, positive 
family relationships, physical readiness, and family support.
    We continue our efforts to eliminate sexual assault by fostering a 
culture of prevention, victim response and offender accountability. 
Sexual assault is incompatible with our Navy core values, high 
standards of professionalism, and personal discipline. We have 
organized our efforts in this critical area under the Navy Sexual 
Assault Prevention and Response (SAPR) program. The SAPR program and 
the Naval Safety Center and Alcohol and Drug Prevention Program are 
currently developing an integrated approach to sexual assault 
prevention that includes clear leadership communication, bystander 
intervention training for Sailors to help them recognize and interrupt 
risky situations, and training for military investigators and lawyers 
on issues specific to sexual assault investigation and prosecution.

Learning and Development
    Education and training are strategic investments that give us an 
asymmetric advantage over adversaries. To develop the highly skilled, 
combat-ready force necessary to meet the demands of the Maritime 
Strategy and the Joint Force, we have 15 learning centers around the 
country providing top-notch training to our Sailors, Navy civilians and 
members of the other Services. In fiscal year 2010, we completed 
learning and development roadmaps for all enlisted ratings, providing 
Sailors with detailed information about the required training, 
education, qualifications and assignments they need to succeed in their 
career fields. We continue to leverage a blended training approach, 
integrating experienced instructors, advanced technology, and state-of-
the-art delivery systems with modularized content in order to provide 
the right training at the right time in a Sailor's career. We are 
balancing existing education and training requirements with growth in 
important mission areas such as cyber defense, missile defense, and 
anti-submarine warfare. Cultural, historical, and linguistic expertise 
remain essential to successfully accomplishing the Navy's global 
mission, and our budget request supports our Language, Regional 
Expertise, and Culture (LREC) program as well as the Afghanistan-
Pakistan (AF-PAK) Hands Program sponsored by the Joint Staff. Last year 
the LREC program provided language and cultural training to more than 
120,000 Sailors en route to overseas assignments. We recognize the 
importance of providing our people meaningful and relevant education, 
particularly Joint Professional Military Education (JPME), which 
develops leaders who are strategically minded, capable of critical 
thinking, and adept in naval and joint warfare. Our resident courses at 
Naval War College, non-resident courses at Naval Postgraduate School 
and in the Fleet Seminar program, and distance offerings provide ample 
opportunity for achievement of this vital education.

                               CONCLUSION

    You can be exceptionally proud of our Sailors. They are our 
Nation's preeminent force at sea, on land, and in air, space, and 
cyberspace. While the future is not without challenges, I am optimistic 
about our future and the global opportunities our Navy provides our 
Nation. Our fiscal year 2012 budget request represents a balanced 
approach to increasing Fleet capacity, maintaining our warfighting 
readiness, and developing and enhancing our Navy Total Force. I ask for 
your strong support of our fiscal year 2012 budget request and my 
identified priorities. Thank you for your unwavering commitment to our 
Sailors, Navy civilians, and their families, and for all you do to make 
our United States Navy an effective and enduring global force for good.

    Chairman Inouye. And may I now call upon the Commandant of 
the Marine Corps, General Amos.

STATEMENT OF GENERAL JAMES F. AMOS, COMMANDANT, UNITED 
            STATES MARINE CORPS
    General Amos. Mr. Chairman, Ranking Member Cochran, members 
of the subcommittee, it's my honor to appear before you today, 
for the first time, as our Nation's Commandant of the Marine 
Corps.
    The Corps serves as America's expeditionary force in 
readiness, a balanced air-ground logistics team of 202,000 
Active, 39,000 Reserve, and 35,000 civilian marines.
    Today, there are over 32,000 marines forward-deployed 
around the world. As we sit here in the comfort of this hearing 
room, it's just past 8:30 in the evening in Afghanistan. The 
rainy season has hit. The evenings remain cold and damp. It's 
in this nation where 20,000 of our young men and women are 
engaged in full-spectrum combat and counterinsurgency 
operations. I'm encouraged by the significant progress they 
have made in the Helmand Province. And you have my assurance 
that this effort remains my top priority.
    Sergeant Major Kent and I spent Christmas with our marines 
and sailors in Afghanistan, and I'm happy to report that their 
morale is high and their belief in their mission remains 
strong.
    Partnered with the United States Navy, we are forward-
deployed and forward-engaged. This past year alone, our float 
forces conducted humanitarian assistance missions in Pakistan, 
Haiti, and the Philippines, recaptured the pirated ship, 
Magellan Star, from its Somali pirates. And 2 weeks ago, 
marines from the 1st Battalion, 2d Marine Regiment, rapidly 
deployed to the Mediterranean to join their brothers and 
sisters on board two amphibious ships. This formidable force is 
underway now, prepared to do our Nation's bidding.
    Likewise, on the opposite side of the world, marines based 
on Okinawa rapidly responded to our ally, Japan, following this 
week's devastating earthquake and tsunami. Within hours of this 
tragedy, marine aviation units from the Marine Corps Air 
Station Futenma Okinawa began transporting humanitarian 
assistance goods, disaster response planning teams, and 
personnel to impacted areas. We have established a forward-
refueling and operating base, just west of the devastation, to 
facilitate around-the-clock search-and-rescue and transport 
operations. Our marines already on the ground are being joined 
by 2,200 marines and sailors from the three amphibious ships of 
the 31st Marine Expeditionary Unit. In addition to a multitude 
of other capabilities, the 31st MEU is optimized for 
humanitarian assistance and disaster response operations.
    Evidenced by what has unfolded globally just within the 
last 2 weeks, our role as America's crisis response force 
necessitates that we maintain a high state of readiness. Our 
mission is simple. We need to be ready to respond to today's 
crisis, with today's force, today.
    I am keenly aware of the fiscal realities confronting our 
Nation. During these times of constrained resources, the Marine 
Corps remains committed to being the best stewards of scarce 
public funds. We maintain a longstanding tradition in Congress 
as the Department of Defense's penny-pinchers. Our 
institutionalized culture of frugality positions us as the best 
value for the Defense dollar.
    For approximately 8.5 percent of the annual Defense budget, 
the Marine Corps provides the Nation 31 percent of its ground 
operating forces, 12 percent of its fixed-wing tactical 
aircraft, and 19 percent of its attack helicopters. This year's 
budget submission was framed by my four service-level 
priorities: We will, one, continue to provide the best-trained 
and -equipped marine units to Afghanistan; two, rebalance our 
Corps and posture it for the future in a post-Afghanistan 
environment; three, better educate and train our marines to 
succeed in increasingly complex environments; and last, but not 
least, we will keep faith with our marines, our sailors, and 
our families.
    While these priorities will guide our long-term planning 
for the Marine Corps, there are pressing issues that face our 
Corps today that concern me, issues for which I ask for 
Congress' continued assistance in solving. Our equipment abroad 
and at home stations has been heavily taxed in the nearly 10 
years of constant combat operations. The price tag for reset 
today is $10.6 billion. The F-35B STOVL Joint Strike Fighter is 
vital to our ability to conduct expeditionary airfield 
operations. Continued funding and support from Congress for 
this important program is of utmost importance to me and the 
Marine Corps.
    You have my promise that, during the next 2 years of F-35B 
scrutiny, I will remain personally engaged with the program, 
closely supervising it. Both the Secretary of Defense and the 
Secretary of the Navy have reaffirmed the necessity of the 
Marine Corps' amphibious assault mission. We must develop an 
affordable and capable amphibious vehicle to project marines 
from sea to land in permissive and uncertain and in hostile 
environments. I ask for your support to reach this goal.
    To ensure the Marine Corps remains a relevant force with a 
capacity and capability to respond to the demands of the future 
security environment, we recently conducted a detailed and 
internally driven force-structure review. The results of this 
effort provide America a strategically mobile, middleweight 
force, optimized for forward presence in crisis response.
    Finally, I would like to comment on the impact of--the 
current continuing resolution has had on our operations and 
programs. As of this morning, $1 billion in military 
construction contracts have not been awarded; $2.4 billion of 
Milcon is at risk for the remainder of the year. These project 
impact--projects impact the lives of marines, the local 
economies and communities around our bases and stations, and 
are projected to generate over 63,000 jobs, from the Carolinas 
to Hawaii.
    If the continuing resolution extends through the entire 
fiscal year, 13 bachelor enlisted quarters (BEQ), totaling 
5,000 affected spaces, will not be built, thus stymieing our 
BEQ modernization plans. These 13 BEQs will allow eight 
infantry battalions to move out of 50-year-old cold war-era 
barracks.
    Finally, a continuing resolution could prove catastrophic 
to our procurement accounts, resulting in the loss of almost 
one-third or our procurement budget.
    Last, you have my promise that, in these challenging times 
ahead, the Marine Corps will only ask for what it needs, not 
what it might want. We will make the hard decisions before 
coming to Congress, and we will redouble our efforts toward our 
traditional culture of frugality.

                           PREPARED STATEMENT

    Once again, Mr. Chairman, I thank you, and each of you, for 
your continued support. I'm prepared to answer your questions.
    Chairman Inouye. Thank you very much, Commandant.
     [The statement follows:]

              Prepared Statement of General James F. Amos

               AMERICA'S EXPEDITIONARY FORCE IN READINESS

    The Marine Corps is America's Expeditionary Force in Readiness--a 
balanced air-ground-logistics team. We are forward-deployed and 
forward-engaged: shaping, training, deterring, and responding to all 
manner of crises and contingencies. We create options and decision 
space for our Nation's leaders. Alert and ready, we respond to today's 
crisis, with today's force . . . Today. Responsive and scalable, we 
team with other services, allies and interagency partners. We enable 
and participate in joint and combined operations of any magnitude. A 
middleweight force, we are light enough to get there quickly, but heavy 
enough to carry the day upon arrival, and capable of operating 
independent of local infrastructure. We operate throughout the spectrum 
of threats--irregular, hybrid, conventional--or the shady areas where 
they overlap. Marines are ready to respond whenever the Nation calls . 
. . wherever the President may direct.

                                              General James F. Amos

               AMERICA'S EXPEDITIONARY FORCE IN READINESS

    Today, your United States Marine Corps is foremost America's 
Expeditionary Force in Readiness. Established originally by an act of 
the Second Continental Congress on November 10, 1775, your Marine Corps 
has evolved over 235 years into a balanced air-ground-logistics team 
that is forward deployed and forward engaged: shaping, training, 
deterring, and responding to all manner of crises and contingencies.
    Through the ongoing support of Congress and the American people, 
your Marine Corps is a cohesive force of 202,100 Active Duty Marines; 
39,600 Selected Reserve Marines; and 35,000 Civilian Marines. At any 
given time, approximately 30,000 Marines are forward deployed in 
operations supporting our Nation's defense.\1\ This year, as our Nation 
recognizes a decade since the tragic events of 9/11, your Marine Corps 
has been conducting Overseas Contingency Operations for an equal amount 
of time. From Task Force 58 with 4,400 Marines launching from six 
amphibious ships to secure critical lodgments in Afghanistan in late 
2001 to our counterinsurgency efforts in the Al Anbar province of Iraq 
and to our current operations in the Helmand River Valley of 
Afghanistan, your Marines have been forward deployed in the service of 
our Nation.
---------------------------------------------------------------------------
    \1\ As of December 2010, there were approximately 20,700 Marines in 
Afghanistan including Marines serving in external billets (e.g. 
transition teams and joint/interagency support, etc.); 6,200 at sea on 
Marine Expeditionary Units; and 1,600 Marines engaged in various other 
missions, operations and exercises. The 30,000 statistic excludes over 
18,000 Marines assigned to garrison locations outside the continental 
United States such as in Europe, the Pacific, etc.
---------------------------------------------------------------------------
    Yet, during this time the Marine Corps has not been confined solely 
to major combat operations and campaigns. From our rapid response 
aiding fellow Americans and enabling joint and interagency relief 
efforts following Hurricane Katrina's floods, to our non-combatant 
evacuation operation of 14,000 American citizens from Lebanon in 2006, 
to our numerous and ongoing security cooperation missions with nations 
of Africa, Eastern Europe, the Pacific Rim, and Latin America, the 
United States Marine Corps continues to demonstrate the agility and 
flexibility expected of America's principal crisis response force. Over 
the course of the past year alone, your brave men and women who wear 
the Marine uniform and who bring a diversity of talent in service to 
our Nation, have simultaneously:
  --Waged an aggressive full-spectrum counterinsurgency operation in 
        Afghanistan while concurrently increasing combat power nearly 
        two-fold (i.e. from 10,600 to 19,400) in accordance with the 
        President's December 2009 Afghanistan-Pakistan strategy;
  --Successfully completed our mission in Iraq, bringing stability to 
        Al Anbar province. This achievement was not without sacrifice 
        and suffering in that 1,022 \2\ Marines gave their lives and 
        8,626 Marines were wounded in action;
---------------------------------------------------------------------------
    \2\ 1022 deaths = 851 killed in action (hostile) and 171 deceased 
(non-hostile).
---------------------------------------------------------------------------
  --Partnered with allied forces in engagement missions throughout 
        every Geographic Combatant Commander's Area of Responsibility;
  --Conducted foreign humanitarian assistance and disaster relief 
        missions in Pakistan, Haiti, and the Philippines;
  --Participated in maritime security operations to ensure freedom of 
        navigation along vital sea lines of communication, to include 
        the recapture of the vessel Magellan Star and rescue of its 
        crew from Somali pirates; and
  --Rapidly reinforced U.S. Embassies in Port au Prince, Haiti; 
        Conakry, Guinea; Bishkek, Kyrgyzstan; and most recently Cairo, 
        Egypt to assist and protect diplomatic personnel amidst crises 
        in these foreign capitals.
    Their actions align with the functions of our Corps as seen in the 
new Department of Defense Directive 5100.01, Functions of the 
Department of Defense and Its Major Components, and are a critical link 
to the continued prosperity and security of our Nation and the survival 
of our friends, allies and partners. The performance of your Marines on 
the global stage adds to our storied legacy of sacrifice and success--
under even the most adverse conditions--inspiring a sense of pride and 
confidence in the American public that their Marines are able to 
respond quickly, ensuring the Nation's interests will be protected.

                      FUTURE SECURITY ENVIRONMENT

    Public law, defense policy, our doctrine and operating concepts, 
and the future security environment shape how we organize, train, and 
equip our forces. As we look ahead, we see a world of increasing 
instability, failed or failing states, and conflict characterized by: 
Poverty, unemployment, urbanization, overpopulation, and extremism; 
competition for scarce natural resources; and rapid proliferation of 
new technologies to include capabilities to disrupt cyber networks, 
advanced precision weaponry, and weapons of mass destruction.
    These troubling socio-economic and geopolitical trends converge in 
the littorals--regions along the world's coastline where the sea joins 
with the land. The majority of the world's population lives near the 
sea. The trend toward accelerated birth rates in the developing world, 
coupled with ongoing migration from rural to urban landscapes, results 
in hyper-populated coastal regions, burdened by the cumulative 
stressors of criminality, extremism, and violence.
    Littoral cities increasingly may assume what some have called feral 
qualities, raising the potential for conflict, providing a measure of 
sanctuary for our adversaries, and posing challenges to governmental 
sovereignty and regional security. It is in this complex environment 
that your United States Marine Corps will operate. We stand optimally 
postured to conduct a range of operations for Joint Force commanders, 
bridging the gap between operations at sea and on land.
    Nonetheless, we are committed to the prevention of conflict as we 
are to responding to it. Indeed, 21st century security challenges 
require expansion of global engagement--facilitated through persistent 
forward naval presence--to promote collective approaches to addressing 
common security concerns. Accordingly, forward deployed Marine forces 
will increasingly conduct theater security cooperation activities and 
will build partnership capacity through security force assistance 
missions with our allies and partners around the globe. The goal of our 
engagement initiatives is to minimize conditions for conflict and 
enable host nation forces to effectively address instability as it 
occurs.

                        ROLE OF THE MARINE CORPS

    The United States is a maritime nation with global 
responsibilities. With a naval tradition as the foundation of our 
existence, we remain firmly partnered with the U.S. Navy. Forward 
deployed, we retain the ability to come from the sea rapidly to conduct 
missions across the range of military operations. Our persistent 
forward presence and multi-mission capability present an unparalleled 
ability to rapidly project U.S. power across the global commons--land, 
sea, air, space, and cyber.
    Amphibious forces with robust and organic logistical sustainment 
provide a maritime Super Power significant advantages, including the 
ability to overcome the tyranny of distance and to project power where 
there is no basing or infrastructure--a strong deterrent capability for 
our Nation. To Marines, ``expeditionary'' is a state of mind that 
drives the way we organize our forces, train, develop and procure 
equipment. By definition, our role as America's crisis response force 
necessitates a high state of unit readiness and an ability to sustain 
ourselves logistically. We must be ready to deploy today and begin 
operating upon arrival, even in the most austere environments. The 
United States Marine Corps affords the following three strategic 
advantages for our Nation:
  --A versatile ``middleweight'' capability to respond across the range 
        of military operations. We fill the gap in our Nation's defense 
        as an agile force capable of operating at the high and low ends 
        of the threat spectrum or the indistinct areas in between.
  --An inherent speed and agility that buys time for National leaders. 
        Our flexibility and rapid response capability present unique 
        opportunities to develop strategic options, shape the 
        environment, and set conditions to deploy the full capabilities 
        of the Joint Force and other elements of National power.
  --An enabling and partnering capability in joint and combined 
        operations. Our unique forward posture aboard amphibious ships, 
        manned by well trained, uniformed sailors, positions us to be 
        the ``first to fight.''

                            USMC PRIORITIES

    My four service level priorities informed this year's budget 
submission. These priorities were influenced by and derived from a 
number of factors to include our understanding of the 21st century 
battlefield based on lessons learned over nearly a decade at war, our 
examination of the future security environment, our doctrine and 
operating concepts, and our current and future budgetary and 
programmatic requirements.
    These priorities are aligned with the principal recommendations of 
the 2010 Quadrennial Defense Review, meeting its end state of ensuring 
that the Marine Corps is able to ``prevail in today's wars, prevent and 
deter conflict, prepare to defeat adversaries and succeed in a wide 
range of contingencies, and preserve and enhance the All-Volunteer 
Force.'' My priorities also support America's four enduring strategic 
interests as identified in the 2010 National Security Strategy.\3\ To 
that end, we will:
---------------------------------------------------------------------------
    \3\ (1) Security of the United States, its citizens, and U.S. 
allies and partners; (2) a strong, innovative, and growing U.S. economy 
in an open international economic system that promotes opportunity and 
prosperity; (3) respect for universal values at home and around the 
world; (4) and an international order advanced by U.S. leadership that 
promotes peace, security, and opportunity through stronger cooperation 
to meet global challenges. 2010 National Security Strategy Pg, 7.
---------------------------------------------------------------------------
  --Continue to provide the best trained and equipped Marine units to 
        Afghanistan;
  --Rebalance our Corps, posture it for the future, and aggressively 
        experiment with and implement new capabilities and 
        organizations;
  --Better educate and train our Marines to succeed in distributed 
        operations and increasingly complex environments; and
  --Keep faith with our Marines, our Sailors and our families.
    The above priorities guide my long-term plan for the Marine Corps; 
however, there are pressing issues facing our Corps today that give 
cause for concern.
  --Equipment.--Our equipment abroad and at home station has been 
        ``heavily taxed'' in the nearly 10 years of constant combat 
        operations. We require funding to reset equipment being 
        utilized overseas and to reconstitute home-station equipment 
        and modernize for the future. This is critical to maintaining 
        readiness throughout the Corps.
  --The Short Take-Off and Vertical Landing F-35B Joint Strike 
        Fighter.--The F-35B is vital to our ability to conduct combined 
        arms operations in expeditionary environments. Continued 
        funding and support from Congress for this program is of utmost 
        importance.
  --Amphibious Combat Vehicle.--We will begin the development of an 
        affordable and capable amphibious combat vehicle to replace the 
        recently cancelled Expeditionary Fighting Vehicle program. The 
        capability inherent in a ship-to-shore connector is critical to 
        our expeditionary nature, as affirmed by the Secretary of 
        Defense.
  --End Strength.--The drawdown of our active component from 202,100 to 
        186,800 must be conditions-based, and only after completion of 
        our mission in Afghanistan. We must keep faith with our Marine 
        Corps family by allowing appropriate time and support for those 
        departing the force and to ensure the resiliency of our units 
        still engaged in war.
  --Family Readiness Programs.--Like our equipment, Marines and their 
        families have been ``heavily taxed'' since 9/11. We will 
        continue to fund family readiness and family support programs 
        that are vital to the health and welfare of our entire Marine 
        Corps family.
  --Amphibious Ships.--The Navy and Marine Corps have determined a 
        minimum force of 33 ships represents the limit of acceptable 
        risk in meeting the 38-ship amphibious force requirement for 
        the Assault Echelon. Marines are best postured to engage and 
        respond to the Nation's security interests from amphibious 
        ships.
    The Marine Corps needs the continued support of Congress in 
confronting these critical issues and the many others discussed below. 
My promise to Congress is that we will do our part by continuing to be 
good stewards of our taxpayers' dollars.

                 FISCAL YEAR 2012 BUDGETARY SUBMISSION

    The Marine Corps maintains a longstanding tradition in the 
Department of Defense as being ``Penny Pinchers.'' A prime example of 
our many noteworthy cost-saving measures is our practice of units 
deploying to Afghanistan utilizing equipment sets maintained and 
repaired in country--a measure saving significant funds annually on 
costs associated with the cycle of deployment and redeployment. Our 
institutionalized culture of frugality, streamlined business practices, 
lean structure, and multi-mission capability, position us as the ``best 
value'' for the defense dollar. This fiscal year we are seeking over 
$40 billion \4\ to fund ongoing operations, provide quality resources 
for our Marines, Sailors and their families, conduct reset of equipment 
stressed from nearly 10 years at war, and prepare our forces for future 
missions. For approximately 8.5 percent \5\ of the annual Defense 
budget, the Marine Corps provides the Nation approximately 31 percent 
of its ground operating forces (Combat, Combat Support and Combat 
Service Support), 12 percent of its fixed wing tactical aircraft, and 
19 percent of its attack helicopters.
---------------------------------------------------------------------------
    \4\ This sum includes both ``Blue in Support of Green'' funding, 
Overseas Contingency Operation funding, and other Navy funding for USMC 
needs (e.g. chaplains, medical personnel, amphibious ships, etc)
    \5\ Based on provisions of the fiscal year 2010 National Defense 
Authorization and Appropriation Acts.
---------------------------------------------------------------------------
    During these times of constrained resources, the Marine Corps 
remains committed to streamlining operations, identifying efficiencies, 
and reinvesting savings to conserve scarce public funds. At the 
direction of the Secretary of Defense in June 2010, the services 
conducted an efficiencies review and our fiscal year 2012 budget is the 
result of a thorough study of all of our business activities. Already 
one of the most economical of the military services, we achieved our 
DOD efficiency goal. We captured overhead efficiency savings by 
focusing on three main efforts: Buying smarter through acquiring 
platforms more intelligently; streamlining our operations; and being 
more efficient in the way we use, produce, and acquire energy.
    This effort has had a marked impact on our overall budget, allowing 
us to invest more in our core warfighting missions and enhancing our 
acquisition plans. The efficiency initiative drove adjustments to our 
programs and ensured restoration of funding in areas where needed most. 
Additionally, we used funds realized from efficiencies to support 
programs originally not funded. We re-invested savings into critical 
war fighting programs to enhance readiness. We anticipate unit 
equipment readiness to increase by fiscal year 2014 through the 
purchase of additional equipment beginning in fiscal year 2012. This 
readiness increase will allow the Marine Corps to equip, train, and 
prepare units earlier in the pre-deployment cycle. Other expansions 
that we were able to address include enhancing funding for facilities 
with direct operational impact, energy and water investments at bases 
and installations, command and control and logistics programs, and 
equipment modernization.
    In addition to our frugality and aggressive pursuit of finding 
efficiencies to enhance our warfighting capacity inherent in our budget 
request, your Marine Corps remains the first and only military service 
whose financial statements have been deemed audit ready. We are 
continually striving to be good stewards of the public trust and know 
the ongoing financial audit will serve to both strengthen our financial 
management practices and give us actionable business intelligence to 
support our decisionmaking process in supporting our operational forces 
at home, abroad and in harm's way.

PRIORITY #1: CONTINUE TO PROVIDE THE BEST TRAINED AND EQUIPPED UNITS TO 
                              AFGHANISTAN

    Operation Enduring Freedom.--We have made great progress in 
Afghanistan; this effort remains our number one priority until we 
attain our National objectives. At present over 20,000 Marines are 
deployed in Afghanistan. This mission ultimately involves almost 60,000 
Marines, or just under one-third of our active duty force, factoring in 
deployment, redeployment, training cycles and other direct support. We 
will continue providing forces in Afghanistan capable of full-spectrum 
combat and counterinsurgency operations, while balancing our 
capabilities to perform what the Nation will likely ask of us in the 
future. We will ensure that Marines, Sailors, and the units in which 
they serve, receive the best possible training and equipment to succeed 
in the many types of missions we are conducting in this complex, 
dynamic environment.
    Our successes within Helmand Province are paving the way for 
economic development and governance. Marine commanders on the ground 
and Afghan officials indicate that freedom of movement for the local 
populace has improved. Bazaars and markets are flourishing; critical 
infrastructure projects are underway. Today, 10 of 13 districts in 
Helmand Province are under the control of the Afghan central 
government. Daily, 135,000 children attend school, which is more than a 
60 percent increase from 2008 levels. Formerly dangerous places like 
Marjah, Now Zad, and Garmsir, un-trafficable due to improvised 
explosive devices just 1 year ago, now have significant activity 
occurring in commercial centers. Yet, other challenges remain as we now 
seek to capitalize on our 2010 successes. We are currently expanding 
battle-space northward into other hostile locations such as the 
district of Sangin, where our forces are going ``head-to-head'' with 
Taliban resistance.
    As America's Expeditionary Force in Readiness, we are ready to 
execute any mission assigned in support of crisis and contingency 
response. In addition to our Afghanistan commitment, we continue to 
source forward-based and deployed forces to meet Geographic Combatant 
Commander requirements. In light of our operational demands, and 
through the support of Congress in authorizing our end strength of 
202,100 active duty forces, our combat units are beginning to realize 
an approximate 1:2 dwell time.\6\ Other units vary at more favorable 
dwell time levels depending on their mission. We anticipate the 1:2 
dwell ratio for combat units to remain relatively stable provided 
current deployed force levels are not increased; however, increased 
operational demands in Afghanistan or elsewhere may result in dwell 
times inconsistent with fostering a resilient Total Force.
---------------------------------------------------------------------------
    \6\ Infantry battalions will continue to remain just below 1:2 
dwell time due to relief in place/transfer of authority requirements.
---------------------------------------------------------------------------
    Some Marines in select military occupational specialties continue 
to fall into what is known as a high-demand, low-density status. This 
is a key indicator that the combat demand for Marines with these skills 
does not match, or exceeds, the current manpower requirement and/or 
inventory. In addition, there are currently 14 of 211 occupational 
specialties where the on-hand number of Marines is less than 90 percent 
of what is required.\7\ Our recently completed force structure review 
addressed all these concerns. We are working actively to recruit, 
promote, and retain the right number of Marines in the right 
occupational specialties thus promoting resiliency of our Total Force.
---------------------------------------------------------------------------
    \7\ Our most stressed occupational specialties based on percentage 
of Marines beyond a 1:2 dwell are (1) Geographic Intelligence 
Specialist, (2) Imaging Analyst/Specialists, (3) Signals Collection 
Operator/Analyst, (4) Unmanned Aerial Systems Operator/Mechanic, and 
(5) European, Middle East, and Asia-Pacific Cryptologic Linguists.
---------------------------------------------------------------------------
    Training for Full Spectrum Counter-Insurgency Operations.--Our 
comprehensive training program conducted at our premiere desert 
training base in Twentynine Palms, California, has been credited by 
leaders throughout the Corps with providing a dynamic environment that 
replicates the many tasks, challenges, and requirements required of 
units in a counterinsurgency setting. Our newly instituted Infantry 
Immersion Trainers are realistic, reconfigurable, and provide 
comprehensive training environments that develop small unit tactics and 
individual skills for deploying infantry squads. The Infantry Immersion 
Trainer supports essential training such as control of supporting arms, 
language, improvised explosive device recognition and defeat measures, 
human terrain understanding and close quarters battle. Introducing 
battlefield effects simulators, culturally appropriate role players, 
and interactive avatars at the Infantry Immersive Trainers teaches 
Marines to make legally, morally, ethically, and tactically sound 
decisions under situations of great stress. It also contributes to 
reducing the effects of combat stress. I view this training program to 
be of vital importance to our Operating Forces.
    Equipping for the Afghan Effort.--Marine units are operating in 
Afghanistan with high rates of ground equipment readiness. Through the 
generosity of Congress, we have received funds for the rapid fielding 
of urgent need items in support of our Afghanistan effort. The Mine 
Resistant Armor Vehicle Program continues to meet urgent requirements 
while we actively pursue vehicle upgrades to outpace emerging threats, 
enhance mobility, and improve vehicle performance. We can accomplish 
this goal through engineering changes and capability insertions in 
current production, planned orders, and fielded vehicles. We have a 
requirement for 3,362 vehicles in the family of Mine Resistant Armor 
Protected vehicles, including 1,454 Mine Resistant Armor Protected All 
Terrain Vehicles. To date, we have fielded 1,214 Mine Resistant Armor 
Protected All Terrain Vehicles to our units in Afghanistan and have met 
the theater requirement.
    To date, we have fielded 34 Assault Breacher Vehicles, 5 of which 
are in Afghanistan, to enhance the mobility of the Marine Air Ground 
Task Force (MAGTF). We plan to field a total of 52 Assault Breacher 
Vehicles. Production of the remaining 18 vehicles remains on schedule 
and is fully funded with final delivery scheduled for the second 
quarter of fiscal year 2012.
    In our continuing efforts to find improvised explosive devices by 
all possible means, we are tripling our successful Improvised Explosive 
Device Dog Detection program and are also undertaking a research and 
development effort to train dogs with improved detection capabilities 
with fielding expected this fall. This year, we will have fielded 647 
specially trained Labrador Retrievers who work off-leash, supporting 
our infantry units in ground combat operations. We also have fielded a 
wide array of intelligence collection sensors and analytic and 
processing systems to include the Multimedia Archival Analysis System, 
the Ground Based Observational Surveillance System, the Tactical Remote 
Sensor System, the Communication Emitter Sensing and Attacking System, 
and improvements to the Tactical Exploitation Group, to name a few.
    Last, in December 2010, we deployed a reinforced company of 17 M1A1 
Main Battle Tanks to join our efforts in Regional Command SouthWest to 
provide increased force protection and firepower. Today, these tanks 
are fully integrated with our forces operating in our most highly 
contested regions, and are rapidly proving their utility in this 
environment by enabling our Marines to increase operational tempo. They 
also demonstrate the commitment of Coalition Forces to the security of 
Southern Afghanistan.

     PRIORITY #2 REBALANCE THE CORPS, POSTURE FOR THE FUTURE, AND 
    AGGRESSIVELY EXPERIMENT WITH AND IMPLEMENT NEW CAPABILITIES AND 
                             ORGANIZATIONS

    Posture for the Future and Force Structure Review.--The Marine 
Corps has deployed MAGTFs in support of irregular warfare missions such 
as our counterinsurgency effort in Afghanistan, humanitarian assistance 
and disaster relief efforts in Pakistan, Haiti, and the Philippines, 
and engagement missions such as our theater security cooperation 
exercises in support of every Geographic Combatant Commander.
    Despite these and many other operational successes over the past 
decade, new challenges await us requiring the same spirit of innovation 
and institutional flexibility that have been the bedrock of our Corps 
for 235 years. The 2010 Quadrennial Defense Review highlights an 
expanding need over the next two decades for military forces skilled at 
countering irregular threats,\8\ and the 2010 National Security 
Strategy signals a need for increased engagement activities. Both of 
these thrusts necessitate Marines who are not only fighters, but also 
trainers, mentors, and advisors. The 2011 National Military Strategy 
advances the idea that ``strengthening international and regional 
security requires that our forces be globally available, yet regionally 
focused.'' \9\ Likewise, Geographic Combatant Commanders have continued 
to register their growing need for forward--postured amphibious forces 
capable of conducting security cooperation, regional deterrence, and 
crisis response.\10\
---------------------------------------------------------------------------
    \8\ ``The wars we are fighting today and assessments of the future 
security environment together demand that the United States retain and 
enhance a whole-of-government capability to succeed in large-scale 
counterinsurgency, stability, and counterterrorism operations in 
environments ranging from densely populated urban areas and mega-
cities, to remote mountains, deserts, jungles, and littoral regions.'' 
2010 Quadrennial Defense Review Report, Pg 20.
    \9\ 2011 National Military Strategy of the United States, pg 10.
    \10\ In the past 20 years, U.S. amphibious forces have responded to 
crises and contingencies 114 times--a response rate double that during 
the Cold War.
---------------------------------------------------------------------------
    This past fall, we conducted a detailed force structure review to 
develop the optimum mix of capabilities for our role as America's 
Expeditionary Force in Readiness in the post-Afghanistan security 
environment. The force structure review addressed 21st century 
challenges confronting our Nation and its Marine Corps, aiming to build 
on our historic role as the Nation's crisis response force. The review 
sought to provide the ``best value'' in terms of capability, cost, and 
readiness relative to the operational requirements of our forward-
engaged Geographic Combatant Commanders. The results of that effort 
provide for a strategically mobile, ``middleweight'' force optimized 
for forward-presence and rapid crisis response. We will be light enough 
to leverage the flexibility and capacity of amphibious ships, yet heavy 
enough to accomplish the mission when we get there. Sea-based forces, 
in particular, will be invaluable for discreet engagement activities, 
rapid crisis response, and sustainable power projection.
    Our review also aimed for a force structure that provides 
capability and capacity across the range of military operations, while 
simultaneously providing for resiliency in our Total Force. With likely 
reductions in forward basing and strategic transportation, the 
importance of regionally focused headquarters and forces, both forward-
postured and immediately deployable with a minimum of strategic lift, 
is paramount. We have thus built a Joint Task Force capable 
headquarters at several Geographic Combatant Command locations. As we 
aim to implement signature outcomes of the force structure review, 
Marines on a day-to-day basis will be forward-deployed and engaged, 
working closely with our joint and allied partners. When crises or 
contingencies arise, these same Marines will respond--locally, 
regionally, or globally if necessary--to accomplish whatever mission 
the Nation asks of us.
    To best meet Geographic Combatant Commander needs and ensure 
optimal configuration as America's Expeditionary Force in Readiness, we 
require Congressional support to reset our equipment, develop new 
organizational structures, and begin implementing initiatives from our 
force structure review. These measures ultimately will improve our 
ability to function within the Joint Force, execute distributed 
operations, command and control in complex environments, and conduct 
persistent engagement missions. As we are entrusted with the resources 
and funding to posture ourselves for the future, we will continue to 
conduct responsible examination required of a disciplined force to 
ensure that we implement every refinement--from the smallest to the 
most sweeping--in a manner that provides the Nation with a lean force, 
capable of rapidly projecting the Nation's power and strategic 
influence.

Equipping
    Reset of the Total Force.--Resetting the Marine Corps for the 
future after nearly a decade at war is my number one equipping 
priority. This past year, we completed our mission in Iraq, effecting 
the retrograde of more than 25,000 Marines,\11\ 382,000 items of 
equipment, 10,800 short tons of aviation support equipment, and nearly 
11,000 containers from Al Anbar province via Jordan and Kuwait to the 
United States and elsewhere. This drawdown of equipment over the course 
of 1 year was a significant logistical and operational achievement. We 
also accomplished the rapid shift of critical equipment from Iraq to 
Afghanistan in support of the deployment of the 2d Marine Expeditionary 
Brigade. This shift of materiel within a theater of operation became 
one of the largest redeployments in U.S. history, both in terms of 
equipment moved and distances involved.
---------------------------------------------------------------------------
    \11\ At present, approximately 100 Marines remain in Iraq serving 
in individual augment, transition team and other miscellaneous billets.
---------------------------------------------------------------------------
    The Marine Corps is currently sourcing highly trained and ready 
forces to meet global combatant commander requirements.
  --Approximately 98 percent of deployed units report the highest 
        levels of readiness for their assigned mission.
    However, high deployed-unit readiness has come at the expense of 
home-station, non-deployed units, which have sourced organic equipment 
and personnel to meet the needs of our deployed forces.
  --Approximately 68 percent of non-deployed units report degraded 
        levels of readiness. The largest contributing factor is 
        equipment; approximately 37 percent of non-deployed forces 
        report degraded levels of equipment supply. This lack of 
        equipment impacts the ability of non-deployed forces to respond 
        rapidly to other potential contingencies and represents lost 
        core training opportunities early in the deployment cycle in 
        preparation for Overseas Contingency Operations.
    The equipment redeployed from Iraq to Afghanistan in support of the 
2009 surge included most of our deployed medium tactical fleet, the 
majority of our fleet of Mine Resistant Armor Protected vehicles, light 
armored reconnaissance vehicles, other hard-to-move equipment, and 
theater-specific items. While shifting this equipment directly to 
Afghanistan enabled the Marine Corps to meet critical operational 
timelines, it resulted in the deferment of previously planned post-
Operation Iraqi Freedom reset actions. These same assets comprise a 
significant portion of the Marine Corps' total reset liability and 
depot maintenance costs. Thus, a consequence of delaying reset actions 
on this equipment is the acceptance of considerable risk in the long-
term readiness and future availability of our ground equipment. In 
addition, increased usage rates of our ground equipment and harsh 
operating environments over these many years at war have resulted in 
our ground equipment far exceeding planned peacetime usage rates by a 
factor of six.
    It is vital that we reset our equipment from nearly 10 years at war 
to maintain the necessary levels of readiness to posture ourselves for 
the future.
  --We estimate the cost of reset for the Marine Corps to be $10.6 
        billion. $3.1 billion has been requested in fiscal year 2011 to 
        reduce this liability, leaving a $7.5 billion deficit. $5 
        billion of the $7.5 billion reset liability will be incurred 
        upon termination of the conflict in Afghanistan. (Note: $2.5 
        billion has been requested for reset in fiscal year 2012. These 
        estimates assume no reset generation beyond fiscal year 2012 
        and thus do not include any reset requirements for fiscal year 
        2013 and fiscal year 2014.)
    This funding will support the depot-level maintenance of our 
Operation Enduring Freedom equipment, procurement of combat vehicles 
and major weapons systems, engineering equipment, ammunition 
expenditures, and combat losses. The reset estimate is based on current 
circumstances and will change as operational requirements are re-
evaluated. Moreover, as long as the war continues, our costs for reset 
will grow accordingly.
    Reconstitution of Equipment.--Our experiences in combat operations 
over the past decade have shown us that our legacy 20th century tables 
of equipment are inadequate with regard to the demands of the modern 
battlefield. As we move toward finalizing our force structure review by 
conducting a thorough Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel, and Facilities assessment, we will 
finalize determination on the costs associated with modernization of 
equipment sets necessary to support our future operations.
  --However, at this time, our initial estimate of reconstituting our 
        tables of equipment is $5 billion, which is an amount entirely 
        separate from our reset costs. We have begun to address our 
        reconstitution shortfall by requesting $253 million in fiscal 
        year 2012 for equipment procurement.
    As our force structure review is implemented, we will continue with 
deliberate assessments of the modernization requirements for equipment 
that optimizes our post-Afghanistan posture while simultaneously 
reinforcing our frugal and responsible roots. Our Service 
Reconstitution Equipment Strategy will guide the identification of 
emerging requirements for refining the capabilities of our status as a 
middleweight force, our support to the Geographic Combatant Commanders, 
our service level prioritization, and resource allocation.
    Marine Aviation.--We are transitioning our entire inventory of 
fixed and rotary wing aircraft to support our future force and require 
ongoing support from Congress for this comprehensive aviation 
modernization effort. The continued development and fielding of the 
short take-off and vertical landing (STOVL) F-35B Joint Strike Fighter 
remains the centerpiece of this effort. The capability inherent in a 
STOVL jet facilitates our maneuver warfare doctrine and fills our need 
for close air support in the many austere conditions and locations 
where we will likely operate in the future. Around the world, there are 
10 times as many 3,000-foot runways capable of handling a STOVL jet as 
there are 8,000-foot runways required of conventional fighter aircraft. 
Additionally, we maintain the organic ability to build an expeditionary 
3,000-foot runway in a matter of days in support of aviation 
operations. The capabilities of the STOVL F-35B enable the Marine Corps 
to replace three legacy aircraft types--F/A-18, EA-6B, and AV-8B--which 
once fielded will save the Department of Defense approximately $1 
billion per year in operations and maintenance costs. The F-35B program 
has made significant progress to date including 22 successful vertical 
landings so far this year which is more than double that achieved all 
last year. I am confident that we will field this aircraft in 
accordance with responsible timelines. This matter has my unwavering 
attention, and I am personally overseeing this program. With a fully 
fielded fleet of F-35Bs, the Nation will maintain 22 capital ships--11 
carrier and 11 amphibious assault--with fifth generation strike assets 
aboard--a significant deterrent and response capability for our Nation.
    Our legacy aircraft supporting operational missions are consuming 
service life at a rate up to three times faster than scheduled. 
Averaged across our complete fleet, we are consuming aircraft service 
life at a rate 1.85 times faster than planned. This reality results in 
compressed timelines between re-work events and in earlier retirement 
of aircraft than originally programmed. The majority of our legacy 
platforms are nearing the end of their service lives, and most 
production lines are closed. New aircraft with low average ages and 
robust service life projections are the future of our aviation force 
and its support of Marine Corps and joint operations. As we transition 
to these new capabilities, we are mindful of the need to ensure a fully 
integrated and networked force to provide Marine aviation to the MAGTF 
and the Joint Force.
    We are exploring the viability of transformational platforms such 
as the Cargo Unmanned Aircraft System. The Cargo UAS will facilitate 
the delivery of logistics to remote locations when weather or threat 
systems preclude manned aviation sorties or overland resupply convoys.
    Our new aircraft will provide increased range, speed, standoff, 
time on station, lift capability, and will be critical to tomorrow's 
MAGTF. By 2020, we will transition more than 50 percent of our aviation 
squadrons to new aircraft and complete fielding of the tilt-rotor MV-22 
Osprey assault support aircraft and the upgraded UH-1Y Huey utility 
helicopter. We will field new close air support platforms such as the 
AH-1Z attack helicopter and the STOVL F-35B. We also will have new 
platforms for intelligence, surveillance and reconnaissance and an 
entirely new family of Unmanned Aircraft Systems. Last, we will 
introduce greater lifting power to the MAGTF with a new model of the 
heavy-lift CH-53 cargo helicopter.
    Ground Combat and Tactical Vehicle Strategy.--The priority for our 
Ground Combat Element is our ship to shore tactical mobility. The 
seamless transition of our Operating Forces from the sea to conduct 
sustained operations ashore, in particular to support three balanced 
Marine Expeditionary Brigades (i.e. two sea-based Joint Forcible Entry 
Marine Expeditionary Brigades reinforced by a third Maritime 
Prepositioning Force-based Marine Expeditionary Brigade) as well as for 
conducting irregular warfare missions, necessitates an appropriate mix 
of ground combat vehicles. We are focusing our efforts on developing 
and fielding a family of vehicles with a balance of performance, 
protection, payload, transportability, fuel efficiency, and 
affordability that supports the rapid concentration and dispersion of 
combat power, supports strategic deployment concepts and meets our 
world-wide operational commitments.
    Our Ground Combat and Tactical Vehicle Strategy is currently in its 
third phase of development. Its overall goal is to field a ground 
combat vehicle portfolio structured to support the ground combat 
element. Vehicles in this portfolio include the Joint Light Tactical 
Vehicle, the Marine Personnel Carrier, and a new amphibious combat 
vehicle.
    In the complex future security environment, the execution of 
amphibious operations requires the use of the sea as maneuver space. An 
amphibious combat vehicle is essential to our ability to conduct 
surface littoral maneuver and seamlessly project ready-to-fight Marine 
units from sea to land in permissive, uncertain, and hostile 
environments. As the Secretary of Defense affirmed earlier this year, 
the cancellation of the Expeditionary Fighting Vehicle is by no means a 
rejection of the Marine Corps amphibious assault mission.
    The standing, validated requirement for, and development of, an 
amphibious combat vehicle will ensure we continue to develop the right 
platform--at the right price--to support rapid ship to shore movement. 
To that end, we are now pursuing an integrated new vehicle program with 
three components, crafted from inception for affordability and 
leveraging the investment made in the EFV. We intend to mitigate risks 
associated with a new vehicle program and to maximize value by use of 
an integrated acquisition portfolio approach. This approach will have 
three synchronized efforts: Acceleration of the procurement of Marine 
Personnel Carriers; investment in a service life extension program and 
upgrades for a portion of the existing amphibious assault vehicles; and 
development of a new amphibious combat vehicle.
    We intend to manage these complementary capabilities, requirements 
and acquisitions from a portfolio perspective.

Navy Support
    The Navy Marine Corps Team.--As part of the Joint Force, the Marine 
Corps and the Navy partner to leverage the significant advantages 
provided by amphibious forces--a point reinforced by joint 
doctrine.\12\ The Navy and Marine Corps team will be postured and 
engaged forward to be most operationally relevant to the needs of our 
Nation. Together, we provide the capability for massing potent forces 
close to a foreign shore while maintain a diplomatically sensitive 
profile. And, when needed, we are able to project this power ashore 
across the range of military operations at a time of our Nation's 
choosing, collectively demonstrating the essence of naval deterrence.
---------------------------------------------------------------------------
    \12\ ``Timely response to crisis situations is critical to U.S. 
deterrent and warfighting capabilities. The timeliness of U.S. response 
is a function of U.S. forward deployed forces and prepositioned forces 
with adequate organic movement capability . . ..'' Joint Publication 3-
35, Joint Deployment and Redeployment Operations, 7 May 2007, pg I-8.
---------------------------------------------------------------------------
    Amphibious Shipping.--The Marine Corps' requirement to deploy 
globally, rapidly respond regionally, and train locally necessitates a 
combination of tactical airlift, high-speed vessels, amphibious ships, 
maritime preposition shipping, organic tactical aviation, and strategic 
airlift. The inherent flexibility and utility of amphibious ships is 
not widely understood, as evidenced by the frequent--and erroneous--
assumption that ``forcible entry capabilities'' alone define the 
requirement for amphibious ships. The same capabilities that allow an 
amphibious task force to deliver and support a landing force on a 
hostile shore enables it to support forward engagement and crisis 
response. In fact the most frequent employment of amphibious forces is 
for steady state engagement and crisis response. The Geographic 
Combatant Commanders have increased demand for forward-postured 
amphibious forces capable of conducting security cooperation, regional 
deterrence, and crisis response reflecting the operational value of 
amphibious forces for missions across the range of military 
operations.\13\ In an era of declining access and strategic 
uncertainty, I anticipate that this upward demand trend will continue.
---------------------------------------------------------------------------
    \13\ Since 9/11 U.S. amphibious forces have responded to crises and 
contingencies at least 50 times, a response rate more than double that 
of the Cold War.
---------------------------------------------------------------------------
    Our principal contribution to U.S. Global Defense Posture is our 
``rotationally responsive'' forces aboard amphibious ships. These 
forces combine the advantages of an immediate, yet temporary, presence, 
graduated visibility, and tailored, scalable force packages structured 
around the MAGTF. Rotational Amphibious Ready Groups/Marine 
Expeditionary Units forward deployed in three Geographic Combatant 
Command areas of responsibility, not only provide the capability for 
crisis response, but also present a means for day-to-day engagement 
with partner nations. Rotational forces also offer additional 
flexibility for decisionmakers in the event that forces are required to 
rapidly re-deploy across divergent regions and conflicts.
    In January 2009, the Navy and Marine Corps agreed that the force 
structure requirement to support a 2.0 Marine Expeditionary Brigade 
lift is 38 total amphibious assault ships. In light of the fiscal 
constraints, the Department of the Navy agreed to sustain a minimum of 
33 total amphibious ships in the assault echelon. This number gives a 
capability needed for steady state operations and represents the 
minimum number of ships needed to provide the Nation with a sea based 
power projection capability for full spectrum amphibious operations--
including the amphibious assault echelon of two Marine Expeditionary 
Brigades.
    The Marine Corps is committed to the spiral development of the 
America Class LHA (R), which is 27 percent complete. We expect the Navy 
to take delivery of LHA-6 in fiscal year 2014 with availability to 
deploy beginning in fiscal year 2017. In terms of LHA-7, we anticipate 
the contract award in late fiscal year 2011 with fabrication commencing 
the following year. These two ships are maximized for aviation, and I 
believe it is essential that a well-deck be reintroduced in LHA-8 as 
currently planned. The ongoing procurement and commissioning of the 
final 2 of our planned 11 San Antonio class LPD-17 ``Common Hull 
Forms'' is critical to providing the lift capacities and operational 
capabilities to support the full range of military operations up to and 
including forcible entry.
    Maritime Prepositioning Assets.--The Maritime Prepositioning Force 
(MPF) program exists to enable the rapid deployment and engagement of a 
Marine Air Ground Task Force anywhere in the world in support of our 
National Military Strategy. The current MPF force, which has been 
employed 55 times since 1985, is composed of a fleet of 16 ships 
divided into three Maritime Pre-Positioning Ships Squadrons located in 
the Mediterranean Sea, Indian Ocean (Diego Garcia), and Pacific Ocean 
(Guam and Saipan). With the restructure of the Maritime Prepositioning 
Force-Future, the Marine Corps and Navy have focused on an interim 
solution to enhance current MPF with three new ships to enable future 
sea-basing concepts. The addition of three Mobile Landing Platforms 
(MLP) and three T-AKE auxiliary dry cargo ships to the Maritime 
Prepositioning Ship Squadrons, coupled with existing Large, Medium-
Speed, Roll-On, Roll-Off (LMSR) cargo ships, will enable the MPS 
squadrons to conduct at-sea, sea-state three, selective offload of 
vehicles, personnel, and equipment without complete reliance on fixed 
ports ashore. The introduction of MLPs, T-AKEs, and LMSRs provide the 
Navy and Marine Corps team a substantial step in enhancing our current 
sea-basing capabilities.
    The Department of the Navy is currently funding the full MPF 
program of 16 ships through fiscal year 2012; however, the DON POM-13 
places one Maritime Prepositioning Squadron (six ships) in a Reduced 
Operational Status beginning in fiscal year 2013. We will continue to 
optimize the MPF program to remain responsive and relevant to 
Geographic Combatant Commander requirements.
    Naval Surface Fire Support.--The Marine Corps has an enduring 
requirement for fire support from naval vessels in the range of 41-63 
nautical miles to support amphibious operations in the littorals. These 
fires are needed by tactical commanders to maneuver toward battlefield 
objectives once ashore, contributing to joint doctrine for assured 
access. They serve as a component of the balanced and complementary 
joint triad of fires. Yet, unlike tactical aviation and ground fire 
systems, naval surface fires are unique and vital for their volume, 
lethality, accuracy and all-weather capability.
    Planned reductions in the procurement of certain naval ships along 
with cancellation of specific weapons programs over the past few years 
have led to a deficiency in systems available for naval surface fires. 
Completed in 2009, the Joint Expeditionary Fires Analysis of 
Alternatives identified the optimum U.S. Navy programs to support 
Marine Corps naval surface fire support requirements. This study 
established the baseline capabilities of the current naval surface fire 
support program of record (13nm projectile of the 5-inch gun and the 
Advance Gun System of the DDG 1000) to be insufficient in mitigating 
fire support gaps. The study determined that extended range 5-inch 
munitions would serve as a complementary alternative to the three DDG 
1000s. Dramatic improvements in 5-inch projectiles can extend the naval 
surface fire support maximum range, across the 106 guns in the surface 
fleet, from 13 to 52 nautical miles with precision, high angle attack 
for use in operations in urban terrain, and potential effectiveness 
against moving targets. We also support ongoing research and 
development of transformational technologies like the Electro-Magnetic 
Rail Gun with its potential to revolutionize the reach, coverage, and 
responsiveness of ship-based naval gunfire to ranges in excess of 200 
nautical miles.
    Assured Access.--We remain vigilant of burgeoning anti-access/area 
denial threats proliferating around the globe, particularly in the 
Pacific Rim. The family of guided rockets, artillery, mortars, missiles 
and subsurface systems like mines and quiet submarines, pose a 
challenge to the power projection capability of seaborne expeditionary 
forces and threatens DOD's ability to prevent and deter conflicts and 
prepare for a wide range of contingencies.
    Marine Air Ground Task Forces ashore and aboard amphibious shipping 
will support operations to ensure the freedom of action of U.S. and 
Allied forces by establishing expeditionary bases and airfields or 
defending advance bases. Marine Short Take-off and Vertical Landing 
aviation assets will be of particular value in overcoming adversary 
anti-access and area denial capabilities since they can operate from 
short or degraded airfields, can be rapidly dispersed, and can utilize 
both large carriers and amphibious ships for attack, maintenance, force 
protection, and dispersal purposes. The Joint Force Commander can 
leverage these unique capabilities to ensure the sea control necessary 
for the conduct of subsequent joint operations, whether they be power 
projection, forcible entry, or freedom of navigation.
    In this regard, we are partnered with the joint community to 
develop an overarching concept to attain operational access. This year, 
we will employ our war-gaming capability in Expeditionary Warrior 2011 
to examine operations designed to overcome anti-access challenges. We 
are partners with the U.S. Navy and the U.S. Air Force in the 
development of the Air-Sea Battle Concept aimed at integrating 
capabilities to defeat these advanced weapon systems in maritime areas 
of strategic interest. We also continue to participate in the U.S. 
Army's Joint Forcible Entry Warfighting Experiment, examining 
capabilities to conduct airborne and amphibious forcible entry 
operations.

Personnel and Organizatonal Initiatives
    People.--Today's Marine Corps represents less than one-tenth of 1 
percent of the U.S. population, and the individual Marine remains our 
most valuable asset. Our 202,100 Active Duty and 39,600 Selected 
Reserve end strength allow us to meet current operational commitments 
while promoting resiliency throughout our Total Force. In fiscal year 
2010 Marine Corps Recruiting Command accessed 1,703 officers (100.18 
percent of the 1,700 officer goal). Our fiscal year 2011 accession 
mission is 1,650 active duty officer accessions with the same goal 
projected in fiscal year 2012. In terms of enlisted accessions, we are 
exceeding our internal quality standards of 95 percent enlisted 
recruits entering the Marine Corps possessing a high school diploma and 
63 percent qualifying in the DOD I-IIIA mental group categories (DOD 
quality standards are 90 percent and 60 percent respectively). We will 
achieve our mission of 31,500 enlisted active component non-prior 
service recruits in fiscal year 2011. Enlistment Bonuses remain vital 
to meeting the continuing requirement for high demand skills. We are 
continuing to experience unprecedented retention in both first-term and 
career Marines.
    We will continue to shape our Total Force to provide the ideal 
grade and military occupational specialty mix needed for sustainment. 
Our force structure review developed ways to increase unit readiness 
within our operating forces to ensure 99 percent manning of enlisted 
billets and 95 percent manning of officer billets. At the close of the 
Future Years Defense Program, we will work with the Secretary of 
Defense on a responsible drawdown of our end strength that is aligned 
with the future mission demands of a post-Operation Enduring Freedom 
security environment. I am determined to ``keep faith'' with our 
Marines and their families by designing and executing a responsible 
drawdown from our current 202,100 end strength such that we avoid 
reduction-in-force actions and early retirement boards.
    The Marine Corps is committed to making concerted efforts to 
attract, mentor, and retain the most talented men and women who bring a 
diversity of background, culture and skill in service to our Nation. 
Our diversity effort is structured with the understanding that the 
objective of diversity is not merely to achieve representational 
parity, but to raise total capability through leveraging the strengths 
and talents of each and every Marine. The success of our pioneering 
Female Engagement Team program in Afghanistan, which is an offshoot of 
a similar effort we employed in Iraq, is one way that the Marine Corps 
utilizes diversity within our ranks for operational benefit.
    We are currently developing a comprehensive, Service-wide strategy 
on diversity, an effort facilitated through our standing Diversity 
Review Board and a Diversity Executive Steering Committee chartered to 
establish the foundations for diversity success in the Total Force. The 
Marine Corps has established minority officer recruiting and mentoring 
as the highest priority in our recruiting efforts. Along with the other 
Services, we have provided timely input to the congressionally 
sanctioned Military Leadership Diversity Commission and look forward to 
release of the Commission's final report scheduled for March 2011.
    Marine Air Ground Task Force Enhancements.--To further posture 
ourselves for the future, we are evaluating the internal workings of 
our MAGTFs to account for the distributed operations, decentralized 
command and control, dispersed forces and diffuse threats inherent on 
the modern battlefield. We are implementing a diverse suite of command 
and control systems within all elements of the MAGTF. We continue to 
work to build the capacity of new organizations like the Marine Corps 
Information Operations Center to achieve non-lethal effects in today's 
irregular and complex environments. We are ensuring the rapid analysis, 
fusion, and dissemination of intelligence down to the tactical level by 
continuing implementation of the Marine Corps Intelligence, 
Surveillance, and Reconnaissance Enterprise. We also aim to reorganize 
our intelligence collection and exploitation capabilities, increasing 
the ratio of resources to users. We will also capitalize on the 
capabilities of unmanned aircraft systems via an increase in capacity.
    We are developing regionally focused Marine Expeditionary Brigade 
command elements that are joint task force capable, with habitually 
aligned subordinate elements, to improve Geographic Combatant Commander 
effectiveness and speed of response. We have recently stood up one such 
element in Bahrain in support of U.S. Central Command. To better 
standardize operations and training for units and staff in our ground 
combat element, we established the Marine Corps Tactics and Operations 
Group, which reached full operational capability in May 2010. Among 
other measures, this organization's mission is to support the 
refinement of our doctrine, including how our infantry companies will 
fight in the future. Building on the successes of the Marine Corps 
Tactics and Operations Group for the ground combat element, we are also 
developing and establishing a Marine Corps Logistics Operations Group 
capability for the Logistics Combat Element along with reorganizing 
Marine Logistics Groups to establish standing Combat Logistics 
Battalions habitually aligned to specific Marine Expeditionary Units 
and infantry regiments.
    Over the past decade, we have become more reliant on equipment sets 
resulting from the emergence of new threats, perhaps most notably the 
improvised explosive device. This trend has resulted in the acquisition 
of some resources that are incompatible with the ethos of an agile, 
expeditionary force. To that end, we have begun an effort known as 
``Lightening the MAGTF,'' a measure aimed at reducing the size, weight, 
and energy expenditure of our forces from the individual rifleman to 
wholesale components of the MAGTF.
    Sustained combat operations and worldwide theater security 
cooperation and training commitments over the last decade point toward 
an essential requirement for the Marine Corps Reserve to continue 
focusing at the operational, rather than strategic level of warfare. 
Since 9/11, our Marine Corps Reserve has engaged continuously in combat 
operations as well as in regional security cooperation and crisis 
prevention activities in support of the Geographical Combatant 
Commanders. This operational tempo has built a momentum among our war 
fighters and a depth of experience throughout the ranks that is 
unprecedented in generations of Marine Corps Reservists. In fact, 
today's Marine Corps Reserve is more highly trained, capable, and 
battle-tested than at any time since the Korean War.
    The transition in utilization of the Marine Corps Reserve from a 
strategic to operational Reserve, as affirmed by our force structure 
review, expands our ability to perform as America's Expeditionary Force 
in Readiness. Sharing the culture of deployment and expeditionary 
mindset that has dominated Marine Corps culture, ethos and thinking 
since our beginning more than two centuries ago, the Marine Corps 
Reserve is optimally organized, equipped, and trained to perform as an 
operational Reserve.
    Institutions for Irregular Warfare.--Irregular operations (e.g. 
Counterinsurgency, Stability Operations, Foreign Internal Defense, 
Unconventional Warfare and Counterterrorism) often occur in response to 
crisis and are executed in austere conditions--situations often 
entailing employment of Marines. Our experiences countering irregular 
threats in ``Small Wars'' is a result of responding to complex crises 
involving a mix of security, economic, political, and social issues--
usually under austere physical conditions. Our approach to irregular 
warfare is based on the understanding that people, ideas and 
organizations--not platforms and advanced technology--are the keys to 
success in operating in complex and irregular warfare environments. 
Naval forces conducting theater security operations and security force 
assistance to build partnership capacity also provide the Nation the 
potential for immediate crisis response capability and options for 
escalation or de-escalation. Building on our lessons learned in Iraq 
and Afghanistan, we are developing options to re-organize, consolidate, 
and strengthen our institutions that emphasize our irregular warfare 
and multi-mission capability such as the Center for Advanced 
Operational Culture and Learning, the Security Cooperation Training and 
Education Center, and the Center for Irregular Warfare. The objective 
is to gain unity of effort, increase effectiveness and efficiency, and 
reduce redundant capacity.
    We established the Marine Corps Training and Advisory Group (MCTAG) 
within the past 5 years to train, equip, and deploy Marines for 
Security Force Assistance missions in support of Geographic Combatant 
Commander theater security cooperation plans. The MCTAG provides 
conventional training and advisor support to Host Nation Security 
Forces. This organization also offers planning assistance to Marine 
regional component commands in developing and executing partner nation 
training programs. The MCTAG is scheduled to reach full operating 
capability in September 2011 and to date has directly trained more than 
180 Marines and Sailors and assisted in the training of more than 600 
Marines and Sailors, who themselves have conducted in excess of 150 
deployments to more than 50 countries worldwide. The MCTAG has also 
developed programs of instruction to train joint service advisors/
trainers deploying on theater security cooperation missions as well as 
programs of instruction to train light infantry battalions from the 
Republic of Georgia in executing combat operations in Afghanistan.
    Because the Marine Corps functions in an integrated fashion 
throughout all traditional domains--land, sea, air, and space--it is a 
logical step forward for us to be optimally organized, trained and 
equipped to operate synergistically on the modern battlefield, which 
now includes the cyber domain. As U.S. Cyber Command matures and 
sponsors initiatives to increase cyber operational capacity, we are 
taking deliberate steps to build additional Marine Corps cyber 
capability and capacity to meet joint and service-level demands.
    We see the continued development of organic cyber capabilities, 
capacities, and awareness as a critical element to retain speed, 
precision, and lethality across the entire spectrum of operations. We 
are working to incorporate scenarios into our exercises to increase 
opportunities for Marines to leverage cyber capabilities while also 
training Marines to operate where cyber-enabled warfighting capability 
may be degraded and/or contested. Additionally, we are integrating 
tailored cyber education into our officer and enlisted professional 
education programs. We are continuing to examine our options for 
recruiting, training and retaining our cyber workforce. This is 
especially challenging given the highly specialized skill sets and the 
competition for such in both the Federal and Private sectors.
    Formed in 2006, Marine Special Operations Command (MARSOC) is 
currently conducting an internal reorganization into three mirrored 
battalions. Upon completion of this reorganization in fiscal year 2014, 
Marine Special Operations Command will have one regiment consisting of 
three battalions, 12 companies, and 48 Marine Special Operations Teams. 
Since December 2009, MARSOC has maintained an enduring battalion-level 
Special Operations Task Force headquarters and two companies in 
Afghanistan along with persistent Marine Special Operations Team 
engagements in other high priority regions.
    Since its inception, the Marine Corps has resourced Marine Special 
Operations Command with significant investments in military 
construction for training facilities, barracks and headquarters. In the 
near term, MARSOC will have 2,678 personnel. Our force structure review 
recently evaluated ways to increase the number of combat support and 
combat service support Marines (e.g. logisticians, intelligence 
personnel, etc.) enabling MARSOC's operations. I intend to add 1,001 
Marines to MARSOC, which will increase its capacity by 44 percent. 
These Marines, who are above and beyond the planned fiscal year 2014 
personnel increase, will better enable it for effective special 
operations.
    The Marine Corps serves as the Department of Defense Non-Lethal 
Weapons Executive Agent responsible for developing program 
recommendations and stimulating non-lethal weapons requirements. Non-
lethal effects are part of the Department of Defense portfolio of 
capabilities that enhance the Joint Force Commander's ability to act in 
a timely manner to detect, deter, prevent, defeat, or, if necessary, 
mitigate the effects of an attack. Non-lethal capabilities provide the 
Joint Force the ability to selectively target hostile threats, covered 
or concealed by civilian assets, while avoiding collateral damage. 
Geographic Combatant Commands are registering increased demand for non-
lethal weapons options to include items such as arresting nets, dazzler 
lasers, acoustic hailing devices, electric stun guns, blunt impact 
munitions, and non-lethal warning munitions. The Joint Non-Lethal 
Weapons Program continues to support joint and combined non-lethal 
weapons research, development, training and exercises in support of all 
Geographic Combatant Commands.
    Expeditionary Energy.--The Marine Corps is leading the development 
of expeditionary energy solutions for DOD and the Department of the 
Navy--reducing energy demand in our platforms and systems, increasing 
the use of renewable energy, and instilling an ethos of energy and 
water efficiency in every Marine. Our priority is force protection--
saving lives by reducing the number of Marines at risk on the road 
hauling fuel and water. We also aim to help Marines travel lighter and 
move faster through the reduction in size and amount of equipment and 
the dependence on bulk supplies.
    In February 2011, we issued a ``Bases to Battlefield'' 
Expeditionary Energy Strategy Implementation Planning Guidance, which 
sets goals, performance metrics, and a plan for implementation by 2025. 
This strategy supports congressional and Department of the Navy goals 
to increase energy security through the use of alternative fuels and 
energy efficiency. Since 2009 we have aggressively pursued renewable 
energy and energy efficient capabilities that will make Marine units 
more energy self-sufficient, and ultimately increase our combat 
effectiveness.
    Within 1 year, we stood up an Experimental Forward Operating Base, 
sourced commercial and government technologies, trained an infantry 
company with renewable energy technology, and deployed them to 
Afghanistan in the winter of 2010 where they operated two patrol bases 
entirely on renewable energy. As a result, our forces required less 
fuel and batteries, reducing risk to Marines and saving money. This 
year, the Experimental Forward Operating Base will focus on the 
requirements of a major battlefield energy user--the Command Operations 
Center and the Command Element--and will evaluate a second round of 
energy technologies to support expeditionary operations.
    In fiscal year 2012 we are devoting more resources--in current 
programs and new areas--to build a foundation to achieve our goals for 
increased energy efficiency and renewable energy by 2025. As a starting 
point, we anticipate savings of petroleum over the Future Years Defense 
Program in our Overseas Contingency Operations of 100,000 to 150,000 
barrels. For example this year, we are procuring mobile electric power 
sources to achieve 17 percent fuel efficiency using U.S. Army funded 
development and Marine Corps funded procurement monies. We are also 
fielding Enhanced Efficiency Environmental Control Units to achieve 15-
30 percent power efficiency improvements.
    Installation Energy.--We are also devoting more resources to our 
Energy Investment Program than ever before. These funds will be used to 
implement the results of recent and ongoing energy audits at our 
installations; install more efficient systems and reduce overall energy 
consumption. Additionally, new facilities will continue to incorporate 
the latest energy sustainability and efficiency features. This effort 
aboard our installations complements our Corps-wide initiative to 
develop an energy ethos and culture of conservation.

Training
    Training MAGTFs.--We are utilizing our Marine Corps Service 
Campaign Plan as a roadmap to strengthen and maintain our core 
competencies and to ensure we remain America's Expeditionary Force in 
Readiness well into the future. This effort also will also help 
synchronize our Service level security cooperation activities in 
support of national strategy and guide the type of training and 
exercises we must conduct, in particular at the Marine Expeditionary 
Brigade level.
    Our amphibious core competency figures prominently in our Service 
Campaign Plan, and as a result we have undertaken an array of exercise 
planning in this critical skill area. We will soon be conducting a 
MAGTF Large Scale Exercise that will refine our capability to conduct 
amphibious power projection and sustained operations ashore in a joint 
and inter-agency environment. In late-2010 we conducted Exercise Bold 
Alligator 2011, the first large-scale amphibious training exercise with 
the Navy on the east coast in almost 10 years. This synthetic training 
event practiced planning for forcible entry operations against 
conventional and asymmetric threats and a large scale non-combatant 
evacuation operation. We will take lessons learned from this exercise 
and build upon them for the next iteration of this important exercise 
with the U.S. Navy scheduled in the coming year.
    We are reviewing the core functions of our organizations and, where 
appropriate, adding irregular warfare capabilities to reflect the full 
spectrum of possible employment options as a core task set for the 
Marine Expeditionary Brigade. We view integration with other government 
agencies and coordination with non-government organizations as 
essential to our success in irregular warfare and have significantly 
increased interagency participation in numerous exercises and training 
venues such as Expeditionary Warrior-09/10, Emerald Express, Joint 
Urban Warrior-09, and Joint Irregular Warrior-10. We aim to capitalize 
on our current theater security cooperation and partnership capacity 
building activities with our allies and partners in all operational 
environments providing our National leaders with strategic options to 
shape outcomes, prevent and deter conflicts, strengthen ``at risk'' 
states, and deny enemy safe-havens.

    PRIORITY #3 BETTER EDUCATE AND TRAIN OUR MARINES TO SUCCEED IN 
      DISTRIBUTED OPERATIONS AND INCREASINGLY COMPLEX ENVIRONMENTS

    Professional Military Education and Small Unit Leader 
Development.--We are planning more investments in the education of our 
non-commissioned officers and junior officers, as they have assumed 
vastly greater responsibilities in both combat and garrison. This focus 
on education will better train them for decisionmaking during 
distributed operations against more diffused threats over broader areas 
of the battlefield. The primary initiative to address this priority is 
to increase markedly their opportunities to attend resident 
professional military education. We are currently evaluating ways to 
increase throughput at resident professional military education courses 
with options for both constrained and unconstrained manpower and 
resource increases. We are evaluating traditional paradigms relative to 
course lengths and instructional methodology, with the specific 
objectives of tripling throughput at the Expeditionary Warfare School 
(Career level) and doubling resident Command and Staff College 
(Intermediate Level) throughput.
    These key leaders also impact unit cohesion and our overall 
effectiveness in combat. Introducing these leaders into a unit at the 
right time and stabilizing them in a life cycle continuum of a unit 
positively impacts a unit's effective training, performance and 
resiliency during pre-deployment training and post combat. These 
leaders are in the best position to influence our cultural ethos with 
its emphasis on intangible qualities such as esprit de corps, 
integrity, and ``service to country during time of war.'' We are 
currently reviewing manpower policies and models and will ensure these 
key leaders are present and able to lead a cohesive unit throughout its 
life-cycle continuum, including rigorous pre-deployment training and 
post deployment actions. This effort will ready our units for any 
fight, whether irregular or combat.
    We also intend to infuse Values Based Training, rooted in our core 
values of Honor, Courage and Commitment, at all levels of professional 
development to foster resilience and to enable effective operations, 
especially in complex irregular environments. Our overall goal is to 
institutionalize efforts to develop more mature, educated, and capable 
non-commissioned officers and maneuver unit squad leaders. As these 
concepts mature, there will be costs in terms of military instruction 
and facilities for which we will require congressional support.
    Regionalization and Specialization.--The increased call for 
engagement, as seen in our force structure review and in strategic 
guidance, requires Marines with improved cultural and language skills 
and formal education. To develop better specialization for anticipated 
future missions and operating environments, we will expand our Foreign 
Area Officer and Regional Affairs Officer programs, as well as 
opportunities to send more officers through graduate level training, 
fellowships and research opportunities--ideas supported by findings and 
recommendations of the 2010 Quadrennial Defense Review and the 2010 
Quadrennial Defense Review Independent Panel Report.\14\ This effort 
will extend to our ``Whole of Government'' approach toward irregular 
warfare as we seek greater exchanges and fellowships with the elements 
of the Interagency.
---------------------------------------------------------------------------
    \14\ 2010 Quadrennial Defense Review Report, pg 54; 2010 QDR 
Independent Panel Report, pgs 75-77.
---------------------------------------------------------------------------
    Marine Corps University.--We are continuing to implement 
recommendations of our 2006 Officer Professional Military Education 
Study (the Wilhelm Report) and are making significant strides in terms 
of resources and facilities enhancing the campus of the Marine Corps 
University (MCU). We have programmed approximately $125 million in 
Military Construction between fiscal year 2011-12 for new academic 
facilities for the Marine Corps War College, Command and Staff College, 
and the School of Advanced Warfighting. In addition, we will expand the 
Staff Noncommissioned Officer Academy at the main campus in Quantico. 
These funds represent only a down payment on a larger commitment to 
double the size of the University campus and to upgrade our enlisted 
academies world-wide. Completion of the MCU master plan will require 
the demolition and relocation of tenant units aboard the campus. 
Detailed documentation of costs associated is ongoing; however, we 
estimate over $400 million is needed to complete the master plan. Our 
ultimate goal is to develop the MCU into a premier institution with 
world-class faculty, facilities, students, and curricula; we will 
require the assistance of Congress in this goal.

 PRIORITY #4 KEEP FAITH WITH OUR MARINES, OUR SAILORS AND OUR FAMILIES

    Keeping Faith.--We expect and demand extraordinary loyalty from our 
Marines--a loyalty to country, family, and Corps. Our Nation has been 
at war for a decade, placing unprecedented burdens on Marines, Sailors, 
families, Wounded Warriors, and the families of the fallen. They have 
all made tremendous sacrifices in the face of danger. We owe them all a 
reciprocal level of loyalty. Our approach to caring for their needs is 
based on the same unwavering faithfulness they have demonstrated to the 
Marine Corps. We will ensure their needs are met during times of 
deployment and in garrison by providing the services, facilities, and 
programs to develop the strength and skills to thrive on the challenges 
of operational tempo. When needed, we will restore them to health. We 
will also transition them back to civilian life, and in the cases of 
our fallen Marines, we will support and protect their surviving spouses 
and dependents. We will do this by focusing on several areas this 
fiscal year.
    Combat Stress, Resiliency, Medical and Mental Health Care.--We 
continue to advocate for the highest quality medical care and 
facilities for our service members, retirees, and their families. To 
ensure the Department can continue to provide the finest healthcare 
benefits in the country to our beneficiaries, we fully support the 
medical efficiencies and adjustments in TRICARE included in the 
President's budget proposal.
    The evolving security environment requires a physically and 
mentally resilient Marine able to endure extended exposure to 
ambiguous, stressful, and ever-changing situations. Young leaders find 
themselves on the vanguard of a protracted war, adapting to a variety 
of situations and scenarios. To improve their resilience, we are 
working aggressively and creatively to build a training continuum that 
better prepares them for the inevitable stress of combat operations and 
to equip them with the necessary skills required to cope with the 
challenges of life as a Marine.
    Instruction founded and focused on our core values helps provide 
some of this resilience, especially in irregular warfare and complex 
environments. A program combining the ``best practices'' of mental, 
emotional and physical fitness will best instill in our Marines the 
resiliency needed to endure the stressors of combat and enhance their 
ability to perform effectively across the range of military operations. 
We are developing a comprehensive program to improve the resiliency of 
our Marines both in garrison and in combat.
    We are partnered with the Navy to address the nationwide dearth of 
qualified mental healthcare providers, which challenges our ability to 
provide care at some of our bases and stations and, in some cases, to 
our reservists in remote locations. During calendar year 2010, we saw a 
nearly 30 percent decrease in the number of suicides within our Total 
Force.\15\ We are too early in our suicide studies to identify what 
specific initiative(s) have resulted in this dramatic turnaround. 
However, we have implemented a number of measures on multiple fronts. 
Some of these include the following:
---------------------------------------------------------------------------
    \15\ Calendar year 2010 suicides = 37 whereas calendar year 2009 
suicides = 52.
---------------------------------------------------------------------------
  --Evocative Peer-led Training Program.--``Never Leave a Marine 
        Behind'' suicide prevention program for non-commissioned 
        officers and Junior Marines. We are expanding this training to 
        include staff non-commissioned officers and commissioned 
        officers this year.
  --DSTRESS Line Pilot Program with TRICARE West.--``By Marines-For 
        Marines'' call center designed to assist with problems at an 
        early stage. The call center is staffed by veteran Marines, 
        providing anonymous service to all current Marines, veteran 
        Marines, their families and loved ones.
  --Combat and Operational Stress Control and Operational Stress 
        Control and Readiness Teams.--Utilizing unique training 
        programs across the Total Force and ensuring the presence of 
        mental health professionals in front-line units as a primary 
        prevention tool to help Marines identify and mitigate stress.
  --Marine Resilience Study to Assess Risk and Resilience.--We are 
        participating in a longitudinal research study that will 
        examine risk across three domains: biological, psychological 
        and social. The outcome of this study will inform our future 
        work in the area of building and maintain resiliency across the 
        Corps.
    We will continue advocating to the medical community for better 
diagnostic and increased treatment options for Marines with severe 
injuries including Post Traumatic Stress and Traumatic Brain Injury. In 
collaboration with the other services, we developed a set of events-
based parameters, mandating that our leaders search out Marines who 
have experienced a concussive event. This measure no longer relies on 
identification of impacted service members solely on their willingness 
to seek help on their own initiative. These protocols are in place now 
in Afghanistan, and we are already seeing a culture change in the 
attitude of Marines about being treated early for a Traumatic Brain 
Injury.
    We have established an in-theater Restoration Center that brings 
comprehensive concussion diagnosis and management as close to the front 
lines as possible to ensure that appropriate care is available as 
quickly as possible. We are currently developing policy and 
applications to track Traumatic Brain Injury from ``point of injury'' 
to ``return to full duty'' separately but in parallel with medical 
documentation. These measures will empower commanders with the 
information they need to monitor the health of a Marine who has 
suffered a concussive event and intervene appropriately for the 
duration of a Marine's career and long after the initial injury.''
    Transition Assistance.--We believe transition assistance should be 
a process not an event. We have established a goal to make the Marine 
Corps Transition Assistance Management Program more value added for our 
departing Marines. From 2009 to 2010, we conducted functionality 
assessments of the Transition Assistance Management Program and the 
Lifelong Learning Program and noted many deficiencies. In response, we 
established two Transition Assistance Operational Planning Teams in 
2010 to assess existing programs. We have developed an ``end to end'' 
process improvement plan that will begin at the point of initial 
accession into the Marine Corps and continue through post separation. 
We are initiating actions and integrating existing capabilities that 
will most directly improve the quality of support provided to Marines 
within 6 months prior to separation and those who have been separated 
at least 6 months.
    Marines have expressed a desire for assistance navigating 
Department of Veterans Affairs benefit processes such as in cases of 
enrollment for and access to education benefits. We will modify 
existing websites to improve access and enhance opportunity for 
separating Marines to speak directly to Marine Corps support personnel 
who are trained to remove administrative benefit processing barriers. 
We will improve networking opportunities to help Marines find 
meaningful employment and are adapting our current job fairs to support 
increased networking opportunities that will allow them to meet mentors 
and employers.
    Marines have asked for an opportunity to connect with employers and 
learn how to translate their intangible and tangible attributes. Our 
transition workshops will be overhauled to address these needs. Marines 
are also seeking help to simplify enrollment processes for the post 9/
11 Montgomery GI bill and to gain access to academic institutions that 
will provide the quality and level of business education and skills 
private industry demands. We have initiated a Leader-Scholar Program, 
which includes academic institutions who value Marines' service 
commitment and pledge special enrollment consideration. While the 
support varies from school to school, we now have 75 participating 
institutions with the goal of an additional 25 by the end of this year. 
As we gain momentum, we will continue to change the transition 
assistance program from its current event focus to that of a process 
that reintegrates Marines into the civilian sector with the knowledge, 
skills, and abilities to leverage and communicate their Marine Corps 
time and experience.
    Family Readiness Programs.--We increased baseline funding for 
family support programs beginning in fiscal year 2010 to ensure 
appropriate wartime footing. Programs benefitting from this measure 
include the Unit, Personal and Family Readiness Program; Marine Corps 
Family Team Building Program; Exceptional Family Member Program; School 
Liaison Program; and other miscellaneous Marine Corps Community 
Services Programs supporting remote and isolated commands, deployed 
Marines, and independent duty Marines and families. We are currently 
conducting a complete review to ensure effectiveness and efficiency of 
these programs. Our goal is to determine where expansion may be needed 
to further assist our families and where programs can be streamlined to 
reduce redundancy.
    Wounded Warrior Care.--Marines continue to suffer numerous wounds, 
trauma, and injuries during operations in combat and during training 
missions. Many of these brave heroes with significant injuries are 
convalescing at military treatment facilities here in the National 
Capital Region and across our Nation at other major military treatment 
facilities. Our Wounded Warrior Regiment provides non-medical care 
management services to wounded, ill, and injured Marines and their 
families. The Wounded Warrior Regiment continues to improve existing 
programs and add new support mechanisms. We have increased support to 
wounded, injured, and ill reserve Marines through additional Recovery 
Care Coordinators, enhanced family support at military treatment 
facilities, and one-on-one orientation sessions. We also provide 
Integrated Disability Evaluation System Support through Regional 
Limited Duty Coordinators and Wounded Warrior Attorneys. We have also 
initiated a mandatory Warrior Athlete Reconditioning Program. Outreach 
is an important aspect of the Regiment's non-medical care delivery and 
management. The Sergeant Merlin German Wounded Warrior Call Center 
extends support to Marines and families through advocacy, resource 
identification and referral, information distribution, and care 
coordination, 24 hours a day, 7 days per week.
    The comprehensive care coordination provided by the Wounded Warrior 
Regiment throughout the phases of recovery has been highly successful. 
The results of internal assessments have substantiated that creation of 
the Wounded Warrior Regiment has had a positive impact on the support 
offered wounded, injured and ill Marines and families. The Marine Corps 
will continue to honor the commitment to our Wounded Warriors and to 
help them return to full duty or successfully reintegrate into their 
communities.
    Behavioral Health Integration.--Behavioral health needs since 9/11 
have become increasingly complex with individuals often requiring 
assistance in a number of areas at one time. Marines with more than two 
deployments have been identified as a higher risk population. According 
to the Joint Mental Health Assessment Team, psychological health 
problems remain steady at 11 percent of Marines for the first and 
second deployments, but increase to 22 percent for those who have 
deployed three or more times. Sixty-five percent of Marines are under 
25 years old. Associated with this young force are high-risk factors 
that include communication and coping skills, isolation, combat-related 
wounds and substance abuse. Drawdown of end strength following 
Operation Enduring Freedom and return to garrison life will likely 
result in additional behavioral healthcare requirements as Marines 
redeploy and adjust to the garrison environment. We continue to move 
forward with our integration of prevention and intervention programs 
initiated in 2009. We have established a Behavioral Health Branch at 
our headquarters for Manpower & Reserve Affairs. Headquarters Marine 
Corps Health Services also has created and filled a new billet for a 
Director of Psychological Health.
    Military Construction.--The Marine Corps maintains its commitment 
to facilities and infrastructure supporting both operations and quality 
of life. Our military construction and family programs are important to 
success in achieving and sustaining our force structure and maintaining 
readiness. For many years, we funded only our most critical facility 
needs. As a result, our installations were challenged to properly house 
and operate the additional forces required to meet our planned end 
strength increase. Between fiscal years 2007-10, we received $6.9 
billion in new construction and design. With this funding, we are 
providing new quality of life facilities, improved operational and 
training facilities, and more modern utility infrastructure systems.
    Our fiscal year 2012 military construction budget request is $1.4 
billion. With these requested funds, we will provide Bachelor Enlisted 
Quarters, aviation support facilities, and improvements to quality of 
life, utilities and infrastructure, and professional military education 
facilities. Additional family housing efforts in fiscal year 2012 
include improvements to existing housing units and funding for the 
operations, maintenance, and leasing of 1,100 units worldwide and 
oversight of 22,000 privatized units.

                               CONCLUSION

    The United States Marine Corps remains the Nation's crisis response 
force-of-choice. Our continued success in Afghanistan and throughout 
the globe is made possible by the loyal sacrifice of our incredible men 
and women in uniform, Civilian Marines, and our Marine Corps family. 
The personnel, equipment, and training that have given us success over 
the nearly past 10 years at war has come through the ongoing support of 
Congress and the American people. I promise that your Marine Corps 
understands the value of each dollar provided and will continue to 
provide maximum return for every dollar spent.
    In the coming year, we will begin a deliberate transformation into 
a force optimized for the likely threats of the next two decades. We 
understand and appreciate the contribution that each Marine has made 
for this great Nation, and we recognize the heavy burden it has placed 
on their loved ones. We remain ``Always Faithful'' to our Marine Corps 
family, to Congress, to our chain of command and to the American 
people.

                  LITTORAL COMBAT SHIP SPLIT BUY PLAN

    Chairman Inouye. If I may, I'd like to begin asking 
questions.
    Mr. Secretary, you have received authorizations to have a 
split buy on the LCS. How will that benefit the Navy?
    Mr. Mabus. Mr. Chairman, as you pointed out, we have 
received authority to buy both variants, both the one made in 
Marinette, Wisconsin, and the one made by Austal in Mobile, 
Alabama. These ships bring us differing but important 
capabilities, each one of them.
    When I became Secretary, this program, in the summer of 
2009, bid out three ships. We had planned to buy both versions 
at the time, but the bids came in just unacceptably high. So, 
we made the decision to reduce that to one version, have the 
two yards compete against each other.
    Over the course of the next year, the bids came in 
dramatically reduced. The average ship cost, over 10 ships, for 
each variant is less than $440 million. By doing both versions 
and using two yards--and we had always planned on using two 
yards, whether we had one version or two--we were able to speed 
up the delivery of the ships. We were able to buy 10 ships, 
from 2011 to 2015, and to buy--from each supplier--which will 
get us almost one-half the class of ships--55--that we're 
planning to build with the littoral combat ship.
    This ship, and its two variants, is incredibly important to 
the Nation's future and to the Navy's ability to do the 
missions that we're given. Shallow draft, very fast, manning of 
about 40 people for the core crew, and another 30 for the 
weapons systems, gives us great flexibility to meet the 
challenges that we see in the future.
    Finally, the fact that it--that both these ships are 
modular, that you can take one weapon system off and put 
another one on, means, as technology improves and as weapon 
systems change, we can keep up with the technology, we can 
change weapon systems without changing the hull, without 
changing the entire ship.
    So, we think that this is going to provide us an incredible 
capability at a greatly reduced cost, almost $3 billion in 
savings, from the first 20 ships, and that it will give us the 
flexibility that we need to perform the missions that the Navy 
has been given.
    Chairman Inouye. You've spoken about the continuing 
resolution, and all of you have done the same. I can assure you 
that this subcommittee is very much against the continuing 
resolution, because that's no way to run the Government. And 
we'll do our best to go back into regular order. As you know, 
in the last fiscal year, we did--12 subcommittees--come through 
with our bills on time.

             CONTINUING RESOLUTION IMPACTS ON 313 SHIP GOAL

    On the matter of 313, as Admiral Roughead stated--the base, 
the minimum--how will the continuing resolution and the 
budgetary crisis affect this number?
    Mr. Mabus. We have, as I pointed out, 56 ships across the 
FYDP. But, because of the continuing resolution, we are unable 
to begin one Virginia-class submarine this year. We have 
planned to build two each year, over the next--well, starting 
in 2011, over the next 6 years. And we have a multiyear 
procurement authorized by Congress to do that. If we are unable 
to start the second Virginia-class, we will break the 
multiyear, and we'll have to go in and renegotiate the cost of 
future Virginia-class submarines. We have two Arleigh-Burke 
DDG-51 destroyers that we cannot start as long as we are 
operating under the current continuing resolution.
    The impact--and one MLP--one mobile landing platform--the 
impact from not beginning those ships will have ripple effects 
as we go forward. It will keep us from reaching the numbers 
that we need as quickly as we need. It will mean that the ships 
will almost inevitably cost more, which may mean fewer ships. 
If our shipbuilding plan, that we submitted for fiscal year 
2011 and updated for fiscal year 2012, is fully built and 
funded, we will not only get to the 313 floor, but we will 
reach in the neighborhood of 325 ships early in the 2020s, 
which will give us what we need to have for a global fleet. 
But, we are very concerned that if we are unable to start these 
ships this year, in fiscal year 2011, that the ripple effects 
will have huge impacts as we go forward.
    Chairman Inouye. Thank you very much.

                        RUSSIAN NAVY ASSESSMENT

    Admiral Roughead, in recent months very little, if 
anything, has been said about the Russian navy. If you look at 
the front pages, you don't see anything about the Russian navy. 
But, at one time, it used to be a formidable force. What is 
your assessment of the Russian navy today?
    Admiral Roughead. Thank you very much, Senator.
    And, to your point, the Russian navy has not been in the 
news that much. And that really, in my opinion, is because, in 
the period of the 1990s, that the navy was significantly 
reduced in capability and capacity. The funding had fallen off. 
Several of the shipbuilding programs had stopped or atrophied.
    That has since changed in recent years. And with the 
economy contributing to the resources that are now made 
available to the Russian navy, I believe you're going to see an 
increase in the capability, the capacity, new shipbuilding 
programs taking hold. Recently, there are negotiations taking 
place, between France and Russia, on construction of a large 
amphibious ship. And so, I believe that the Russian navy, which 
still has great ambition, great pride in the fact that they are 
at a world-class level of capabilities, will now begin to, for 
want of a better term, rebuild itself, bring more modern 
capabilities to bear, and to be able to operate more widely.
    That said, I believe it's important that we work closely 
with the leadership of the Russian navy to see where there are 
opportunities for cooperation, to see where we can join 
together and have a relationship that is constructive and 
globally relevant.
    I think it's also important to note that we have been 
conducting operations with the Russian navy in the 
counterpiracy area.
    But, clearly I think, after a period of stagnation in the 
1990s, the Russian navy is moving again.

                        CHINESE NAVY ASSESSMENT

    Chairman Inouye. Can you give us an assessment of the 
Chinese navy?
    Admiral Roughead. Thank you, Senator.
    And I've been an observer of the Chinese navy now for 
probably over 15 years, where, because of my assignments in the 
Pacific, I've had an opportunity to not only visit China on 
several occasions, but also to be present when Chinese ships 
have called in Hawaii, when I was commanding there, and to have 
had the opportunity to spend several sessions with my Chinese 
counterpart, Admiral Wu Sheng Li. The Chinese navy is--has been 
advancing, developing, expanding their shipbuilding programs, 
increasing the level of technology that is available to them, 
and also beginning to operate more globally.
    Like the Russian navy, we also, for the last 2 years, have 
been operating daily with the PLA navy in counterpiracy 
operations.
    But, we see their submarine fleet expanding, surface 
combatants are expanding. But, it's also how they're using 
command and control and the nature of the operations that tend 
to expand beyond what we call the ``first island chain,'' in 
the western Pacific.
    It's a navy that's also seen the value, as we have, in 
aircraft carriers. And they have an aircraft carrier 
development program that's underway. The initial phase will be 
based on a former Russian aircraft carrier. But, I see that 
developing. And, as you know, the PLA has a longer view of 
time. And it's a very thoughtful approach on how you bring 
these capabilities to bear.
    Similarly, I believe it's important that we look for ways, 
as we're doing off the coast of Somalia, to develop a 
professional relationship, and to also develop personal 
relationships with the leaders in the PLA navy, so that we, 
too, can operate in ways that enhance the safety and the 
security of the world oceans. But, it's a navy that I would say 
is the fastest-growing, not just in capacity, but also in 
capability, in the world today.
    Chairman Inouye. I've been told that the Chinese have more 
submarines than we have. Is that correct?
    Admiral Roughead. Yes, sir, in terms of numbers. But, I 
also believe that there's a qualitative dimension to the 
submarine force. And there is no question in my mind that we, 
in the Navy--in the United States Navy--operate the most 
capable submarine force in the world. And with the advent of 
the Virginia-class submarine into our inventory, there's no 
finer submarine, no more capable submarine in the world today 
than the Virginia. And that's why being able to get to the 
build of two per year, to be able to take advantage of the 
multiyear, that the Secretary pointed out, why getting out from 
under the continuing resolution is key, because the Virginia 
submarine is the most capable warship that we have.
    Chairman Inouye. Thank you.
    May I ask General Amos a few questions.

       UNITED STATES MARINE CORPS FORCE STRUCTURE CHANGE IMPACTS

    The Marine Corps recently announced significant force-
structure changes that will greatly affect the composition of 
your units in the future, making them lighter and more agile. 
This review stated that these changes will impact your budget 
request for fiscal year 2013 and beyond. However, we have 
before us the 2012 request for equipment that will likely start 
delivering when you begin implementing these changes. Can you 
explain to the subcommittee the immediate impact these force-
structure changes on the procurement programs, such as MRAP 
tactical vehicles and other equipment will have?
    General Amos. Chairman, just a quick note on the effort 
itself. It began last fall, spent all fall with a lot of really 
smart folks working to determine what the Marine Corps should 
look like in a post-Afghanistan environment. That was the 
framework we began with. We began with the mission of the 
Marine Corps, which is America's expeditionary force and 
readiness, this crisis response force. So, using that as the 
background, and understanding that--and informed by, this would 
be a force post-Afghanistan, we began to take a look and say, 
``Okay, with the future security environment that we will be 
likely working in for the next two decades, what would that 
force be required to do?'' And, again, informed with history, 
we said, ``What should it do? What kind of equipment would it 
need? How big would it need to be?'' So, the results were 
finished right around Christmas, and briefed to the Secretary 
of the Navy in January, the Secretary of Defense in early 
February.
    Right now, the Marine Corps sits at 202,000 marines. We 
grew--started in 1990---excuse me--started in 2007, from about 
182,000, up to 202,000. And that was so we could get some dwell 
time in our units, in--that are combat units that were 
deploying constantly in and out of Iraq, and certainly now in 
Afghanistan. That's happened, that's been very beneficial. But, 
does the Marine Corps need 202,000 in a post-Afghanistan 
environment? And the answer was no.
    So, based on that, we built a force with capability sets 
learned from the lessons--or, educated by the lessons of 9 
years of combat. I think it's a more capable force. We will go 
down to 186,800 marines. The guidance I have been given by the 
Secretary of Defense and the Secretary of the Navy is that that 
is conditions based. It is not designed to do this now, while 
we have 20,000 marines on the ground in Afghanistan. This is 
post-Afghanistan.
    So, we are looking now--when I made the comment, in my 
statement, that we were--they will have some immediate, during 
fiscal year 2012, changes; that's predominantly within the 
structure that we currently own. In other words, we're going to 
eventually reduce 21 headquarters as we flatten the Marine 
Corps to make it more capable and less complicated by higher 
levels of decisionmaking. So, we've collapsed or eliminated 21 
headquarters. We've eliminated three infantry battalions. But, 
those will not go away until the end of--until our war is over, 
until we come out of Afghanistan.
    So, within fiscal year 2012, there will be very little, 
other than just moving some capabilities around internally 
within the Marine Corps. For example, we'll probably go ahead 
and collapse a couple of these headquarters in fiscal year 
2012. We're going to take some of the structure that we 
currently have, and we're going to start putting it into our 
Cyber Command so we can beef that up. We're going to take some 
of our current 202,000 marines and move them into Marine 
Special Operations Command and begin that migration.
    So, the actual cost in 2012 will be transparent. Where we 
think we're going to begin to see some cost breaks will begin 
in 2013. We don't know precisely what that will be, because 
we're going through all the detailed analysis now of: Precisely 
when do you start drawing down equipment? Or, when do you stop, 
perhaps, buying equipment that you had planned on buying, at 
the rate that you were buying?
    So, we don't know the answers to that yet, Chairman. But, 
we will know that probably by June, as we begin to really get 
serious about the fiscal year 2012 budget. So, the end state 
will be a very capable force, capable of doing everything that 
we have done in the past, be slightly larger than what the 
force was when we began the buildup in 2007. But, it will be 
informed and--by all the lessons learned of almost--really, 
almost 10 years of hard combat.
    Chairman Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

         U.S. NAVY DISASTER RELIEF ASSISTANCE TO JAPAN--SECNAV

    Mr. Secretary, we all have been watching the news reports 
from Japan and the vicinity, about the effects of the 
earthquake and other related collateral damages that may have 
been done in that region. Do we have naval forces that have 
been affected directly by this tragedy? And, if so, what are we 
doing to position for either relief efforts for our own troops 
and ships or land-based personnel who happen to be in the area? 
To what extent is the Navy involved in that?
    Mr. Mabus. Senator, first, thank you for your very kind 
remarks in your opening statement.
    We are very involved in all aspects of the relief effort in 
Japan. As CNO pointed out, we have, or will soon have, 14 ships 
and more than 10,000 people in Japan, or in the waters off 
Japan, to do humanitarian assistance and disaster relief. The 
marines have--from the 3rd Marine Expeditionary Force in 
Okinawa--have brought a headquarters company up, with 500 
marines, to very close to the affected area to do things like 
radiological testing, to do humanitarian assistance planning. 
They've also established a refueling station so that we can use 
our helicopters more effectively.
    We're also flying with fixed-wing aircraft to deliver 
humanitarian assistance. We're flying our helicopters--and we 
will soon have almost 70 helicopters--in the region or in the 
area that was affected. We're moving Japanese first-
responders--Japanese troops--by ship to the affected area.
    In terms of our own folks there, as you well know from your 
visits there, we have ships home-ported in Japan. In Yokosuka, 
we have the USS George Washington and a couple of other support 
ships there. We have been monitoring the--what has been going 
on with this disaster. A couple of days ago, because of a wind 
shift, we recommended that our people in Yokosuka and other 
bases that we have on Honshu, the main island in Japan, remain 
indoors, to the maximum extent possible, because of radiation 
exposure. We didn't believe it was a threat to health or to 
life, but, out of precautions, we urged them to stay inside. 
The wind has since shifted again, and we've removed those 
precautions.
    We have moved our ships off the coast of Japan to keep them 
out of the plume that is developing. We are monitoring 
individuals that are actively engaged in the relief effort, to 
make sure that their radiation exposure is within appropriate 
bounds. We have done decontamination work on equipment, which 
mainly involves just washing them--washing surface radiation 
off--to date.

           U.S. NAVY DISASTER RELIEF ASSISTANCE TO JAPAN--CNO

    But, we're going to continue to, every moment, monitor the 
situation to--and, in case there are changes, to make the 
appropriate changes for our people who are there permanently 
and to the forces that we have sent to help in this 
humanitarian disaster.
    Senator Cochran. Admiral Roughead, do you have any comments 
to make along those lines?
    Admiral Roughead. Just to echo what the Secretary said. I 
think the benefit of having the forces forward-deployed, but 
also the flexibility that we derive from a global forward-
deployed Navy, allowed us to move one of our aircraft carriers 
into position very promptly. The USS Ronald Reagan is off the 
coast of Honshu, operating in areas that are safe to operate 
in. And the nature of being able to close forces, to pick up 
from an exercise in Southeast Asia and, in a matter of days, 
move off the coast of Japan to be able to provide this 
assistance--and it's coming from all of our ships; it's not 
just the aircraft carrier. We have guided-missile destroyers 
that are serving as fueling pads for the helicopters that are 
involved in search and rescue. Our amphibious ships, with their 
capacity--and, as the Secretary mentioned, one of our 
amphibious ships is up on the island of Hokkaido, loading 
Japanese self-defense forces to be able to then go down to 
Honshu.

           U.S. NAVY DISASTER RELIEF ASSISTANCE TO JAPAN--CMC

    And I think what it describes is a global Navy that's 
forward, that's ready, that can respond, but it has a variety 
of capabilities that gives you that balance that can swing 
from, in one case, combat operations, all the way to 
humanitarian assistance. I think it's important to realize that 
the USS Ronald Reagan and her strike group were on its way to 
conduct combat operations in Afghanistan when, on a moment's 
notice, it shifted into a full humanitarian mode. That shows 
the flexibility of our force. Most importantly, it shows the 
flexibility and the compassion of our people.
    Senator Cochran. Thank you.
    General Amos, do you have Marine Corps forces in the 
region? And, if so, what's the effect on them?
    General Amos. Senator, we do. We have about 500 marines on 
the ground right now. They're at various locations. Some are at 
the Naval Air Station Atsugi, which is just south of--it's 
really in the suburbs of Tokyo. We have some at Yokota Air 
Force Base, where we brought in what we call our Expeditionary 
Mobile Command Post, which is a very capable trailer-like 
setup, where we can talk to just about anybody in the world, 
with enormous capability. So, we brought that in. And then we 
set up--just as the Secretary said, just east of the affected 
area, we set up a--what we call a forward arming and refueling 
point. We're certainly not doing any arming, but--that's what 
we call them--but, it's where we bring in the actual fuel and 
bladders. We bring in pumps. We bring in hoses. We can hook up 
to any jet aircraft. We can hook up to any helicopter. And 
that's what we do with expeditionary marine aviation.
    So, for us, being able to work in a very austere 
environment suits our capabilities well. So, we bring that. So, 
we are forward to the east, and we're south with command and 
control. And, as the Secretary and the CNO have said, we've got 
2,200 marines on board the USS Essex and that marine 
expeditionary unit.
    So, yet to be seen what they're going to do, but everybody 
is poised to assist with humanitarian operations. It can be 
everything from medical--it can be just evacuation. It can be 
food and water--clean water. It's a host of things, Senator. 
And so, we do this. We practice it. As I said, in my opening 
statement, we did it in Haiti, just about this time last year. 
We did it in Pakistan, 400 miles deep, when the floods--we've 
done it on the backside of the Philippines, when that super 
typhoon, Megi, came through. So, we actually--this naval force 
has an enormous capability.
    I was particularly proud and pleased that, within 12 hours 
notice, that eight C-130Js and eight 40-year-old CH-46 
helicopters, with their marines and their equipment, flew out 
of the Marine Corps air station, Futenma Okinawa, and headed 
north to help out their brothers and sisters on the mainland 
Japan.
    Senator Cochran. Thank you. We appreciate your leadership 
in monitoring U.S. interests in that region, and being a good 
neighbor at the same time.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Gentlemen, thank you.
    And I, too, will echo the comments of the chairman and the 
vice chairman here in thanking you and the men and women that 
are working so hard and in such an incredibly capable way to 
provide for the level of rescue and relief, as we watch, in 
Japan.
    And I appreciate the fact that we have the ability to be 
nimble as a Navy, as the marines, as our armed services are. We 
never know what's going to hit us, whether it's an earthquake 
or a tsunami, or what the disaster might be. But, one way or 
another, we figure it out.

                     EVOLVING ARCTIC CONSIDERATIONS

    We've got a situation, up in the Arctic, that is not 
something that is happening overnight. We are seeing an 
evolving Arctic; an opportunity, viewed by many, but also a 
very noticeable challenge to us, as we, as an Arctic nation, 
work and act to be engaged in an area that, quite honestly, we 
haven't had to look at. When something's been locked up in ice, 
it's kind of put on hold, out of sight, out of mind. That 
situation is changing as we see the impact of receding ice, as 
we see a level of commercial activity, of military activity, of 
tourism up in the Arctic. And it brings to mind the question as 
to, how nimble, how flexible we will be--can be--in an area 
that we just have not really had to have much of a presence?
    There's a report that was released recently by the National 
Academy of Sciences. And they state that, ``Even the most 
modest current trends in climate change, if continued, will 
present new national security challenges for the U.S. Navy, for 
our Marine Corps, and our Coast Guard.''
    We've seen reports that China plans to receive over 150,000 
tons of oil, 600,000 tons of iron ore, and about 400,000 tons 
of gas condensate this year, all of which is going to be 
traveling in the maritime route, up north, through the Northern 
Sea Route. And depending on the size of any of these vessels, 
China's looking to receive anywhere from 7 to 28 tankers 
through the Northern Sea Route this year, an incredible 
increase from what we have seen last year. And it's not just 
what we're seeing from China in that activity. As I mentioned, 
we're seeing cruise ships that are coming up above the top; 
obviously, a greater increase in shipping activity. And the 
expanding role up there is something that--those of us that 
focus on the Arctic issues are concerned about our readiness.
    The question that I have to you, Admiral, is, do we have 
the resources--the assets, the staffing, the training, the 
funding--that is necessary to develop the national security, 
the sovereignty concerns, as we see increased international 
presence within the Arctic?

       EVOLVING ARCTIC CONSIDERATIONS--TASK FORCE CLIMATE CHANGE

    I note that you, in response to the chairman, indicated 
that China has more submarines than we do as a nation. I 
understand that China has more icebreakers than the United 
States has. And we're the Arctic nation, they are not. So, can 
you speak to the--again, the changing role that we have, and 
our readiness?
    Admiral Roughead. Thank you very much, Senator. And I thank 
you for your interest in the Arctic.
    A couple of years ago, I put together something that I 
called Task Force Climate Change, to really look at the changes 
that were taking place, primarily in the Arctic, but it also 
expands into other areas of the globe.
    But, there is no question in my mind that the Arctic is 
changing. I often, in public comments, refer to ``the opening 
of the fifth ocean,'' which is the Arctic Ocean. We have not 
had an ocean open since the end of the ice age. So, this is a 
big deal. And the changes that you described--the fishing 
fleets beginning to migrate with the fishing stocks, mineral 
extraction will be taking place. Ultimately, we'll get to a 
point where we have profitable commercial channels that are now 
open. And that probably is within the next two decades.
    And so, what we've done with Task Force Climate Change is, 
we've begun to look at, what is it that we must be putting in 
place as this ocean opens up? We have put some money toward 
that continued study and thinking about where we have to be. 
We're working very closely with the Coast Guard on how they see 
that future and how we must cooperatively work together to have 
in place the right types of equipment and communications and 
surveillance systems in the polar areas so that we have a 
better understanding of what's going on up there.

          ARCTIC CONSIDERATIONS--CONVENTION ON LAW OF THE SEA

    But, I would say the most important thing that I think we 
should do is to become party to the Convention on Law of the 
Sea. And I know that, in some areas, that may not be a popular 
view, but my sense is that if we are not party to that treaty, 
then we will not have a seat at the table as this unfolds.
    Senator Murkowski. Can you go into, I think, a little more 
detail, in terms of what it means to not have a seat at the 
table? Does this limit our ability, within the U.S. Navy, 
within the Marine Corps, to be engaged, to be responsive, to be 
a participant in what is happening in the evolving Arctic? 
Because this is an issue that I'm very focused on----
    Senator Roughead. Yes, ma'am.
    Senator Murkowski [continuing]. And I'm not seeing the 
urgency that I feel needs to be taking place on this issue.
    Admiral Roughead. I think it--first off, if I could say 
about the convention, there are some who believe that being 
party to this convention will inhibit our ability, as a Navy, 
to conduct the operations that we conduct, and that we must, to 
support the interests of the Nation, be able to conduct. That 
is simply not the case. It in no way inhibits us.
    But, what it does do, as issues of the Arctic and claims 
that are being adjudicated and discussed are taking place--not 
being party to that treaty, we will not be part of that 
discussion.
    I would also submit that we, as a global Navy, as a Nation 
with global interests, the leadership role that we play in many 
venues is significant. And countries look to us to be able to 
take the principled positions that we do, and to lead in those 
positions. And as these issues that are being discussed, 
adjudicated, for example, in the Arctic, not only will we not 
be there, we will not be able to be that leader that I think 
many countries look to and will continue to look to in the 
future. So, I think it will inhibit and, I think, would--will 
be a detriment to us, as a Nation. But, in no way will it limit 
our ability to operate effectively as a Navy.
    Senator Murkowski. Well, I appreciate your leadership and 
your outspokenness on that as an issue. I do feel pretty 
strongly that we need to take the initiative, here in the 
Senate, to move toward ratification of that treaty.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    I'd like to welcome back Senator Coats. Welcome back, sir.
    Senator Coats. Thank you, Mr. Chairman and Senator Cochran 
and Senator Murkowski. I am pleased to be on the subcommittee, 
and appreciate the opportunity to do this.
    I need to make a bit of a confession. I--during my first 
term of service, I was an authorizer on the Senate Armed 
Services Committee for 10 years, and I must admit, I was--there 
were times when I was grumbling about the role of the Senate 
Defense Appropriations Committee. Now I are one. And so, I'm 
looking forward to working with both the chairman and the 
ranking member and others on the subcommittee, and hopefully 
finding some seamless ways in which we can coordinate with the 
authorization committee to strengthen and make sure we have the 
kind of national security apparatus that has sustained this 
country for so long, and hopefully we can maintain that.
    So, thank you, Mr. Chairman, for your welcome.

                  U.S. NAVY-CHINESE NAVY RELATIONSHIPS

    Admiral Roughead, I was interested in your response, 
relative to the relationships that you've developed with the 
Chinese navy. It wasn't that long ago--just a couple weeks, I 
think--when DNI Director Clapper told a Senate subcommittee 
that China was one of the two major threats. And we have seen a 
significant increase in spending and development of not only 
the Chinese navy, but the Chinese military.
    And so, I wonder if you could just delve a little more into 
that, in terms of your relationship, what your response is to 
DNI Clapper's view, in terms of the Chinese navy being a major 
threat to the United States, and give us some of your thoughts 
in that regard.
    Admiral Roughead. Thank you very much, Senator.
    And whenever I talk about a threat, whether it's another 
navy or simply walking down a road, I think a threat requires 
two things. It requires the capability to do you harm, and it 
also requires an intent to do that. And so, I think those are 
two components of threat. As I look at the PLA navy, and I look 
at how their capabilities are developing, as I do globally, 
with any navies around the world, I look at what those 
capabilities are, how they're employed, what the competence of 
their people are. And so, I continue to watch that. And, as the 
leader of our Navy, my obligation, my duty, is to make sure 
that we, as a navy, are never denied any options when it comes 
to capability.
    And as you look at our programs that we have laid out 
within this budget, they are focused on not just the types of 
wars that we find ourselves in today, but also, where is 
technology taking naval warfare? And how do we, as a navy and 
as a Nation, always enjoy the advantages of being able to be in 
an unfair fight, from our perspective? So, that's what I do, as 
the Chief. So, I'm comfortable with the programs that we have 
put together, with the initiatives that we have put in place 
here.
    I do--as I mentioned, in my earlier remarks, I think it's 
important to try to gain insight into what their intent is and 
how they intend to use that navy. So, watch developments very 
closely, build programs so that we are not disadvantaged. And I 
think that's why you've seen the emphasis on antisubmarine 
warfare in this budget--integrated air and missile defense, 
electronic warfare, cyberwarfare--because that's the world that 
we're going to be operating in for the foreseeable future.

                   CHINESE NAVY STRATEGIC INTENTIONS

    Senator Coats. Well, in listing those decisions, which I 
think are appropriate decisions, I mean, is it fair to--what do 
we think the intent of the Chinese is, relative to their navy 
and its--what is their objective? What is their--what are their 
strategic objectives? Can you give us some insights into that?
    Admiral Roughead. Yes, sir. I would say it's the objective 
that nations and navies have had throughout history. With 
regard to countries whose economies rise, and if those 
economies are built on transoceanic trade, it follows that 
there will be a strong navy. It happened with the Portuguese, 
the Spanish, the Dutch, the British, and with the United 
States. And as China's economy has grown, and as the resources 
have been available, and as they rely on the sea lanes of the 
world to bring resources in and goods out, they want to ensure 
that those sea lanes are able to be used. And that's what 
navies have done throughout history. And so, that's how I see 
the PLA navy developing, being able to control the sea lanes 
that are important to them, the areas around their country that 
are important to them. That's the path I see them on.

                      CHINESE MISSILE DEVELOPMENT

    Senator Coats. What's your read on the Chinese development 
of a new missile capability in taking out carriers? I mean, 
there's a lot been written in--about that. This is more than 
just defending sea lanes for trade. This is a very aggressive 
weapon designed to take out a hugely expensive piece of 
property. That has immense implications, should something like 
that happen.
    Admiral Roughead. Yes, sir. I would say that--and I know 
there's been a lot of discussion about the DF-21 missile, which 
is what has been developed. But, I think throughout war--the 
history of warfare, there have always been, how do you develop 
new capabilities to counter a capability that someone else has?
    I would submit that the DF-21 is no more an anti-access 
weapon than a submarine is. Because I could argue that you can 
take a ship out of action by putting a hole in the bottom 
faster than you can by putting a hole in the top. So, I think 
it's all part of being able to control sea space, control 
access into the ocean areas. So, I think that that has--is part 
of it.
    But, I would also say that, even though the DF-21 has 
become a weapon of--a newsworthy weapon, the fact is that our 
ships, particularly our aircraft carriers, can maneuver. We 
have systems to counter weapons like that. And so, you would 
expect me, as someone who wears this uniform, to prefer to be 
on that aircraft carrier, that can move and do other things, 
than to be on a fixed shore base where the targeting problem is 
extraordinarily easy, relative to trying to find, then target, 
and then hit a moving ship.
    Senator Coats. I don't want to get into a classified area, 
but I assume, on the basis of what you've said, that we are 
pursuing, or have effective--what we believe to be, or will be, 
effective defensive systems to protect against that kind of a 
threat.
    Admiral Roughead. Senator, my objective for our Navy is--
whether it's a submarine, another ship, an anti-ship cruise 
missile, low-flying missile, or a ballistic missile--is to not 
be denied ocean areas where we can operate, or not be 
restricted in our ability to operate.
    Senator Coats. Yeah.

                       F-35B (STOVL) DEVELOPMENT

    Mr. Commandant, General, just one question, in the 
interests of time here. The F-35B, the V/STOL, now under 
moratorium for 2 years--what if the worst-case scenario 
happened--either funding wasn't available to go forward with 
that, or the technical issues associated with the development 
of that were prohibitive, or the combination of the two, the 
funding and the technical problems--and we couldn't build that 
or couldn't source you with that. What are your alternatives? 
How serious an issue is this, relative to your capabilities in 
the future, if we were not able to do that?
    General Amos. Senator, the short answer to your question--
then I'd like to put a little bit more on the back side--is, 
there is no alternative right now. And the impact is more than 
just to the Marine Corps. This is our Nation. Right now, today, 
we have 11 carriers--11 carriers that transit the world, and 
some of which are off the coast of Japan right now, and off the 
coast, doing combat operations in the Southwest Asia area.
    We also have 11 large-deck amphibious ships, one of which 
is the USS Essex, that's--that will arrive off the coast of 
northern Japan later today. So, 22 capital ships flying fixed-
wing aircraft off. Now, our amphibious ships, we fly MV-22 
Ospreys, we fly helicopters, attack helicopters, and we've got 
about 500 marines on board one of those large-deck ships. And 
then we spread the other marines out.
    But, what this means for the Nation is, if we lose this 
capability, the ability to take a fixed-wing aircraft and land 
it vertically on board a--large-deck amphibious ships, then our 
Nation now is reduced, by 50 percent, its ability to influence 
and--its--you know, its will, around the world, at any given 
time.
    You take the F-35B, which is the Marine Corps version, 
short takeoff and vertical landing--we'll take off from that 
amphibious ship. It is a fifth-generation aircraft. It not only 
is a strike aircraft, but it's what we call an ISR platform--
intelligence, surveillance, reconnaissance. It has the ability 
to do electronic jamming, electronic warfare, just inherent in 
the basic platform. It will have the ability to do information 
management, and spread that out over large portions of the 
battlefield, down to a marine corporal who's on the ground. It 
has that ability inherent in the platform. That makes it, along 
with its ability to carry weapons, its stealth, a fifth-
generation fighter.
    So, in a nutshell, if we lose this, our AV-8B Harriers, the 
ones that you see land vertically--and we've been flying them 
for so--for a long time--will begin to run out of service life 
around 2020, 2022. So, if we lose this airplane, then what 
you'll have is, you'll have 11 large-deck ships--carriers--with 
fifth-generation airplanes, and you'll have 11 large-deck 
amphibious ships with rotary-wing aircraft doing rotary-wing-
type missions instead of having the ability to have fifth-
generation fighters on there.
    The last thing I'd say, Senator, is--I've been tracking the 
F-35B--as I said in my opening statement and in my written 
statement--very, very carefully. If--in my office, I watch the 
metrics of how that program is progressing. Tomorrow, the 
program manager and the senior leadership of Lockheed Martin 
and the senior leadership of the Department of Defense come to 
my office--tomorrow will be my first monthly meeting--where we 
sit down and we go over the progress of this airplane. I will 
not be surprised by this. The airplane is--by order of the 
Secretary of Defense, is on a 2-year probation period. I don't 
want it to last 2 years. I don't think it needs to last 2 
years. I think we'll be able to prove the airplane's 
performance and ability to meet standards well before then. 
But, that's the decision my seniors have to make.
    But, I want this subcommittee to know that I'm tracking it. 
I'm watching it. I'm very encouraged by what I've seen, just in 
the last 70 days. This year alone, the airplane has flown over 
140 percent of its scheduled test flights. That's our version, 
the one that's on probation. It's flown more than four times 
the amount of vertical landings that it flew all last year, in 
the first 60 days of this year. This year, it's scheduled for 
480 test points. Every airplane that goes up on a test flight 
has to hit certain specific test points to determine the--how 
the airplane is performing. We've flown almost one-half of 
those test points--not quite; about 40 percent--just in the 
first 70 days of this year's schedule.
    So, I'm encouraged. The engineering fixes are coming along. 
But, I'm not a Pollyanna. I'm going to watch it very, very 
carefully. And as I said to the Secretary of the Navy and the 
Secretary of Defense, that if this airplane is not performing, 
much like the EFV, then I'll be the first person that comes 
forward and says, ``Okay, then we need to cancel it.'' But, I'm 
optimistic. I don't think that that will happen.
    Senator Coats. Okay.
    Mr. Chairman, thank you.
    Mr. Secretary, thank you for your service. I don't have any 
questions.
    I appreciate being a part of the subcommittee and look 
forward to future times together.
    Chairman Inouye. Welcome back.
    I have many other questions I'd like to submit to the panel 
for their responses. But, may I ask one question.
    The front pages have been filled with articles on the 
unrest and the instability of the Middle East. I'd like to know 
about the Navy's readiness posture. Are we ready to respond to 
anything?
    Mr. Mabus. Mr. Chairman, I'll give you the overall answer, 
and then I'd like the CNO to give you details. But, the overall 
answer is, yes, sir, we can respond to whatever mission is 
given to us in the Middle East or anyplace else in the world. 
And we are--we have the readiness and the capability to do 
that.
    Admiral Roughead. To follow up on the Secretary, Mr. 
Chairman, as you know, we maintain a ready force in the Central 
Command area of operations, the Middle East. We currently have 
two aircraft carriers that are deployed there--submarines, 
surface ships. And when they go forward, they are prepared for 
a range of operations, all the way from high-end combat to, as 
we see, humanitarian assistance. But, we train them to go 
forward, to be prepared, to be ready for sustained combat at 
sea. That has not changed, and that will not change.
    And so, the forces that are in the Arabian Gulf, in the 
North Arabian Sea, are prepared and very flexible to do 
whatever would be required of them.
    And then, we've also put some forces into the 
Mediterranean, because of the unrest that has taken place in 
the Magreb, particularly in Libya--took some ships from the 
Amphibious Ready Group that was there, put them in the 
Mediterranean. Destroyers and submarines are also present 
there. So, it's also the place where we have our 5th Fleet 
Headquarters, in Bahrain, where the 5th Fleet commands the 
operations in the Central Command area of operation.

              U.S. NAVY AND MARINE CORPS READINESS POSTURE

    I'm in daily contact with our commander there. The unrest 
has not been manifested toward the United States, or, indeed, 
any Westerners. And the 5th Fleet operations continue.
    In the last couple of days, there was an authorized 
departure that was put in place for our dependents in Bahrain, 
and some of the families have started to take advantage of 
that.
    But, we remain ready. We are ready. Our command and control 
is in place, and our capability is in place. And those naval 
forces are ready to do whatever is asked of them.
    Chairman Inouye. General?
    General Amos. Sir, we have--as you know, most of our forces 
are on the ground, currently, in Afghanistan. Although we have 
a MEU, a marine expeditionary unit, that should be arriving 
there in the next couple of days, we have a portion of a marine 
expeditionary unit currently on the ground, in Afghanistan. So, 
those forces that are attached to naval vessels are ready, sir. 
And we are bringing in this capability from the west coast--
should arrive here shortly. But, all those forces at a very 
high state of readiness before they leave the United States, 
headed toward the Central Command area of operations.
    Chairman Inouye. General Amos, this may be your first 
appearance before a congressional committee, but I'm certain 
your fellow marines would be proud to have seen you respond and 
answer all those questions. You've done very well, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    I'd like to thank the panel for their testimony, and I'll 
be submitting more questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                 Questions Submitted to Hon. Ray Mabus
            Questions Submitted by Chairman Daniel K. Inouye

                         HEALTH CARE PROPOSALS

    Question. I believe that the healthcare benefits we provide to our 
servicemembers and their families are one of the most important 
benefits we provide to the men and women serving our Nation. The 
Department of Defense is proposing several changes to the military 
health system that would raise out-of-pocket costs for military 
families. Could you please explain why these changes are necessary, and 
what impact they might have on military personnel and their families?
    Answer. The Secretary of Defense has articulated that the rate at 
which healthcare costs are increasing, and relative proportion of the 
Department's resources devoted to healthcare, cannot be sustained. He 
has been resolute in his commitment to implement systemic efficiencies 
and specific initiatives which will improve quality and satisfaction 
while more responsibly managing cost. We recognize that the Military 
Health System is not immune to the pressures of inflation and market 
forces evident in the healthcare sector. In conjunction with a growing 
number of eligible beneficiaries, expanded benefits and increased 
utilization throughout our system, it is incumbent upon us to ensure 
that we streamline our operations throughout the system in order to get 
the best value for our expenditures.
    The Department of the Navy supports the Secretary's Defense Health 
Care Reform initiatives and believes these proposals are consistent 
with our efforts over the last several years including focusing on 
internal efficiencies, incentivizing healthy behaviors and ensuring all 
of our beneficiaries are treated equitably. These proposals are modest 
and provide an opportunity for all participants--the Government, 
providers of healthcare, and beneficiaries--to share in the 
responsibility to better manage our healthcare costs.
    Question. I believe that the healthcare benefits we provide to our 
servicemembers and their families are one of the most important 
benefits we provide to the men and women serving our Nation. The 
Department of Defense is proposing several changes to the military 
health system that would raise out-of-pocket costs for military 
families. Secretary Mabus, increases in co-pays were proposed and 
rejected just a few years ago. Could you explain how these proposals 
are different, and why they should be reconsidered by Congress at this 
time?
    Answer. The rising healthcare costs within the Military Health 
System continue to present challenges. The Secretary of Defense has 
articulated that the rate at which healthcare costs are increasing, and 
relative proportion of the Department's resources devoted to 
healthcare, cannot be sustained. TRICARE Prime enrollment fees for 
retirees have not changed since 1996. The Secretary's proposals include 
a modest adjustment in TRICARE Prime enrollment fees for all retirees 
under age 65 ($5/month for families or $2.50/month for individuals) as 
well as modest adjustments (none more than $3) to pharmacy co-pays for 
all beneficiaries (except active duty) to promote the use of the 
TRICARE Home Delivery program.
    The Department of the Navy supports the Secretary's reform 
proposals to better manage our health benefit in a way that delivers a 
superb benefit while more responsibly managing cost.

                              NAVY ENERGY

    Question. Secretary Mabus, for the last 4 years, this Committee has 
added funds to the budget to increase Navy research efforts on 
alternative fuels, and we have supported your initiatives to reduce the 
dependence of the Navy and Marine Corps on fossil fuels. A recent study 
has questioned the value of the military's use of alternative fuels. 
Could you comment on the findings of that report, and explain why your 
initiatives are important to the Navy and Marine Corps?
    Answer. The RAND Corporation Report was not well researched and did 
not take into account the recent research and development advances in 
the biofuels technologies. RAND stated in their report that the 
Fischer-Tropsch coal-to-liquid/biomass-to-liquid fuels are the most 
promising near-term options for meeting the Department of Defense's 
needs cleanly and affordably. Currently, there are no Fischer-Tropsch 
plants here in the United States. Additionally, under the guidelines of 
the Energy Independence and Security Act (EISA) of 2007, section 526, 
any replacement fuel has to have a greenhouse gas emission profile less 
than petroleum. In order to meet this guideline, any Fischer-Tropsch 
coal-to-liquid plant would have to have carbon capture and 
sequestration incorporated into this overall process. While there is 
important carbon capture and sequestration research and development 
ongoing at DOE, there has not been any carbon capture and sequestration 
process built to commercial scale in the United States. In summary, due 
to the EISA 2007, section 526 guidelines and the cost prohibitive 
carbon capture and storage process, we feel that the Fischer-Tropsch 
coal-to-liquid/biomass-to-liquid fuels are not the most promising near-
term option for meeting the Department of Defense's needs cleanly and 
affordably.
    In the RAND report, some of the conclusions suggested that the 
alternative fuel industry is immature, could not scale up to make an 
appreciable difference as a domestic alternative, and recommended that 
DOD not invest in this market. We have found that the biofuel industry 
appears to be well poised to be of commercial size and ready to meet 
Department of Navy (DON) demands by 2016 for the Secretary of the Navy 
(SECNAV) Great Green Fleet goal. According to Biofuels Digest, there 
are 110 companies that are currently working on various biofuel 
products including mixed alcohols, bio-crude oils, and drop-in fuels.
    The Navy prefers to see itself as an ``early adopter'' of available 
biofuels. The military has often led in the development of new 
technologies where there was a compelling military use, even if the 
civilian use was ultimately greater (ex. GPS, the Internet). The 
operational use of alternative fuels by the Department of the Navy will 
be hastened by collaborating with Federal agencies and private industry 
at every step of the research, development, and certification process. 
The alternative fuel program establishes the Department of the Navy as 
an early adopter for investors in a nascent industry that could 
significantly enhance energy security, and thereby national security, 
in the mid- to long-term. By positioning itself as an early adopter by 
testing available biofuels and certifying them ``fit for use across our 
major platforms and leveraging test and certifications accomplished by 
the other services that meets our specifications'', the Navy is better 
poised to reap the following benefits:
  --Cost Savings.--Increasing our use of alternative energy sources 
        helps us achieve a level of protection from energy price 
        volatility. For every $10 increase in the cost of a barrel of 
        oil, the Navy spends an additional $300 million a year. 
        Operating more efficiently saves money by reducing the amount 
        we spend for fuel. Savings can be reinvested to strengthen 
        combat capability. The cheapest barrel of fuel afloat or 
        kilowatt-hour ashore is the one we will never use.
  --Guaranteed Supply.--Our reliance on energy can be exploited by 
        potential adversaries. Efficiency and alternatives may be our 
        best countermeasure. Energy efficiency increases our mission 
        effectiveness by expanding our range and endurance, and 
        reducing our need for logistics support. Efficiency 
        improvements minimize operational risks of that logistics 
        tether, saving time, money, and lives. Alternative fuels 
        provide the Navy an ``off-ramp from petroleum,'' mitigating the 
        risk to a volatile and ever more expensive petroleum market.
  --Early Adopter of Technologies.--The military has often led in the 
        development of new technologies where there was a compelling 
        military use, even if the civilian use was ultimately greater 
        (ex. GPS, the Internet). The operational use of alternative 
        fuels by the Department of the Navy will be hastened by 
        collaborating with Federal agencies and private industry at 
        every step of the research, development, and certification 
        process. The alternative fuel program establishes the 
        Department of the Navy as an early adopter for investors in a 
        nascent industry that could significantly enhance energy 
        security, and thereby national security, in the mid- to long-
        term.
  --Fossil Fuel Independence.--The Navy recognizes that our dependence 
        on fossil fuels and foreign sources of oil makes us more 
        susceptible to price shocks, supply shocks, natural and man-
        made disasters, and political unrest in countries far from our 
        shores.
  --Combat Capability.--Making our ships and aircraft more efficient 
        improves their fuel economy. We can increase the days between 
        refueling for our ships, improving their security and combat 
        capability. We can also extend the range of our aircraft strike 
        missions, allowing us to launch our aircraft farther away from 
        combat areas. Increasing our efficiency and the diversity in 
        our sources of fuel improves our combat capability 
        strategically and tactically.
    Question. Secretary Mabus, are there particular alternative energy 
technologies which you find are most promising at this time?
    Answer. The Department of Navy (DON) is exploring multiple 
solutions to reduce reliance on fossil fuels. It is critical to have a 
broad solution to this issue due to difficulties in predicting which 
solutions will be best suited for production at an industrial scale and 
at an acceptable price point.
    The DON is aggressively moving to demonstrate and certify 
alternative fuels for tactical application. Although the DON has not 
specified any particular feedstock, alternative fuels considered by DON 
must comply with EISA 2007 section 526 and not compete with food 
production. The DON has been evaluating 50/50 blends of hydrotreated 
plant and algal oils with petroleum-vased fuel. These blends have 
looked promising in both laboratory and aircraft and ship operation 
tests conducted to date. The DON is confident that its strategy of 
partnering with a broad coalition and demonstrating its commitment to 
and ability to use alternative sources of energy will lead to the 
successful development of clean alternatives and more secure domestic 
sources of energy.
    Question. The Navy has been working aggressively to identify 
savings which can be reinvested throughout the department. The list of 
initiatives described in your budget rollout includes $2.3 billion of 
savings on energy. Could you please detail the source of these savings?
    Answer. There are numerous energy efficient initiatives and 
renewable/alternative energy programs that the Navy and Marine Corps 
are pursuing. The reduced reliance on fossil fuels will achieve lower 
energy consumption, strategic security, avoided energy cost, and a more 
sustainable Fleet. Here are the major program areas along with examples 
of projects with estimated savings.
Major Energy Program areas
    Shore:
  --Steam plants decentralizations
  --Lighting systems upgrades
  --Renewable energy systems (solar & photovoltaic)
  --Rooftop solar thermal hot water projects
  --LED street lighting projects
  --Ground source heat pumps
  --Boiler heat recovery upgrades
  --Control system improvements
  --Alternative Powered Vehicles
    Tactical/Expeditionary:
  --Hull coatings
  --Propeller coatings
  --Stern Flaps
  --Allison 501K Efficiency Initiatives
  --Aviation Simulators
  --Smart voyage planning software
  --USS Truxtun hybrid energy drive retrofit
  --Alternative fuels testing and certification program
  --Incentivized Energy Conservation Program (i-ENCON)
  --Expeditionary Forward Operating Base (Ex-FOB)
  --SPACES portable solar systems
  --Light Emitting Diode (LED) Lighting
  --Renewable battery charging systems
Examples of Projects for Navy Tactical with estimated savings
    Stern Flaps for Amphibious Ships:
  --Shown to have an average payback period of less than 1 year on FFG/
        CG/DDG platforms
  --Currently undergoing testing on amphibious ships
  --Savings estimated at 5,500 BBLs/ship/year for LHD
    Hull/Propeller Coating:
  --Easy release hull/propeller coating system allows Navy ships to 
        shed bio-fouling once underway
  --Reduces costly periodic hull/propeller cleanings
  --Savings estimated at 1,800 BBLs/ship/year
    Solid State Lighting:
  --Uses LEDs for platform illumination
  --LED lights in commercial applications last almost 50 times longer 
        than Incandescent and 6 times longer than Fluorescent lights; 
        provide the same illumination with 25 percent of the energy
  --Currently testing on DDG-108 and LSD-52
  --Payback estimated at 3 years, depending on fixture (savings of 335 
        BBLs/ship/year for DDG)
    Navy also continues to develop technologies that will be 
implemented in future years; the implementation schedule for these 
initiatives is subject to impacts based on final fiscal year 2011 
budget:
    Hybrid Electric Drive for DDG/LHD/LHA:
  --Fuel savings by securing LM2500 propulsion turbines at low speed 
        while loading gas turbine electric generators to more efficient 
        operating condition (savings estimated at 8,500 BBLs/ship/year)
  --Land-based prototype scheduled for testing mid-2011
  --First afloat hybrid drive installed in USS Makin Island (LHD-8)
  --Hybrid drive will be installed in USS America (LHA-6), which is 
        scheduled for completion in 2012.
  --USS Truxtun (DDG-103) scheduled to be first operational 
        installation in fiscal year 2012 as an afloat test platform
    Engine efficiency modifications for the F-35 Joint Strike Fighter:
  --Improvement in F135 Block 5+ engine fuel economy and lifecycle cost 
        through component upgrades and software cycle optimization
  --Estimated Fleet-wide savings of 35,000 BBLs in 2023 (upon delivery 
        of Block 5 aircraft), increasing to 178,000 BBLs/yr by 2029
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                            MILITARY HEALTH

    Question. Secretary Mabus, the suicide rate in the military is at 
an all time high. While both the Navy and the Marine Corps numbers seem 
to have decreased, one suicide is one too many.
    What is your department doing to prevent suicides in the Navy and 
the Marine Corps?
    Answer. We believe preventing suicide hinges on our leaders' 
ability to intervene early and lead a culture change to induce help 
seeking behavior. We continually improve the guidance and program 
support provided to leaders at all levels to combat this preventable 
loss of life.
    Suicide prevention initiatives in the Navy include training aimed 
at front line supervisors to boost their understanding of the sailors 
they command, recognize changes in behavior, signs of concern, and 
engage early with appropriate support. Leadership seminars focus 
attention during times of transition and stress due to loss, including 
loss of status or career standing. Seminars also address the concept of 
continuously building and reinforcing connections with families and 
support structures to facilitate communication in times of need. 
Recognizing that people exposed to suicide are an at-risk group, 
expanded post-suicide-event training and guidance has recently been 
added to assist leaders in the aftermath of a tragedy to prevent future 
suicides. Suicide prevention coordinator and first responder training 
were provided world-wide and at Navy Reserve locations via Navy Reserve 
psychological health outreach teams.
    For the Marine Corps leaders educate all marines about the 
relationship between suicide and stressors, warning signs, and risk 
factors--both through annual awareness and prevention training, and 
through additional training embedded in all formal schools from recruit 
training to the Commander's Course. Marines are also taught how to 
fulfill their duty to seek help for themselves or a fellow Marine at 
risk for suicide. The importance of seeking help early, before problems 
escalate to the point of suicide risk is also emphasized.
    The ``Never Leave a Marine Behind'' suicide prevention training 
series is being expanded. In January 2011, we provided a junior Marine 
module as well as an update to the existing award-winning NCO module. 
In development for release soon are officer and staff noncommissioned 
officer modules that will help leaders to manage command climate in a 
way that builds resilience and encourages help-seeking in their 
marines.
    To truly build a resilient force that fosters the ability of 
marines to cope with the widely varying stress of life, we must 
recognize the interconnectedness between physical health, behavioral 
health, wellness, and spirituality. We will accomplish this by better 
integrating our existing resilience programs, improving efficiency and 
effectiveness, and making resources more useful to leaders. To that 
end, many programs have been reorganized under a new behavioral health 
branch with the end state of one mission. Effectively leveraging other 
programming across the spectrum of behavioral health and extending into 
other wellness areas will proactively prevent suicide.
    We recognize that strong partnerships are necessary to stay abreast 
of the latest available information within the suicide prevention arena 
and also to explore programming needs. The Marine Corps has 
collaborated with the American Association of Suicidology. Both the 
Navy and Marine Corps collaborate with Office of the Secretary of 
Defense (Readiness), Sister Services, other Federal, and civilian 
agencies, to continually adapt our efforts and reflect the latest 
public health science; and the ever-changing needs of the Navy and 
Marine Corps family.
    Question. I am concerned that many programs are only directed to 
active duty servicemembers. What are the Navy and the Marine Corps 
doing to assist Reservists with psychological health issues as they 
transition back to civilian life and may not have access to military 
treatment facilities?
    Answer. I agree with you that one suicide is too many, which is why 
the Department of the Navy continues to build a culture of support for 
psychological health and suicide prevention focused on prevention and 
early intervention while working to overcome the stigma associated with 
seeking needed care for the Total Force, including Reservists and their 
families.
    Enabling a continuum of service, Reserve commands have trained 
Combat/Operational Stress Control (C/OSC) caregivers and C/OSC training 
is conducted regularly at all levels in order to prevent suicide, 
sexual assault and family violence, and to normalize buddy-care and 
help-seeking behavior as early as possible. Reserve Psychological 
Health Outreach Program (PHOP) teams, embedded in the Navy and Marine 
Corps Reserve communities geographically, support Commanders in 
identifying Navy and Marine Corps Reservists and their family members 
who may be at risk for stress injuries following deployments or other 
transitions and provide outreach, support, assessment, referrals and 
follow-up to local resources to assist with issue resolution, 
psychological resilience and growth. Along with mental health 
referrals, many successful referrals by the PHOP teams involve helping 
Reservists with financial and employment concerns that can affect 
psychological health and impact performance. Another effective tool is 
the Returning Warrior Workshops (RWW), a 2 day weekend program designed 
specifically to support the reintegration of returning Reservists and 
their families following mobilization. PHOP teams serve as facilitators 
at these Yellow Ribbon Reintegration Program signature events. In 
addition, FOCUS (Families OverComing Under Stress), a family centered 
resilience training program based on evidence-based interventions that 
enhance understanding of combat and operational stress, psychological 
health and developmental outcomes for highly stressed children and 
families, is available for reservists serving in areas with a high-
active duty fleet concentration.
    Question. What programs have been the most successful? I urge you 
to share those best practices with the other services.
    Answer. Leadership at all levels is focused and engaged in suicide 
prevention, working hard to build individual and unit resilience, and 
to encourage sailors and marines to engage helping services.
    The Navy suicide prevention program has been successful on a number 
of fronts. It builds on the premise that suicide prevention must be a 
local effort to be effective. Service level efforts have been designed 
to support local command suicide prevention programs. Navy training and 
communications emphasize a simple message--ACT: Ask, Care, Treat. 
Recent surveys show that more than 80 percent of sailors (and growing) 
know the acronym ACT and understand it. More than 90 percent report 
that they know what to do if someone talks about suicide, can explain 
appropriate actions to take, and believe that their shipmates will get 
needed help. We have an increasing number of reports from commands that 
describe how members either sought help for themselves or a leader, 
peer or family member sought assistance for the individual. We believe 
this is a successful element of our program based on survey results and 
the increasing number of reports of sailors and family members taking 
necessary action.
    Navy policy requires commands to have written crisis response plans 
that itemize suicide safety precautions and appropriate actions to get 
emergency assistance for someone who demonstrates signs of acute 
suicide risk. We know of at least 2 specific instances and have several 
anecdotal reports that such plans made the critical difference by 
reaching someone in time to save their life.
    In 2009, the Marine Corps redesigned its suicide prevention and 
awareness training with the noncommissioned officer Never Leave a 
Marine Behind course. A junior Marine course followed in January 2011, 
and officer and staff noncommissioned officer versions are expected to 
be released in March 2011. Marines from the operating forces were 
included in all stages of course development. The courses contain 
various degrees of training in intervention skills, frontline 
supervisor awareness, and managing command climate to build resilience 
and encourage help-seeking behavior. Marines and instructors in formal 
schools, such as recruit training and Corporal's course, continue to 
receive suicide prevention and awareness instruction.
    The Corps continues to embed behavioral health providers in 
deploying units, and recently began providing awareness and 
intervention training to those who support behavioral health providers, 
such as medical providers, corpsmen, chaplains, and religious 
personnelmen. In addition, 40-50 marines in each deploying unit are 
offered nonmedical training in how to identify fellow marines 
experiencing stress reactions, and how and where to refer them for 
additional help if needed. It is that relationship and interaction 
between individual marines that is so important to maintaining a 
healthy force.
    Our programs have many other evidence-informed elements in our 
suicide prevention programs including peer-to-peer training, front line 
supervisor training, assessment and management of suicide risk for 
mental health providers.
    Both the Navy and Marine Corps collaborate with Office of the 
Secretary of Defense (Readiness), Sister Services, other Federal, and 
civilian agencies, to continually adapt our efforts and reflect the 
latest public health science; and the ever-changing needs of the Navy 
and Marine Corps family.

                            NUCLEAR FUNDING

    Question. Secretary Mabus, in H.R. 1, the House has decided to 
protect Defense spending from massive budget cuts proposed in other 
departments. This includes preserving research and development funding 
for a new generation of Ohio class ballistic missile submarines. It 
cuts funding, however, for the National Nuclear Security Administration 
which would build the nuclear engine to power the submarines. Can you 
reconcile these policy choices?
    Answer. Among its other missions, National Nuclear Security 
Administration (NNSA) enhances global security by providing naval 
nuclear propulsion for the most survivable leg of the nuclear triad, 
developing and maintaining the nuclear warheads which arm this 
platform, and preventing the proliferation of nuclear weapons.
    The funding provided for NNSA in H.R. 1 is approximately $1 billion 
less than the fiscal year 2011 request including a $125 million 
shortfall for Naval Reactor's efforts. If funded at the levels in this 
legislation, Naval Reactors will not be able to deliver on commitments 
made to the Department of Navy. In particular, this bill will adversely 
impact the reactor design work for the OHIO Replacement Submarine and 
delay refueling of the Land-Based Prototype. Within NNSA, Naval 
Reactors has overall responsibility for the reactor plant design for 
the next generation ballistic missile submarine, OHIO Replacement, and 
its NNSA funding request will continue specific work on the reactor 
plant (reactor core and supporting systems). Should the funding level 
in H.R. 1 become law, at a minimum, there would be a:
  --Six to nine month delay to the OHIO Replacement Program and 
        resultant loss of synchronization with the Navy's work on the 
        ship.
  --Staffing reduction of over 50 personnel at shipyards and Naval 
        Reactors' laboratories.
  --Deferral in planned hiring of 150 personnel at shipyards and Naval 
        Reactors' laboratories.
  --Deferral in reactor plant component design subcontract placements.
  --Other impacts to Naval Reactors, including the delays to the 
        manufacturing demonstration of alternate core materials and 
        fuel systems technology, the S8G prototype refueling, and a 
        large majority of previously planned General Plant Projects 
        (GPP).
    These shortfalls are particularly damaging in the early stages of 
the project when we are trying to mature the design and set plant 
parameters that will, for the most part, refine the cost and schedule 
for ultimate delivery of the reactor plant to support ship 
construction.
    Question. What impact will the cut for the nuclear engine program 
have on the new Ohio class ballistic missile submarine program?
    Answer. A strong Navy is crucial to the security of the United 
States, a Nation with worldwide interests that receives the vast 
majority of its trade and energy via transoceanic shipment. Navy 
warships are deployed around the world every hour of every day to 
provide a credible ``forward presence,'' ready to respond on the scene 
wherever America's interests are threatened. Nuclear propulsion plays 
an essential role in this, providing the mobility, flexibility, and 
endurance that today's smaller Navy requires to meet a growing number 
of missions. About 45 percent of the Navy's major combatants are 
nuclear-powered, including 11 aircraft carriers, 53 attack submarines, 
14 strategic submarines (the Nation's most survivable nuclear 
deterrent), and 4 strategic service submarines converted to covert, 
high-volume, precision strike platforms.
    The mission of the Naval Nuclear Propulsion Program, under DOE as 
Naval Reactors, is to provide militarily effective nuclear propulsion 
plants and ensure their safe, reliable, and long-lived operation and 
disposal. This mission requires the combination of fully trained U.S. 
Navy men and women with ships that excel in speed, endurance, stealth, 
and independence from logistics supply chains. Because of the Program's 
demonstrated reliability, U.S. nuclear-powered warships are welcomed in 
more than 150 ports of call in over 50 foreign countries and 
dependencies.
    Within NNSA, Naval Reactors is responsible for naval nuclear 
propulsion design, technology development and regulatory oversight. The 
Navy sets the requirement, and Naval Reactors delivers the reactor 
plants.
    The funding levels proposed by both the House and the Senate's year 
long continuing resolution would not allow Naval Reactors to honor 
commitments made to the U.S. Navy to deliver the OHIO class Replacement 
submarine on the required schedule. If no additional funding is made 
available to Naval Reactors, this would result in at least a 6 month 
deferral of planned reactor plant component design subcontracts, 
including development of the pressurizer, control drive mechanisms, and 
core and reactor component development efforts which support reactor 
compartment design and arrangements; a staffing reduction of over 50 
personnel at Naval Reactors' laboratories and the shipyard in Groton, 
CT for the last 3-4 months of fiscal year 2011; and a deferral in 
required hiring of approximately 150 personnel at Naval Reactors' 
Knolls Atomic Power Laboratory in Schenectady, New York. The 
combination of these factors would result in a delay of at least 6-9 
months to the OHIO Replacement program, and ship design and 
construction schedules would need to be revised and sub-optimized from 
their current cost minimizing approach.
    Among the most significant requirements for the OHIO class 
Replacement is a life-of-the-ship core. To provide a life of the ship 
core for the OHIO class Replacement, NR needs to use an alternate 
cladding material. Failure to receive the full fiscal year 2011 request 
could prevent the required insertion of alternate core materials and 
fuel system technology into the Land-Based Prototype or delay the 
refueling schedule. For the refueling of the Prototype, Naval Reactors 
will test and demonstrate the manufacturability of the alternate core 
materials and fuel system technology required for the OHIO class 
Replacement life-of-the-ship core. This work must continue in fiscal 
year 2011 to establish production processes for the OHIO class 
Replacement core prior to full-scale production and procurement.
    In addition to the important research and development mission this 
platform performs, the prototype serves as a training platform for our 
sailors. Delays to the refueling of the prototype will impact the 
readiness of our nuclear fleet by delaying training of our Nuclear 
qualified operators. All nuclear operators go through a rigorous 
initial training and qualification program that includes qualifying to 
operate either one of the Land-Based Prototype or one of the Moored 
Training Ships. During this training, operators develop a respect for 
the unforgiving nature of nuclear propulsion technology and, from the 
very beginning of their careers in the Program, develop confidence in 
their ability to safely operate a reactor plant. These highly trained 
and qualified operators are key to our record of safe and reliable 
operation.
    The proposed funding levels are concerning on a higher level in 
that Naval Reactors has a long, successful track record of rigorously 
defining requirements and executing major projects efficiently on 
budget, on schedule, and of the quality demanded by complex nuclear 
technology that has a very high consequence of failure.

                          HUMANITARIAN RELIEF

    Question. As evidenced by this past year's events, the U.S. 
military's involvement in disaster and humanitarian relief has become 
more and more important. I note specifically aid to Haiti both after 
the earthquake and the hurricane in 2010, aid to Pakistan after the 
2010 floods, and most recently aid to Japan in the aftermath of the 
earthquake and tsunami. This type of assistance is vital to our global 
relationships and I applaud you for your consistent quick reaction and 
comprehensive support. Is the Navy-Marine Corps team adequately 
equipped to conduct these missions?
    Answer. The Department of Navy (DON) is adequately equipped and 
trained to conduct Humanitarian Relief missions when called upon. This 
is exemplified by the recent response to the earthquake, tsunami and 
nuclear reactor disasters in Japan which had minimal impact on DON 
missions. These responses showed the flexibility of Navy and Marine 
Corps assets. The same platforms and the same people can conduct a wide 
range of missions.
    Humanitarian Assistance/Disaster Relief (HA/DR) is crucial to 
fostering and sustaining cooperative relationships in times of calm so 
that during crisis previously established working relationships improve 
response efficiency and efficacy. We will continue to mitigate human 
suffering as the vanguard of interagency and multinational efforts, 
both in a deliberate, proactive fashion and in response to crises. 
Human suffering moves us to act, and the expeditionary character of the 
maritime forces uniquely positions us to provide assistance. With HA/DR 
being a core capability as outlined in the current maritime strategy, 
it has been, and will continue to be, part of who we are as maritime 
services.
    Our greatest current concern related to Humanitarian Relief is the 
fiscal strain placed on DON by the voluntary departure of military 
dependents from the Island of Honshu, Japan. With an estimated cost of 
$54.5 million through April 8, and the tremendous strain our sailors 
are already bearing due to the reduction of PCS order lead-time from 6 
months down to as little as 2 months, we simply cannot absorb these 
costs within MILPERS accounts under the Continuing Resolution (CR). The 
Department has submitted a CR exception request to the President's 
Office of Management and Budget (OMB) for additional cash under the 
``Safety of Human Life'' exception to fund the additional cost for 
travel, lodging, meals, and per diem for evacuees through April 8, 
2011. This short-term solution has been approved by OMB. The annual 
funding picture remains unresolved and a full year funding strategy 
cannot be determined until congressional action on the fiscal year 2011 
President's budget is complete. We appreciate any help you can provide 
on this matter.
    Question. What kind of training do our sailors and marines receive 
with respect to humanitarian missions?
    Answer. The Navy established Humanitarian Assistance and Disaster 
Response (HA/DR) as a core capability of our Maritime Strategy. As 
such, it is now a competency that is woven into the fabric of daily 
naval operations. The conduct of Global Maritime Partnership missions, 
as well as other partner building activities, connect development and 
diplomacy priorities to fleet-planned activities. When disasters occur, 
the Navy's globally distributed and regionally concentrated forces are 
ideally suited for HA/DR operations in the littorals where the 
preponderance of the world's population resides. Naval forces can 
quickly respond to security related crisis operations in large measure 
due to how naval forces are trained, organized, deployed, and employed. 
The Department of Navy (DON) sailors and marines provide support for 
humanitarian missions by performing functions which are already part of 
their daily Service mission.
    Two enduring missions that practice proactive HA/DR are PACIFIC 
PARTNERSHIP, conducted in East Asia and Oceania, and CONTINUING 
PROMISE, conducted in South America and the Caribbean. These missions, 
which are coordinated with each Country Team, build critical partner 
capacity and improve disaster response readiness for both our partners 
and our sailors through the development of habitual relationships with 
relevant partner ministries, departments, and officials. The deliberate 
day-to-day coordination of the Naval Service with international 
partners, joint, interagency, international, and NGO efforts 
strengthens relationships and sets the conditions for effective 
collaboration and rapid response when an in-extremis response is 
required.
    Recently, the RONALD REAGAN Strike Group's quick response to the 
earthquake and tsunami in Japan highlighted the Navy's unique ability 
to provide expeditious humanitarian relief around the globe.
    Question. Are there additional resources that would make you more 
efficient or effective in providing this type of assistance?
    Answer. Additional resources are not required to make the Navy more 
efficient or effective in providing Humanitarian Assistance (HA) and 
Disaster Relief (DR) to emergent events such as Haiti, Pakistan, and 
Japan. These operations are the core capabilities of the Navy's 
maritime Strategy.
    HA/DR is funded by Overseas Humanitarian, Disaster and Civic Aid 
(OHDACA) funds approved by Office of Secretary of Defense (OSD). OSD 
authorizes designated Combatant Commanders (COCOM) to render 
assistance, including transportation of personnel and supplies, 
assessments of affected areas and purchase of relief supplies in 
coordination with U.S. Agency for International Development (USAID)--
lead agency for Disaster response.
    With no timetables for disasters, DR cannot be budgeted and OHDACA 
reimburses Navy for use of OMN funds to support HA/DR operations.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

                        SHIP TO SHORE CONNECTOR

    Question. Secretary Mabus, the Navy is in the middle of the process 
of choosing a contractor for a new Ship to Shore Connector (SSC) to 
replace the LCAC's that currently move equipment between ships and the 
shore. As the Navy prepares to evaluate the two proposals that are 
expected at the end of this month, can you explain how the Navy will 
take into account Total Ownership Costs as it makes its decision?
    Answer. The exact number of proposals which will be received for 
the Ship to Shore Connector (SSC) is unknown. An Offeror's proposal 
will be evaluated in accordance with the criteria set forth in the 
final Request for Proposals (RFP). Currently, in the draft RFP, Total 
Ownership Cost (TOC) is included in the technical evaluation of the 
Offerors' Detail Design and Engineering Approach, as well as Build 
Approach.
    The evaluation process will consider, among other things, an 
Offeror's top three TOC reduction initiatives inherent in their 
proposed approaches to developing the SSC Detail Design and producing 
the resultant craft. This will be part of the overall best value 
determination.
    Question. Is there a defined process for considering Total 
Ownership Costs (TOC)? If so, how does that work?
    Answer. Yes, for this solicitation there is a defined process for 
considering Total Ownership Costs outlined in the draft Ship to Shore 
Connector (SSC) Request for Proposal (RFP) released on March 1, 2011 
via a FedBizOps announcement.
    According to the draft RFP, evaluation factors include non-price 
(technical evaluation) factors and a price factor. These factors will 
be used to evaluate the extent to which proposals address, and meet or 
exceed, the requirements of the SSC solicitation. These evaluation 
factors are as follows:
  --Technical Evaluation: Factor 1--Detail Design and Engineering 
        Approach; Factor 2--Build Approach; Factor 3--Management 
        Approach; and Factor 4--Past Performance.
  --Price Evaluation: Factor 5--Price.
    Total Ownership Cost is included in the technical evaluation of 
Factor (1), Detail Design and Engineering Approach, and Factor (2), 
Build Approach. For Factors (1) and (2), the evaluation process will 
consider, among other things, an Offeror's top three Total Ownership 
Cost (TOC) reduction initiatives inherent in their proposed approaches 
to developing the SSC Detail Design and producing the resultant craft. 
The corresponding technical factors will then be assigned an adjectival 
rating, which will be part of the overall best value determination.
    Question. What are some examples of TOC initiatives in acquisition 
programs?
    Answer. Total Ownership Costs (TOC) reduction initiatives include 
the following areas: Training, Maintenance, Energy Usage, Supply 
Support, Configuration Management, Operations, Environmental Impact, 
and Craft Disposal.
    Some examples of TOC reduction initiatives in surface shipbuilding 
programs include:
  --The T-AKE contract was awarded on the basis of TOC, not primarily 
        acquisition costs. In addition, a formal TOC reduction program 
        was instituted which incorporated design features projected to 
        save over $700 million over the life of the class. The ship is 
        outfitted with an integrated electric drive that allows for 
        optimum fuel economy over the full range of operation.
  --The Mobile Landing Platform design leverages an existing production 
        design (General Dynamics NASSCO's BP Tanker). As a result, 
        program risk was greatly reduced and coupled with requirements 
        tradeoffs, the Navy saved over $2 billion.
  --Provided Auxiliary Propulsion System in LHD 8 and LHA 6.
  --Reduced permanent manning levels in LPD 17 class, DDG 1000 and 
        Littoral Combat Ship programs.
  --Combined Government Furnished Equipment (GFE) buy across the ship 
        classes for the Commercial Broadband Satellite Program (CBSP). 
        The DDG 113 Advance Procurement, T-AKE and JHSV planned buys 
        were adjusted to take advantage of the stepped pricing 
        structure of the CBSP equipment contract, which resulted in 
        approximately $1.4 million in savings per system.
  --Issued Stern Flap Modification for DDG 79-112, resulting in a total 
        savings through the 35-year life span.
  --Deleted the port anchor and forward kingpost on DDG 113 and follow-
        on ships.
  --Combined GFE buys for machinery control system between DDG 
        Modernization and DDG 113 and follow-on ships.
  --Maximize competition for subcomponent procurements for DDG 113 and 
        follow-on ships (e.g., Main Reduction Gears).
  --Use refurbished equipment on DDG 113 and follow-on ships (e.g., 
        High Frequency Radio Group).
    Question. How does the evaluation process ensure that a competitor 
is not penalized for increased acquisition cost that may be necessary 
for a TOC initiative that will dramatically reduce operating or 
maintenance costs?
    Answer. For Ship to Shore Connector (SSC), an Offeror's proposal 
will be evaluated based on four non-price (technical) factors and a 
price factor. Total Ownership Cost is included in the technical 
evaluation of Factor (1), Detail Design and Engineering Approach, and 
Factor (2), Build Approach.
    For Factors (1) and (2), the evaluation process will consider, 
among other things, an Offeror's top three Total Ownership Cost 
reduction initiatives inherent in their proposed approaches to 
developing the SSC Detail Design and producing the resultant craft. The 
corresponding technical factors will then be assigned an adjectival 
rating, which will be part of the overall best value determination. A 
best value determination is based on an assessment as to which proposal 
demonstrates the greatest technical merit at a reasonable cost.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                              P-8A BASING

    Question. In the President's budget for fiscal year 2012, no money 
was included for military construction projects at Naval Air Station 
Whidbey Island to begin preparing the facility for P-8A aircraft 
basing. When does construction on the necessary MILCON projects need to 
begin in order to have NAS Whidbey prepared to receive aircraft by 
2017?
    Answer. Naval Air Station (NAS) Whidbey Island is currently planned 
to transition to P-8 outside the FYDP, in 2017 or later. Preliminary 
design and subsequent construction would require approximately 3 years 
to complete prior to P-8 arrival. As the P-8 program matures and 
delivery schedules, operational employment, and transition plans are 
implemented, the specific timeline will be determined.
    Question. What construction projects are required to upgrade the 
base and how much do they cost? Has the Navy given any consideration to 
less expensive alternatives for military construction at Whidbey?
    Answer. Naval Air Station (NAS) Whidbey Island is currently planned 
to transition to P-8 outside the Future Years Defense Plan, in 2017 or 
later. To support P-8 operations, approximately $330 million would be 
required for a 3-bay P-8 hangar, a Fleet Training Center, and P-8 
related base infrastructure modifications. The Navy will continue to 
give consideration to less expensive alternatives such as reuse and or 
consolidation of existing facilities at NAS Whidbey Island as the 
transition to P-8 progresses.
    Question. When will the Navy make a final decision regarding 
whether or not to follow the ROD?
    Answer. The 2008 Record of Decision (ROD) is the Navy's current 
guidance for long term basing of the P-8 force. The ROD identified five 
operational squadrons and one Fleet Replacement Squadron at Naval Air 
Station (NAS) Jacksonville, Florida; three squadrons in Marine Corps 
Base Hawaii (MCBH) Kaneohe Bay; and four squadrons in NAS Whidbey 
Island, Washington. Within the current Future Years Defense Plan 
(FYDP), P-8 will be introduced in NAS Jacksonville and MCBH Kaneohe 
Bay. NAS Whidbey Island is currently planned to transition to P-8 
outside the FYDP, in 2017 or later. Unless otherwise amended by a new 
ROD, NAS Whidbey Island will continue to support Airborne Electronic 
Attack, Fleet Reconnaissance, and Maritime Patrol squadrons.
    Question. What justification (both budget and strategic) would 
support an alternate basing plan for stationing P-8A aircraft only at 
Jacksonville and Kaneohe Bay? And, are those facilities able to sustain 
the additional four squadrons that would have been based at Whidbey?
    Answer. The 2008 Record of Decision (ROD) is the Navy's current 
guidance for long term basing of the P-8 force. NAS Whidbey Island is 
currently planned to transition to P-8 outside the FYDP, in 2017 or 
later. Unless otherwise amended by a new ROD, NAS Whidbey Island will 
continue to support Airborne Electronic Attack, Fleet Reconnaissance, 
and Maritime Patrol squadrons. Any change to the ROD to station four 
operational squadrons in NAS Whidbey Island would require strategic, 
fiscal, environmental, and facilities assessments to address impacts 
across the force.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                    AEGIS BALLISTIC MISSILE DEFENSE

    Question. Secretary Mabus, the Navy has assumed the lead for the 
first phase of the European missile defense plan. This first phase 
began last Monday with the USS Monterey beginning a 6 month deployment 
to the Mediterranean. With the immediate need to support the European 
missile defense plan along with the current demand from Combatant 
Commanders in other parts of the world for ships, are there enough 
ships available to support the ballistic missile defense mission? Can 
the current ship maintenance schedule support deployment of phase one 
and phase two of the European missile defense plan?
    Answer. The Navy currently has sufficient capacity to meet the most 
critical demands for multi-mission surface combatants; however, Navy 
does not have the capacity to meet all Geographic Combatant Commander 
(GCC) demands for Ballistic Missile Defense (BMD)-capable ships without 
breaking established Personnel Tempo program limits for deployment 
lengths, dwell and homeport tempo.
    In the near-term, surface combatants with Aegis BMD capability are 
allocated to GCCs through the Department of Defense Global Force 
Management (GFM) process taking into consideration GCC surface 
combatant requirements all mission areas. The Navy employs the Fleet 
Response Plan (FRP) as the framework to structure, prepare and posture 
ready Navy forces to meet GFM requirements, to include BMD. The FRP 
balances the requirements to maintain and upgrade equipment, train for 
the full spectrum of operations and deploy in support of GCC 
requirements.
    The required ship maintenance and Aegis Modernization plan supports 
the expected requirements of Phase 1 and Phase 2 of the European 
missile defense plan. To meet the increasing demand for these ships and 
reduce the risk to our long term force structure caused by the 
increased operational tempo from longer deployment lengths, the Navy, 
in conjunction with MDA, has established a plan to increase the number 
of BMD-capable Aegis ships from 23 in fiscal year 2011 to 41 in fiscal 
year 2016 (see Figure 1 below). This plan balances the need for meeting 
current operational requirements against the need to upgrade existing 
surface combatants with BMD capability to pace the future threat. 
Included in this plan are increases in both the Navy's capacity and 
capability of Aegis ships through the installation of Aegis BMD 3.6.1/
4.0.1 suite, the Aegis Modernization program (Aegis BMD 5.0 suite), and 
new construction (commencing with DDG-113). The current Continuing 
Resolution (CR) and the President's budget for fiscal year 2012 may 
impact this plan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 1.--Aegis BMD Ship Profile, Presidential budget for fiscal year 
                                 2012.

                                 ______
                                 
              Question Submitted by Senator Susan Collins

                  BRUNSWICK NAVAL AIR STATION CLOSURE

    Question. The Brunswick Naval Air Station is slated to close as an 
active military installation on May 31, bringing to a close a proud era 
in naval aviation in Brunswick, Maine. The Senate Armed Services 
Committee has provided the necessary conveyance authorities to transfer 
property under BRAC quickly. Recently, several of the initial 
conveyance packages to Southern Maine Community College have been 
delayed without explanation. Buildings 151 and 512 at NAS Brunswick, 
which are projected to serve as the new Maine Advanced Technology and 
Engineering Center (MATEC) and Southern Maine Community Residence Hall 
respectively, are essential resources for the start of the College's 
upcoming Fall Semester. The property was originally scheduled to be 
conveyed to the College in January through the Department of Education, 
but the properties still remain under the Navy's control. Given that 
these properties require up to 6 months of redevelopment and the start 
of the Fall semester is August 2011, the education of students relying 
upon the College's new campus is in jeopardy unless this conveyance 
occurs in the near future. Secretary Mabus, will you review the status 
of this conveyance and commit to a conveyance date in the near future?
    Answer. I share your desire to transfer the property to the 
Brunswick community as expeditiously as possible. On March 29, 2011, 
Navy assigned 10 acres of Brunswick Naval Air Station, including 
Buildings 151 and 512, to the Department of Education for conveyance.
    The Department of Education will conduct the conveyance of 
Brunswick Naval Air Station property to Southern Maine Community 
College through a public benefit conveyance.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

              U.S. NAVY ENVIRONMENTAL REMEDIATION ON ADAK

    Question. As you might be aware, environmental remediation at 
multiple sites on the island of Adak has been ongoing since 1986. The 
U.S. Navy, in conjunction with the EPA and the State of Alaska, have 
been working since that time to restore the lands on Adak to an 
environmentally stable state following the Navy occupation of those 
lands. While through fiscal year 2009, the Navy has spent $289.8 
million on restoration activities on Adak, it is my understanding that 
the Navy anticipates that another $102.5 million would be needed to 
complete the restoration projects. I have been recently informed that 
the majority of restoration efforts that the Navy has conducted have 
been focused on lands that are not available for habitation or economic 
development by the communities on Adak. Is there a process by which the 
Navy determines which lands receive remediation funding and projects 
before others?
    Answer. The Navy funds cleanup to protect human health and the 
environment and meet legal obligations, including agreements with 
States and the U.S. EPA, such as the Adak Federal Facility Agreement 
(FFA). For BRAC sites, cleanup schedules are also aligned with property 
redevelopment timelines to the best extent possible. If additional 
funds are made available by Congress, projects that accelerate property 
transfer are then considered.
    Question. Does the Navy have a long term plan in place that defines 
which lands will be remediated and in which order?
    Answer. The Navy has a plan which includes a schedule for 
investigation, cleanup and long-term monitoring of all Navy 
environmental sites on Adak. The Navy consults with the local 
Restoration Advisory Board (RAB) and regulatory agencies when 
developing and updating the plan.
    Question. What is the Navy's projected timeframe for the completion 
of the remediation projects on Adak?
    Answer. The Navy has a schedule to complete all cleanup actions by 
fiscal year 2016. The remedy selected for some environmental sites 
include long-term monitoring consisting of periodic inspection and 
repair of landfills, groundwater sampling and analysis, marine tissue 
sampling and analysis, and inspection and repair of institutional 
controls. Long-term monitoring requirements are documented in the Adak 
Comprehensive Monitoring Plan (CMP) and are scheduled to continue until 
fiscal year 2041.

              Questions Submitted to Admiral Gary Roughead
            Questions Submitted by Chairman Daniel K. Inouye

                       NAVY SHIFT IN SEA BILLETS

    Question. Admiral Roughead, the Navy recently announced its plans 
to shift approximately 6,800 billets through fiscal year 2016 to 
realign them for warfighting capabilities. A portion of this shift will 
increase the number of sea billets while cutting shore billets. What 
led the Navy to initiate this shift, and what effect will this have on 
the ship to shore rotation of sailors?
    Answer. The Navy shifted these billets from support staff to 
operational roles to improve warfighting readiness and support the 
Navy's future force and warfighting capabilities. The reduction in 
staff billets allowed us to increase operational, sea going billets for 
the LHA-7, DDG-51 class destroyers, LCS class ships, unmanned and 
helicopter aviation detachments to support the LCS, Virginia class 
submarines, new E-2D Advanced Hawkeye aircrews, and the outfitting of 
an additional Riverine Squadron.
    With Navy's increased focus on enhancing efficiencies in our 
operations, this will require some sailors to serve longer sea tours. 
The necessary realignments toward operations will likely require 
implementation of risk mitigation strategies to support sea intensive 
communities and ratings. Some of the initiatives being considered are 
Sea Duty Incentive Pay (SDIP), increased general shore duty billeting 
in recruiting commands, and increased in-rate shore duty billets at 
regional maintenance centers and waterfront school houses.
    Question. Are you concerned that this tighter ship to shore 
standard will have a negative effect on families and retention?
    Answer. While sea/shore rotation does factor in to retention 
decisions, we do not anticipate this realignment to cause retention 
statistics to fall outside of historic norms. Currently, the Navy is 
experiencing unprecedented retention, which is expected to continue, 
based on current economic indicators. Disregarding the current positive 
impact of the economy and the high operational tempo, 65 percent of 
sailors beyond 6 years of service remain in the Navy and 80 percent of 
sailors with greater than 10 years of service decide to Stay Navy based 
on historical averages. The Navy has established maximum allowable sea 
tour lengths to preserve positive tone-of-the-force and to minimize 
retention risk.
    The billet realignment was approved only after careful analysis of 
operational needs, fleet readiness requirements, and input from fleet 
sailors. The increase in manning at sea is anticipated to have positive 
effects that will reduce the workload of sailors currently on sea duty 
and increase the opportunity for sailors to obtain professional 
qualification through participation in Fleet operations.
    We remain steadfast in our commitment to provide exceptional 
support to mitigate the adverse impacts families may experience during 
deployments. We offer a broad array of services through Navy Fleet and 
Family Support Centers, military medical treatment facilities, child 
care centers, and morale, welfare and recreation programs. These, 
coupled with ready access to command ombudsmen and referral services 
through Military OneSource, provide a network of support to sustain 
families enduring the hardships associated with prolonged family 
separations while their loved ones are away.

                         AEGIS MISSILE DEFENSE

    Question. Admiral Roughead, Aegis cruisers and destroyers provide a 
crucial capability for conducting ballistic missile defense operations. 
The administration's Phased Adaptive Approach (PAA) for ballistic 
missile defense operations includes operating Aegis ships in European 
waters. Do you have sufficient resources to carry out this additional 
mission?
    Answer. The Navy currently has sufficient capacity to meet the most 
critical demands for its multi-mission Aegis ships; however, we do not 
have the capacity to meet all Geographic Combatant Commander (GCC) 
demands for Ballistic Missile Defense (BMD) without exceeding 
established Personnel Tempo program limits for deployment lengths, 
dwell tempo, or homeport tempo. Based on threat analysis and current 
indications from GCCs, and assuming standard 6 month deployment 
lengths, the Navy and the Missile Defense Agency (MDA) concluded that 
GCC demand for surface combatants with Aegis BMD capability will 
outpace capacity through approximately 2018.
    To meet the increasing demand for these ships and reduce the risk 
to our long term force structure caused by the increased operational 
tempo from longer deployment lengths, the Navy, working in conjunction 
with MDA, has established a plan (see Figure 1 below) to increase the 
number of BMD-capable Aegis ships from 23 in fiscal year 2011 to 41 in 
fiscal year 2016. This plan balances the need for meeting current 
operational requirements against the need to upgrade existing BMD-
capable Aegis ships to pace the future threat. Included in this plan 
are increases in the Navy's capacity and the capabilities of Aegis 
ships through the installation of an Aegis BMD 3.6.1/4.0.1 suite, the 
Aegis Modernization program, or new construction (commencing with DDG-
113).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 1.--Aegis BMD Ship Profile, Presidential budget for fiscal year 
                                 2012.

    Question. Admiral Roughead, are you concerned that the heightened 
demand for Aegis Ballistic Missile Defense will detract from other, 
non-BMD missions?
    Answer. With the exception of our SSBN's strategic deterrence 
patrols, the Navy does not deploy ships with a single mission purpose. 
Single mission use of our Aegis ships for Ballistic Missile Defense 
(BMD) will result in shortages in other mission areas and a loss of 
operational flexibility for the Geographic Combatant Commanders (GCCs).
    To ensure GCCs demands are met, the Navy employs Aegis ships in 
multi-mission roles rather than for exclusive missions on an enduring 
basis. These ships can perform a variety of other non-BMD missions such 
as strike warfare, air warfare, submarine warfare, surface warfare, 
information warfare, high-value asset protection, or maritime 
interdiction either concurrently or sequentially as the GCC requires. 
The Navy has created a flexible operating concept for maritime BMD 
which features a graduated readiness posture that allows BMD-capable 
Aegis ships to be on an operational tether and available for other 
tasking when not directly involved in active BMD operations. Aegis 
ships operating in support of a BMD mission do not lose the capability 
to conduct other missions; however, specific mission effectiveness may 
be affected by ships' position and/or application of ship resources to 
those missions.

               AEGIS BALLISTIC MISSILE DEFENSE OPERATIONS

    Question. Admiral Roughead, the USS Monterey recently deployed as 
the first asset in European missile defense. Could you provide the 
Committee with an update on those operations?
    Answer. While the Navy has previously deployed BMD-capable ships to 
the European region, USS Monterey is the first deployed BMD-capable 
multi-mission ship to support the European Phased Adaptive Approach 
(EPAA). This deployment will lay the foundation for the EPAA, by 
developing a better understanding of what is necessary to execute 
ballistic missile defense from the sea in Europe and how to operate in 
coordination with Allies and partners.
    USS Monterey will engage with our NATO Allies and European partners 
to promote the U.S. commitment to the EPAA mission and the broader 
U.S.-NATO theater security cooperation efforts. To date, this 
engagement included participation in the NATO Air Defense Committee 
conference in Antwerp, Belgium and future engagements are planned with 
our Allies and partners in the Black Sea and Eastern Mediterranean.
    During her deployment, USS Monterey will continue integration and 
testing of U.S. BMD capabilities with NATO's existing missile defense 
framework, including the emerging NATO command and control network.
    As a BMD-capable multi-mission ship, USS Monterey also remains 
ready to provide a wide range of capabilities enabling her to promote 
peace and security, preserve freedom of the seas and provide 
humanitarian aid and disaster response as necessary.

                      BOW WAVE IN SHIP PROCUREMENT

    Question. Admiral Roughead, the Navy's stated force structure goal 
is 313 ships. However, your most recent 30-year shipbuilding plan 
submitted to Congress shows that beginning in fiscal year 2027, the 
Navy fleet will fall well below that number and drop to less than 290 
ships. What steps are you taking to mitigate these projected 
shortfalls?
    Answer. With the need for multi-mission platforms vice single 
mission platforms, and recognizing the significantly increased 
capabilities of current new construction ships, the Navy cannot 
recapitalize our battle inventory to replace its legacy ships at the 
same rate at which they were originally procured in the 1980s and 1990s 
and maintain an affordable, balanced procurement plan. To manage this 
inventory issue with our current fiscal constraints, the Navy will 
manage the service lives of our existing ships through modernization 
and maintenance over the Future Years Defense Plan and into the 2020s 
to mitigate the impact of the upcoming block obsolescence of the ships 
procured in large quantities during the 1980s. This management approach 
will minimize gaps in capacity through the 2020s in a cost efficient 
manner. To enhance our combat capability for our existing ship designs 
we will continue our spiral capability upgrades to prevent 
technological obsolescence and to extend the service lives of specific 
ship classes. Both of these initiatives will mitigate the decline in 
our battle force inventory during the 2020s and early 2030s.
    During the period fiscal year 2031 to fiscal year 2040, we have 
assumed a procurement strategy based on sustaining procurement rates. 
Wherever feasible, the Navy will procure new ships at a steady state 
reducing the magnitude of annual funding variations and providing a 
more stable demand to industry. In some cases, where rapid retirement 
rates are anticipated, it may be necessary to start procurement of next 
generation ships earlier than might otherwise be required or accept 
``bathtubs'' in certain ship classes until procurement rates catch up 
with retirement of ships procured during the 1980s. As requirements, 
resources and the industrial landscape come into better focus for the 
post-2020 timeframe, the Navy will continue to consider mitigation 
strategies for these anticipated shortfalls in future plans.
    Question. Admiral Roughead, the Congressional Budget Office 
estimates that the Navy's ship procurement budget is 19 percent below 
what is required to execute your current 30-year shipbuilding plan. Do 
you agree with this assessment?
    Answer. No, I do not agree with this assessment. Navy's anticipated 
annual procurement budget averages about $15.9 billion in fiscal year 
2010 per year over the 30 year shipbuilding plan period. This average 
includes those funds necessary to recapitalize the OHIO Class ballistic 
missile submarines. The Navy and Congressional Budget Office (CBO) 
estimates for the near-term (fiscal year 2011-fiscal year 2020) reflect 
a less than 5 percent difference. Given known ship capability and 
quantity requirements, the Navy cost estimates are judged to be 
accurate in this period.
    What has driven the 19 percent difference in our estimates has been 
the far term (fiscal year 2031 to fiscal year 2040) where CBO and Navy 
estimates differ by 37 percent. The requirements during this period are 
not as well defined as those for the near or mid-term. The CBO made 
several different assumptions than the Navy in its assessment, 
particularly in the far-term. Those differences result partly from 
different methods of estimating shipbuilding inflation during the 
period as well as different assumptions about the design and 
capabilities of future ships. The number, types and capabilities of 
ships are estimated based on anticipated Joint and Navy war-fighting 
requirements, and cost estimates are fluid due to both the uncertainty 
of business conditions affecting the shipbuilding industry and the 
inherent technology costs of future combat systems.
    There are several uncertainties that must be resolved regarding the 
Navy's missions in the next decade; the relative threat levels that 
will exist at that time and the extent to which we will adjust the 
force to meet these challenges. Each of these issues will have a direct 
bearing on the overall costs required to recapitalize this force. 
Ultimately, this will require that we set funding priorities properly, 
adjust capabilities in the ships being built and readdress risk in 
those mission areas where appropriate. We must and will continue to 
conduct thorough reviews of each facet of our budget to ensure we are 
providing the Nation with the needed level of capability in all areas 
in the most cost efficient manner.
    Question. Admiral Roughead, do you intend to provide an updated 
long-range shipbuilding plan to Congress this year?
    Answer. No, we do not intend to submit an updated long range 
shipbuilding plan to Congress. Section 231 of Title 10, United States 
Code (section 231) was amended by the National Defense Authorization 
Act for fiscal year 2011, deleting the requirement for the Secretary of 
Defense (SECDEF) to submit with the Defense Budget an annual long-range 
plan for construction of naval vessels commonly know as ``The 30-Year 
Shipbuilding Plan''. As amended, section 231 now requires that 
concurrent with submission of the President's budget (PRESBUD) during 
each year in which SECDEF submits a Quadrennial Defense Review (QDR), 
the Secretary of the Navy (SECNAV) shall submit a long-range 
shipbuilding plan that supports the force structure recommendations of 
the QDR and will be assessed by Cost Assessment and Program Evaluation 
Office (CAPE) to determine if the level of funding is adequate and 
determine potential risk in supporting the requirements of the 
Combatant Commanders.
    In any year in which a QDR is not submitted and the number of ships 
decreases in the Future Years Defense Plan (FYDP), SECNAV shall submit 
an addendum to the most recent QDR that fully explains and justifies 
the decrease.
    Consistent with the amended section 231, the Navy does not intend 
to submit an updated long-range shipbuilding plan to Congress this year 
because the number of ships has increased with the PRESBUD 2012 Future 
Years Defense Plan (FYDP); however, we are providing updated 10-year 
data tables per the House Committee of Armed Services request of 
February 15, 2011.

         EFFECTS OF CONTINUING RESOLUTION ON MILITARY PERSONNEL

    Question. Admiral Roughead and General Amos, how has the series of 
short-term continuing resolutions negatively affected the Navy and 
Marine Corps's ability to manage its military personnel accounts? For 
example, how much notice is being given for sailors and marines to 
prepare to move to their next assignment, and what is the goal?
    Answer. Operating the military personnel accounts under a series of 
short-term continuing resolutions (CR) and reduced funding has 
presented many execution challenges. Under the full year CR, the 
Military Personnel, Navy (MPN) appropriation is underfunded by $415 
million. This shortfall is due to the difference between the annualized 
amount of the fiscal year 2010 appropriation and the requested fiscal 
year 2011 President's budget. Additionally, the MPN account is 
underfunded by an additional $41 million from additional requirements 
and work in the year of execution resulting from high retention. The 
added costs associated from the evacuations of Japan and Bahrain, as 
well as Operation Odyssey Dawn, will further pressurize the MPN 
account.
    To preserve cash to pay our sailors and civilians and to avoid an 
Anti-Deficiency Act (ADA) violation, the Navy deferred 20,000 Permanent 
Change of Station (PCS) moves and reduced lead times from 6 months down 
to 2 months. Lack of lead time on PCS orders hurts military families as 
they have less time to plan for major life changes associated with 
moves (i.e. home sales, lease expirations, overseas screening, 
uncertainty, etc). Historical goals for lead time are approximately 4 
months for CONUS moves and 6 months for overseas moves.
    Navy has also reduced Active Duty for Operational Support Orders 
(ADOS) by $20 million. ADOS is used to facilitate emergent, unplanned 
and non-recurring short term projects. This reduction restricts our 
ability to support Fleet operations.

                 NAVY CYBERSECURITY AND THE TENTH FLEET

    Question. Admiral Roughead, as you know, cyber security is one of 
the most significant challenges facing our Nation today. Modern warfare 
has become highly dependent upon computers and networks; therefore 
protecting this capability is vitally important. Could you explain the 
cyber security initiatives in the budget, and what are the near-term 
priorities you have established for this critical mission area?
    Answer. The Navy's focus in cyber security is on delivering game-
changing information capabilities that advance our operational 
proficiency in cyberspace and enhance our other information 
capabilities. Navy is improving its cyber-security by implementing an 
improved Defense in Depth infrastructure that is aligned to the 
Department of Defense (DOD) Information Assurance Boundary 
Architecture. In our PB 2012 budget request, we include the following 
cyber security initiatives:
  --Computer Network Defense (CND).--This program's capabilities secure 
        Navy networks and information systems. This program oversees 
        our firewall components, Virtual Private Networks (VPNs), 
        Intrusion Prevention/Detection Systems, Boundary Protection, 
        Host Based Security System (HBSS), Administrator Access 
        Controls, and diverse network security tools and filtering 
        routers.
  --Cyber Security Inspection and Certification Program (CSICP).--CSICP 
        provides the capability to detect vulnerabilities in Navy 
        networks, provide assistance to network operators to correct 
        and prevent vulnerabilities, and ensure compliance with Navy 
        and DOD Information Assurance directives.
  --Communications Security (COMSEC).--The Navy's cryptographic 
        equipment procurements are facilitated through these accounting 
        lines and include procurement of KIV-7M, a replacement 
        cryptography suite, Cryptographic Universal Enclosures (CUE), 
        and various other cryptographic devices.
  --DOD-wide deployment of PKI certificates for identity 
        authentication.
  --Procurement of secure voice tactical hardware, Next Generation 
        Internet Protocol Phones and Navy, and Certificate Validation 
        Infrastructure Cards.
  --Electronic Key Management System (EKMS) upgrades and initiatives 
        for web based order support.
  --Secure Communication Interoperability Protocol (SCIP) Inter-Working 
        Function (IWF) capabilities to provide sea-shore secure 
        telephony communications.
    Question. Admiral, what advantages do you anticipate as a result of 
classifying your Cyber Command as a weapons system?
    Answer. Last year, I established the U.S. Tenth Fleet and the 
Deputy CNO for Information Dominance. This restructuring has enabled 
the Navy to focus on enhancing our capabilities in electronic warfare 
and cyber operations. However, Fleet Cyber Command/U.S. Tenth Fleet is 
not considered a weapons system. It is a Navy component command that 
executes its unique cyber capability at the operational level of war 
through the forces under the command of Tenth Fleet. This approach has 
provided an alignment of effort through the use of a single operational 
commander for Cyber operations that is responsible for the 
orchestration of the Navy's global resources and activities in 
cyberspace.
    Question. Admiral, recently you turned on a new system that gives 
the Navy its first real-time view of all traffic into and out of the 
networks. What have you learned about the health of your network since 
initiating the use of this system?
    Answer. We are learning a tremendous amount about the trends and 
patterns of information flow. The insights from our trend analysis and 
the new data on information flow has allowed us to characterize network 
activity faster and allows us to recognize areas that require further 
analysis earlier.

              NEXT-GENERATION BALLISTIC MISSILE SUBMARINE

    Question. The Navy has initiated a program to replace the Ohio-
class submarines beginning in 2029, but concerns have persisted about 
the price tag of the replacement. These submarines are an indispensible 
part of our nuclear triad, and it is important that we have them ready 
on schedule at an affordable cost. Admiral Roughead, could you comment 
on the steps that are being taken to make sure that this program does 
not suffer the all-too-common problems of being over budget and past 
schedule?
    Answer. Through thorough research by the Navy and OSD on the 
history of the last 50 years of survivable sea-based strategic 
deterrence, we have been able to determine the high-level baseline ship 
characteristics to establish affordability goals to be used during ship 
design for the OHIO Replacement (OR). This early and well understood 
basis for all requirements is necessary to prevent cost growth and 
control costs.
    The Department is committed to provide the required and proper 
level of investment in up-front research and development to mature 
critical technologies and prove construction techniques to support lead 
ship construction. The use of appropriately mature technologies will be 
a major driver in controlling construction costs while recapitalizing 
the SSBN fleet. Likewise, achieving a sufficient level of maturity in 
the overall design will be critical to cost effective construction. 
Where practical, OR will use existing VIRGINIA Class technologies and 
components.
    The OHIO Replacement Program will leverage design and construction 
lessons learned from the VIRGINIA Class to continue our ongoing and 
highly successful cost reduction initiatives. In addition, Navy will 
leverage the same design contract strategies from VIRGINIA to ensure OR 
is designed and procured at the lowest possible cost. The Navy is 
investing an additional $50 million/year in fiscal year 2012-fiscal 
year 2014 to enhance designing the OR for affordability. The Design for 
Affordability (DFA) effort will be a joint Government and Shipbuilder 
effort focused on reducing Total Ownership Costs. The DFA process will 
specifically target reductions in lead ship Non-Recurring Engineering 
(NRE) cost, reducing construction time and cost, balancing acquisition 
and lifetime operations and support (O&S) costs, and the process will 
provide shipbuilder research & development incentives based on 
validated proposals for cost estimate reductions, DFA design schedule, 
and additional cost reduction initiatives.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                       CHINESE MILITARY ADVANCES

    Question. Admiral Roughead, we have recently seen a great deal of 
discussion about China's development of a new anti-ship missile, the 
DF-21D or ``carrier killer'' which is intended to hit a well-defended 
target, such as one of our carriers, with pinpoint accuracy. The 
concern is that such a missile will put our carriers at risk and hamper 
the Navy's ability to intervene in a conflict over Taiwan or North 
Korea. Vice Admiral Scott van Buskirk, commander of the U.S. 7th Fleet, 
downplayed concerns about the missile noting that it was just ``one 
weapons system, one technology that it out there.'' What is your 
assessment of the threat this weapon poses to our carrier fleet?
    Answer. The DF-21D Anti-Ship Ballistic Missile (ASBM) is but one 
system in China's arsenal that challenges naval operations in contested 
areas. To successfully employ an ASBM, or any long-range maritime 
weapon, China needs a robust command, control, communications, 
computers, intelligence, surveillance and reconnaissance (C\4\ISR) 
capability to find and relay targeting information to decision makers 
and firing units. While China operates a wide range of ISR assets, the 
aggregation of near-real-time information that is required for the PRC 
to move quickly from initial detection to engagement is a highly 
complex problem, especially against one of our aircraft carriers that 
would be maneuvering at sea. Additionally, the Navy has made 
significant investment in kinetic and non-kinetic capabilities to 
counter anti-ship ballistic missiles and advanced cruise missiles, 
including increased investment in Aegis modernization, which will 
upgrade our existing Aegis technology to continually improve our 
Integrated Air and Missile Defense capability. More details in response 
to this question are best provided in a classified setting.
    Question. What is the U.S. response?
    Answer. The Navy has made significant investment in kinetic and 
non-kinetic capabilities to counter the threat of anti-ship ballistic 
missiles and advanced cruise missiles, including increased investment 
in Aegis modernization, which will upgrade our existing Aegis 
technology to continually improve our Integrated Air and Missile 
Defense capability. A more detailed response to this question is best 
provided in a classified setting.
    Question. What other challenges to the U.S. Navy's presence in the 
Pacific do you see arising from China and how should we respond?
    Answer. There are an increasing number of foreign capabilities, 
including those of China, that have the potential to slow or disrupt 
the deployment of friendly forces into a theater or cause our forces to 
operate from distances farther from a conflict than desired. 
Capabilities that impact our forces in this manner are termed ``anti-
access'' capabilities and include long-range, precise, anti-ship and 
land attack ballistic and cruise missile systems; advanced combat 
aircraft and electronic warfare technologies; advanced Integrated Air 
Defense systems; submarines and subsurface warfare capabilities; 
surface warfare capabilities; C\4\ISR capabilities, and cyber warfare 
technologies. The Navy has and will continue to develop programs and 
capabilities to address the anti-access environment emerging in the 
Western Pacific and other theaters of operation. Accordingly, we are 
mindful of the need to be prepared to respond to all challenges by 
strengthening our alliances and partnerships, modernizing our forces, 
fielding new capabilities and technologies, and developing new 
operational concepts.

                   NAVAL TACTICAL AIRCRAFT SHORTFALL

    Question. In June 2009, the Navy testified to Congress that its 
aircraft fleet was facing a potential shortfall of 243 tactical 
aircraft in the next decade. We understand that the less than 2 years 
later, the Navy is now stating a shortfall of only 65 aircraft. I am 
interested in how the Navy determined this new shortfall estimate. Has 
the Navy assumed additional risk in order to reduce the shortfall? If 
so, what are those risks?
    Answer. Based on the 2012 President's budget, the Department of the 
Navy projects it will experience a peak inventory shortfall of 65 
aircraft in 2018, should the following conditions exist: accelerated 
transition of 10 F/A-18 legacy Hornet squadrons into Super Hornets; the 
service life extension of approximately 150 legacy Hornets; and 
procurement of a total of 556 F/A-18E/F Super Hornets. This aircraft 
shortfall is manageable.
    Question. What are the practical consequences of the strike fighter 
shortfall?
    Answer. Based on the 2012 President's budget, the Department of the 
Navy projects it will experience a peak inventory shortfall of 65 
aircraft in 2018, should the following conditions exist: accelerated 
transition of 10 F/A-18 legacy Hornet squadrons into Super Hornets; the 
service life extension of approximately 150 legacy Hornets; and 
procurement of a total of 556 F/A-18E/F Super Hornets. This aircraft 
shortfall is manageable.
    Question. What is the Navy doing to mitigate this shortfall?
    Answer. Based on the 2012 President's budget, the Department of the 
Navy projects it will experience a peak inventory shortfall of 65 
aircraft in 2018, should the following conditions exist: accelerated 
transition of 10 F/A-18 legacy Hornet squadrons into Super Hornets; the 
service life extension of approximately 150 legacy Hornets; and 
procurement of a total of 556 F/A-18E/F Super Hornets. This aircraft 
shortfall is manageable.

                              SHIPBUILDING

    Question. Admiral Roughead, your budget request includes funding 
for 10 ships in fiscal year 2012 with a total of 50 ships over the 
Future Year Defense Plan. Will this production rate support your stated 
goal of a 313 ship Navy?
    Answer. Yes. The Navy plans to procure a total of 55 ships in the 
PB 2012 Future Years Defense Program (FYDP), an increase of 5 from last 
year's plan. This production rate will reach a battle force inventory 
of 313 ships in the near-term (fiscal year 2011-fiscal year 2020) 
reaching 315 ships in fiscal year 2020. President's budget (PB) 2012 
achieves a balanced and executable shipbuilding program which provides 
additional capability while gaining stability and efficiency in the 
shipbuilding industrial base.
    Question. How will the current set-backs related to the constraints 
of the Continuing Resolution affect the fiscal year 2012 procurement 
rates?
    Answer. Without the fiscal year 2011 requested SCN budget, the 
future build plan for shipbuilding, including fiscal year 2012, would 
have to be reprioritized and rephased. There could be future cost 
impacts attributed to revised workload at major shipbuilders, rate 
increases associated with protracted schedules, and inefficient 
procurement of major systems. There are secondary impacts to the Navy 
as delays in delivery could result in delays to initial operating 
capabilities or the ability to retire fleet assets as planned. Under 
the CR, the inability to increase procurement quantities, initiate new 
starts, increase funding levels, or reallocate funding constitutes a 
considerable impact to the FYDP for shipbuilding.
    Currently, the Navy plans to procure a total of 55 ships in the 
fiscal year 2012 President's budget FYDP with 10 ships budgeted in 
fiscal year 2012. The CR's limitation in the shipbuilding program to 
the fiscal year 2010 funding levels and procurement quantities 
negatively impacts Navy's fiscal year 2011 build program. Specifically, 
the CR prohibits the procurement of a second Virginia Class Submarine, 
a second DDG-51 Class Destroyer, a LHA replacement amphibious ship, an 
oceanographic ship, a Mobile Landing Platform, and several smaller 
programs. Available funding under the CR does not provide required 
advanced procurement funding for future platforms to include the 
Carrier Replacement and Carrier Refueling Overhaul Programs, nor does 
it provide the final increment of funding required for the CVN 78.
    Question. How will the Navy mitigate those effects?
    Answer. In developing our shipbuilding plan, we assessed risk 
mindful of the uncertainties of the future to achieve the best balance 
of missions, resources and requirements possible for our PB 2012 Navy 
procurement request.
    PB 2012 achieves a balanced and executable shipbuilding program 
which provides additional capability while gaining efficiency in the 
shipbuilding industrial base. The Navy has requested to procure a total 
of 55 ships in the PB 2012 FYDP, 5 more than last year due to our 
efficiencies and acquisition strategies. This request includes ten 
ships in fiscal year 2012. These ships include: a continuation of the 
fiscal year 2010 restart of the DDG 51 program, with an additional ship 
in fiscal year 2014; an additional Littoral Combat Ship (LCS) in fiscal 
year 2012 to support an acquisition strategy of two 10 ship block 
procurements from each contractor, continuation of the SSN 774 program 
at two ships per year through fiscal year 2016; acceleration of the new 
Mobile Landing Platform (MLP) program aimed at increasing the capacity 
and capability of the existing Maritime Prepositioning Ship (MPS) 
fleet; continuation of the CVN 78 program; procurement of the eleventh 
LPD 17 ship, meeting the Marine Corps lift requirements for this class 
of ship; and a substantive increase in the Navy's ability to meet 
theater cooperation demands and intra-theater lift requirements through 
capitalization of a more robust Joint High Speed Vessel (JHSV) program. 
Overall, the fleet additions represented by the additions to the PB 
2012 FYDP will position the Navy to meet its obligations and mission 
requirements through the next decade.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                           GREAT GREEN FLEET

    Question. Has the composition and homeport of the Great Green Fleet 
been decided?
    Answer. No final decision regarding the composition of the Great 
Green Fleet has been made. The individual Navy units that would deploy 
in 2016 have not been identified, but the Great Green Fleet will be 
composed of ships from various home ports. As such, it will not have a 
single home port.
    Question. Will the fiscal year 2011 Continuing Resolution impact 
the timeline for the 2012 Green Strike Group? If so, what specifically 
will be impacted?
    Answer. The continuing resolution (CR) necessitated the 
reprogramming of $5.5 million above the $4.5 million received in fiscal 
year 2010. This reprogrammed funding for fiscal year 2011 was not 
received until April 2011, causing schedule delays to the program. 
Currently Navy has received $10 million of $10.8 million programmed for 
the testing and certification needed to support the Great Green Fleet. 
Efforts are ongoing to identify avenues to mitigate delays. Navy plans 
to be back on track within the next 3 months to complete the fuel 
certification required for ship and aircraft systems to conduct the 
demonstration of the Green Strike Group in 2012.
    Question. Where is the Navy getting the fuel currently being used 
for testing? When does the Navy think the fuel will be ready for 
certification?
    Answer. The Navy receives all of its fuels through the Defense 
Logistics Agency--Energy through competitive procurement. The test and 
certification process of the fuels necessary for the Great Green Fleet 
is currently underway. Current funding puts the Navy on track to 
complete the fuel certification required for ship and aircraft systems 
to conduct the demonstration of the Green Strike Group in 2012.
    Question. After the 2012 test, is the Navy planning to transition 
more bio-fuels capability to the fleet or will that occur after the 
2016 demonstration?
    Answer. The Navy plans to use certified, cost-competitive 
alternative fuels as they become available. If certified bio-fuels are 
commercially available at a competitive price earlier then the 
objectives set by the Secretary of the Navy, the Navy will pursue their 
competitive procurement.
    Question. What is the cost to modify ship and aircraft engines to 
use bio-fuels instead of conventional? What are the potential long term 
savings for using a renewable energy source for fuel?
    Answer. There is no need to modify ship and aircraft engines to use 
bio-fuels instead of conventional fuel. Navy requires alternative fuel 
suppliers to engineer the fuel so that it closely mirrors the current 
fossil fuels of F-76 and JP-5; the fuels are a 'drop-in' replacement 
for 100 percent petroleum and can be mixed freely with it. There is a 
potential for long-term cost savings by using renewable biofuels if the 
cost of petroleum keeps rising and eventually exceeds the declining 
cost to produce biofuels.
    Question. Does the Navy have any plans to add hybrid tugs to the 
Fleet? If so, what is the timeframe by which they intend to acquire 
them?
    Answer. The Navy does not currently have any plans to add hybrid 
tugs to the Fleet.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                       HIGH PERFORMANCE COMPUTING

    Question. Admiral Roughead, The Naval Meteorology and Oceanography 
Command and its associated supercomputing capability have proven to be 
valuable assets in a host of mission areas including ocean modeling, 
weather modeling, and disaster relief, such as, the Gulf oil spill last 
year. Can you describe for the Committee the importance of 
Supercomputing capacity and how it has assisted the Navy in 
accomplishing its mission?
    Answer. The Department of the Navy utilizes High Performance 
Computing (HPC) resources to accelerate development and transition of 
advanced defense technologies into superior war-fighting capabilities, 
and to support our operational needs. Specifically, the Navy Research, 
Development, Test, and Evaluation (RDT&E) community utilizes HPC assets 
for modeling and simulation. HPC allows the Navy to develop physics-
based simulations, which create realistic warfare environments that 
allow us to evaluate the performance of new technologies and tactics in 
real-time. The simulated environments enabled by HPC are essential, 
especially in cases where no test range exists to emulate combat 
environments, where physical testing has unacceptable safety risks, 
where physical testing is prohibitively expensive, and where we have to 
rapidly test new systems to counter emerging threats in ongoing 
conflicts. HPC allows us to conduct classified and unclassified early 
advanced research, and it reduces the cost, acquisition time, and risk 
for our major defense programs by optimizing the mix of simulation with 
physical testing. The use of HPC enables Navy's RDT&E infrastructure to 
deliver necessary capabilities to our sailors faster and cheaper.
    The Navy also relies on HPC to support our operations. The Naval 
Oceanographic Office (NAVOCEANO) relies on HPC resources for 
operational oceanographic applications, including numerical ocean 
prediction, and our Fleet Numerical Meteorology and Oceanography Center 
(FNMOC) greatly benefits from HPC resources that support R&D and 
production of operational products designed to keep Navy assets safe 
from weather threats.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

                     PHALANX CLOSE-IN WEAPON SYSTEM

    Question The Phalanx Close-In Weapons System is an important aspect 
of our naval defense, protecting our sailors and marines against 
threats ranging from anti-ship missiles to small boats and unmanned 
aerial vehicles. I am informed that the Navy has recognized the 
importance of this system by investing $1.42 billion to upgrade 252 
Phalanx mounts to the appropriate configuration. In your letter to me 
dated December 3, 2010, you stated that to maintain these systems the 
Navy needed to begin funding 36 overhauls per year, starting with the 
fiscal year 2012 budget. I see that the fiscal year 2012 budget request 
includes funding for only three Phalanx overhauls in a year, which 
would take the Navy 80 years to complete. Given the clear safety and 
security implications for our sailors and marines, what is the Navy's 
plan to meet this shortfall in fiscal year 2012?
    Answer. Navy continues to procure and install Phalanx Block 1B 
systems at an accelerated pace and is on schedule to have 252 Phalanx 
Block 1B mounts in service by fiscal year 2014. This accelerated 
schedule of installations replaces normal Class ``A'' overhauls 
necessary to maintain system reliability and maintenance. We will 
complete Phalanx Block 1B upgrades as follows: 37 in fiscal year 2011; 
29 in fiscal year 2012; 21 in fiscal year 2013; 55 in fiscal year 2014. 
As a result of this accelerated upgrade plan, the fiscal year 2011 CIWS 
maintenance backlog (all variants) will decrease from 60 systems today 
to less than 40 systems in fiscal year 2014.
    Question And is there any progress being made to re-prioritize this 
overhaul in future years?
    Answer. We are not planning to adjust our approach to the Phalanx 
Close-In Weapons System. The Navy continues to procure and install 
Phalanx Block 1B systems at an accelerated pace and is on schedule to 
have 252 Phalanx Block 1B mounts in service by fiscal year 2014. This 
accelerated schedule of installations replaces normal Class ``A'' 
overhauls necessary to maintain system reliability and maintenance. We 
will complete Phalanx Block 1B upgrades as follows: 37 in fiscal year 
2011; 29 in fiscal year 2012; 21 in fiscal year 2013; 55 in fiscal year 
2014. As a result of this accelerated upgrade plan, the fiscal year 
2011 CIWS maintenance backlog (all variants) will decrease from 60 
systems today to less than 40 systems in fiscal year 2014.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                      DDG 51 MULTIYEAR PROCUREMENT

    Question. The fiscal year 2012 President's budget request would 
continue DDG 51 ship procurement at a single ship in fiscal year 2012, 
two ships in fiscal year 2013 through fiscal year 2015, and returning 
to a single ship in fiscal year 2016. The addition of a second ship in 
fiscal year 2014 represents an improvement over last year's budget plan 
for DDG 51 procurement, which I applaud. However, buying an average two 
or fewer DDG 51s per year raises a number of near-term and long-term 
concerns. Admiral Roughead, you have previously expressed concern in 
testimony before Congress about the Navy's future force structure in 
the next decade, stating that, ``many of our existing cruisers and 
destroyers will reach the end of their service lives,'' and in the mean 
time, ``our existing BMD ships may experience longer deployments and 
less time between deployments as we stretch current capacity to meet 
growing demands.'' Would you agree then, that if a way could be found 
to procure DDG 51s at a rate greater than one or two per year, the 
Fleet would face less operational risk in meeting mission requirements, 
there would be less concern regarding the looming cruiser and destroyer 
retirements, and the shipbuilding industrial base could produce these 
ships at a lesser, and more affordable, unit cost per ship?
    Answer. The Navy's shipbuilding plan, combined with our plan for 
DDG/CG modernization to upgrade our existing ships, provides the best 
balance among capability, capacity, and affordability for our Navy. The 
current shipbuilding plan allows continuous, stable construction of 13 
ships and related combat system components from fiscal year 2010-fiscal 
year 2017, which address the Navy's near term requirements while 
mitigating technology/design risk and production limitations. The 
shipbuilding plan also permits economic order quantity procurements and 
the efficient production and delivery of materiel and services, which 
reduces the cost of material and labor. Navy will continuously analyze 
force structure requirements over the next decade relative to future 
threats, requirements, and fiscal conditions to determine what the 
composition of the future force should be and the ability of our Fleet 
to meet those challenges.

                         NAVY SHIPBUILDING PLAN

    Question. The Navy's current 30-year shipbuilding plan calls for a 
minimum of 88 cruisers/destroyers. Implementing the Navy's current 
shipbuilding plan would result in a cruiser-destroyer force that falls 
below the 88-ship minimum requirement beginning in fiscal year 2028 and 
would remain below the 88-ship floor for 14 years. The shortfall exists 
for more than one-third of the timeframe covered by the 30-year 
shipbuilding plan and reaches a shortfall of 20 ships in fiscal year 
2034. This projected cruiser-destroyer shortfall is the single largest 
projected shortfall of any ship category in the Navy's 30-year 
shipbuilding plan. Given funding pressures the Navy faces in its 
shipbuilding budget during the 2020's by the Navy's need to procure new 
SSBN(X) ballistic missile submarines, it would seem prudent to program 
additional DDG 51s to the shipbuilding plan in the fiscal years prior 
to fiscal year 2019. Admiral Roughead, if the Navy increased the 
production rate for DDG 51's under the forthcoming Force Structure 
Assessment, would that help reduce the projected cruiser-destroyer 
shortfall in fiscal year 2027-fiscal year 2040?
    Answer. If the Navy increased the procurement rate of our large 
surface combatants in the near-term it would mitigate the shortfall in 
the far-term. However, the Navy's current shipbuilding plan represents 
a balance among Fleet requirements for presence, partnership building, 
humanitarian assistance, disaster relief, deterrence, and war-fighting 
by the COCOMs and our resources.
    The procurement rates in the late 1980s and early 1990s for large 
surface combatants should not necessarily be replicated today. The DDG 
51s in the restart program represent three decades of technological 
evolution. The warfighting demands for this ship class will define the 
inventory requirement for the future and it is undetermined whether 
this will involve one-for-one replacement. The inventory objective for 
this ship class will be the subject of further study in the future. The 
ships procured between fiscal year 2016 and fiscal year 2031 will 
replace our existing CG 47 Class cruisers with Air and Missile Defense 
Radar (AMDR) capable destroyers.
    The options to shift resources within the budget to increase force 
structure are limited. Within the President's budget submittal for 
fiscal year 2012's Future Year Defense Plan (FYDP), several ship 
construction programs cannot be accelerated at this time due to 
technological, design risk or industrial production limitations. For 
programs without these risks, the Fleet inventory will reach its 
objective with current construction plans. Due to the Navy's 
efficiencies and cost savings through our LCS acquisition strategy, 
Navy had sufficient resources within the FYDP to procure an additional 
DDG 51 in fiscal year 2014. If additional funding was provided to fund 
SSBN(X) procurement during the period from fiscal year 2020-fiscal year 
2029, the Navy would be able to apply its shipbuilding funds to raise 
other ship procurement rates to reduce the impact on the shipbuilding 
industry and to increase the overall battleforce inventory. This 
additional funding would help reduce future ship inventory shortfalls 
and provide a more stable production base.

                      DDG 51 MULTIYEAR PROCUREMENT

    Question. Admiral Roughead, I understand that for each of the 
previous two DDG 51 multiyear procurement (MPY) contracts, in fiscal 
year 1998-2001 and fiscal year 2002-2005, the Navy received MYP 
authority 1 year in advance (in fiscal year 1997 and fiscal year 2001). 
The Navy states that it wants another DDG-51 MYP starting in fiscal 
year 2013, but the Navy has not requested authority for this MYP as 
part of its fiscal year 2012 budget submission. When does the Navy plan 
to submit to Congress its request for authority for a DDG-51 MYP 
starting in fiscal year 2013?
    Answer. The fiscal year 2012 President's budget highlights the 
Navy's intent to request congressional approval for a DDG 51 fiscal 
year 2013-fiscal year 2017 Multiyear Procurement (MYP). The Navy 
intends to submit the MYP legislative proposal as part of the fiscal 
year 2013 President's budget commensurate with the first year of 
funding for the MYP.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                               EARTHQUAKE

    Question. Two weeks ago we conducted a hearing in this subcommittee 
on the impact that the failure to complete a fiscal year 2011 Defense 
Appropriations Bill is having on our military services. That was before 
the Navy and Marine Corps were pressed into service in response to the 
devastating earthquake and tsunami in Northern Japan which comes over 
and above everything else your services are doing around. If the Navy 
and Marine Corps were financially stressed in performing their missions 
before how does the unanticipated challenge of responding to an 
earthquake and tsunami further stress the ability of your service to 
perform its mission?
    Answer. The Department of Navy (DON) response to the earthquake, 
tsunami and nuclear reactor disasters in Japan has had minimal impact 
on DON missions. Total costs through March 25, 2011 were $26.5 million 
with at least $10.5 million recoverable by reimbursement from the 
Overseas Humanitarian Disaster Assistance and Civic Aid (OHDACA) 
appropriation.
    The greatest impact to our mission and budget has been the prudent, 
but voluntary, departure of military dependents from the island of 
Honshu, Japan. Through April 8, this operation has cost approximately 
$54.5 million. Navy cannot simply absorb these costs within MILPERS 
accounts that have already been stressed under the Continuing 
Resolution (CR). Navy has submitted a CR exception request to the 
President's Office of Management and Budget (OMB) for additional 
appropriation under the ``Safety of Human Life'' exception to fund the 
additional cost for travel, lodging, meals, and per diem for evacuees 
through April 8, 2011. This short-term solution has been approved by 
OMB.
    Question. In Alaska we are no stranger to earthquakes and as you 
know we are home to the Pacific Alaska Tsunami warning center. Events 
such as those in Japan have refocused Alaska on our own level of 
preparedness if we were to experience an event like we did in Japan. 
And like Japan our runways in the Anchorage Bowl not only vulnerable to 
earthquake damage but also to flooding. If Alaska were to experience a 
catastrophic earthquake what role would you expect the Navy to play in 
a response?
    Answer. The Navy in its supporting role to Combatant Commands 
(COCOMs) provides maritime forces to accomplish their assigned 
missions, which include humanitarian assistance and disaster relief. In 
the event of a catastrophic earthquake in Alaska, U.S. Northern Command 
and U.S. Pacific Command would coordinate with the Joint Chiefs of 
Staff to determine specific Requests for Forces and/or Requests for 
Assistance to the Navy and other Services. Navy's forces would 
contribute capabilities to the overall response effort performing 
evacuation, medical assistance, delivery of relief supplies, and 
possibly reconstruction. Additionally, other U.S. Government agencies 
such as DHS and FEMA would contribute their capabilities to provide a 
more robust, whole-of-Government response to a natural disaster.
                                 ______
                                 
              Questions Submitted to General James F. Amos
            Questions Submitted by Chairman Daniel K. Inouye

         EFFECTS OF CONTINUING RESOLUTION ON MILITARY PERSONNEL

    Question. Admiral Roughead and General Amos, how has the series of 
short-term continuing resolutions negatively affected the Navy and 
Marine Corps's ability to manage its military personnel accounts?
    Answer. This question is overcome by events due to passage of the 
fiscal year 2011 Appropriations bill.
    Question. General Amos, what is the current dwell time ratio for 
the Marine Corps, and what is the goal?
    Answer. Our deployment to dwell ratio goal is 1:2. In light of our 
operational demands, and through the support of Congress in authorizing 
our end strength of 202,100 active duty forces, our combat units are 
beginning to realize an approximate 1:2 dwell time.\1\ Other units vary 
at more favorable dwell time levels depending on their mission. We 
anticipate the 1:2 dwell ratio for combat units to remain relatively 
stable provided current deployed force levels are not increased; 
however, increased operational demands in Afghanistan or elsewhere may 
result in dwell times inconsistent with fostering a resilient Total 
Force.
---------------------------------------------------------------------------
    \1\ Infantry battalions will continue to remain just below 1:2 
dwell time due to relief in place/transfer of authority requirements.
---------------------------------------------------------------------------
    Some marines in select military occupational specialties continue 
to fall into what is known as a high-demand, low-density status. This 
is a key indicator that the combat demand for marines with these skills 
does not match, or exceeds, the current manpower requirement and/or 
inventory. In addition, there are currently 14 of 211 occupational 
specialties where the on-hand number of marines is less than 90 percent 
of what is required.\2\ Our recently completed force structure review 
addressed all these concerns. We are working actively to recruit, 
promote, and retain the right number of marines in the right 
occupational specialties thus promoting resiliency of our Total Force.
---------------------------------------------------------------------------
    \2\ Our most stressed occupational specialties based on percentage 
of marines beyond a 1:2 dwell are (1) Geographic Intelligence 
Specialist, (2) Imaging Analyst/Specialists, (3) Signals Collection 
Operator/Analyst, (4) Unmanned Aerial Systems Operator/Mechanic, and 
(5) European, Middle East, and Asia-Pacific Cryptologic Linguists.
---------------------------------------------------------------------------
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                     USMC F-35 JOINT STRIKE FIGHTER

    Question. General Amos, you have testified to the importance of 
having strike aircraft that can operate from amphibious shipping and 
austere airfields. You have placed the F-35B on a 2-year probation. Can 
you please explain what that probation entails?
    Answer. Establishing a period of scrutiny for the F-35B was prudent 
in light of the progress the Joint Strike Fighter program has made. The 
STOVL technical challenges are typical of this developmental stage and 
none of the known issues are considered to be insurmountable. 
Corrective actions have either already been incorporated into 
production aircraft or they are being proactively analyzed. We now have 
the time to focus resources, ensure the solutions are effective, and 
incorporate them in the most efficient means possible while avoiding 
costly design changes.
    Question. What are the problems with the program and what are you 
expecting to occur over the next 2 years?
    Answer. There are three factors impacting delivery of the Joint 
Strike Fighter: production delivery delays, flight test progress, and 
the rate of software development. For the F-35B, the STOVL variant, 
developmental testing lagged last year as the program identified some 
anomalies in the design that need to be corrected.
    I am personally engaged with the Joint Program Office and prime 
contractors to ensure we have instituted the most efficient and 
effective processes for resolving these challenges. As a result, the 
program will deliver a higher quality of aircraft in the shortest 
amount of time.
    Question. If there are problems with the aircraft, why are we 
purchasing 6 of them in fiscal year 2012?
    Answer. Our plan is to reduce fiscal year 2012 and fiscal year 2013 
production to a rate of 6 per year. This will prevent the loss of 
valuable manufacturing experience gained since the start of production 
while the program develops and implements solutions for the technical 
challenges discovered in developmental testing. It is prudent to 
optimize the production rate to incorporate lessons learned into as 
many of the early lot aircraft as possible, to deliver a higher quality 
of aircraft in the shortest amount of time.
    Question. If the F-35B program does not meet the requirements to 
continue, do you have a plan to replace the aging AV-8B Harrier II 
population?
    Answer. Within our current inventory of our operational tactical 
aircraft, the AV-8B is the least affected by service life longevity. We 
anticipate flying the AV-8B well into the next decade, giving us time 
to develop a replacement plan if F-35B falters. However, the 
improvements we have seen in F-35B program since the first of the year 
indicate the STOVL challenges will be solved and will meet or exceed 
our requirements.
    Question. To quote your testimony, ``The F-35B is vital to our 
ability to conduct combined arms operations in expeditionary 
environments.'' What are the implications to the Marine Corps mission 
if they do not have this capability?
    Answer. The F-35B is the tactical aircraft we need to support our 
Marine Air Ground Task Force from now until the middle of this century. 
Our requirement for expeditionary tactical aircraft has been 
demonstrated repeatedly since the inception of Marine aviation. Our 
ability to tactically base fixed wing aircraft in the hip pocket of our 
ground forces has been instrumental to our success on the battlefield. 
Given the threats we will face in the future, the F-35B is clearly the 
aircraft of choice to meet our operating requirements.
    The implications of not having a STOVL tactical aviation capability 
reach far beyond the Marine Corps and directly affect our ability to 
support our national strategy. I am confident the F-35B will surpass 
expectations and be a key resource in our arsenal of expeditionary 
capabilities.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

         OPERATIONAL IMPACT OF AMPHIBIOUS SHIP DECOMMISSIONINGS

    Question. General Amos, the Department of the Navy has determined a 
minimum force of 33 amphibious ships is the limit of acceptable risk in 
meeting a 38-ship amphibious force requirement. However, the number of 
amphibious ships in inventory will reach 29 ships this year as more 
ships are decommissioned. With the current unrest in Africa and the 
Middle East, and the earthquake in Japan what is the demand for 
amphibious ships currently and what has been the demand from the 
combatant commanders over the last year or so?
    Answer. Demand by Combatant Commanders (CCDR) for naval forces has 
remained high during the last 5 years.


----------------------------------------------------------------------------------------------------------------
                                          COCOM ARG/MEU Requirement \1\     COCOM Independent Amphib Requirement
                                     --------------------------------------                  \1\
             Fiscal year                                                   -------------------------------------
                                        Demand/Sourced        Percent         Demand/Sourced        Percent
----------------------------------------------------------------------------------------------------------------
2008................................           3.4/2.62                 77           3.5/1.88                 54
2009................................           3.4/2.47                 73          2.58/1.09                 42
2010................................          4.57/2.62                 57          3.89/1.49                 38
2011 \2\............................           4.4/2.68                 61          3.83/0.76                 20
2012 \2\............................          4.44/2.54                 57          4.41/0.93                 21
----------------------------------------------------------------------------------------------------------------
\1\ COCOM Amphib Ship Demand Based on Fleet Forces Command Data (Ships required computed at a 1:3.7 Rotation
  Rate).
\2\ 2011/2012 Demand reflects Global Force Management Allocation Plan (GFMAP) Baseline data . . . does not
  include Requests for Forces.

    While not able to meet the cumulative annual global CCDR ARG/MEU 
demand, the Navy is meeting SECDEF tasks as noted in the Global Force 
Management Allocation Process information above. The table shows that 
CCDR demand for crisis response forces and engagement are only being 
partially met.
    As current events in North Africa, the Horn of Africa, much of 
Central Command, and in the Pacific reinforce, amphibious forces remain 
the cornerstone of our Nation's ability to respond to crisis and 
overcome access challenges.
    The current inventory of amphibious ships will not support 
continuous deployments in the PACOM, CENTCOM, EUCOM and AFRICOM that 
are being requested by the combatant commanders today. An inventory of 
33 ships (11 large deck/11 LPD/11 LSD) would adequately support these 
regions with an ARG/MEU presence. Thirty-eight ships would support the 
ARG/MEU demand plus single ship deployments to meet the CCDR 
requirements to support additional forward engagement activities.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski

                               EARTHQUAKE

    Question. Two weeks ago we conducted a hearing in this subcommittee 
on the impact that the failure to complete a fiscal year 2011 Defense 
Appropriations Bill is having on our military services. That was before 
the Navy and Marine Corps were pressed into service in response to the 
devastating earthquake and tsunami in Northern Japan which comes over 
and above everything else your services are doing around the world.
    If the Navy and Marine Corps were financially stressed in 
performing their missions before, how does the unanticipated challenge 
of responding to an earthquake and tsunami further stress the ability 
of your service to perform their mission?
    Answer. Recent USMC support to humanitarian assistance/disaster 
relief operations in Japan combined with no-fly zone enforcement 
support in Libya has forced the Marine Corps to reprioritize some of 
its resources in order to provide maximum support. The Marine Corps 
anticipates Overseas Humanitarian Disaster and Casualty Assistance 
(OHDACA) reimbursements from the State Department to provide funding 
for many of the costs incurred from the Humanitarian Relief effort 
associated with Operation Tomodachi. Outside of the relief efforts in 
Libya, the Marine Corps has incurred approximately $600,000 in expenses 
which are not eligible for OHDACA reimbursement. Reprioritizing 
includes the delayed support to a wide range of Theater Security 
Cooperation (TSC) events. Specifically, Marine forces postponed planned 
exercises with India, Sri Lanka, and the Maldives during the late 
March-early April timeframe. Two other planned exercises with South 
Korea and Indonesia were cancelled during this same period.
    In the cases noted above, events were postponed or cancelled due to 
higher priority missions, not because of a lack of funding.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. And the next hearing of this subcommittee 
will be on March 30. At that time, we'll receive testimony from 
the Department of the Air Force.
    Thank you very much.
    [Whereupon, at 12:40 p.m., Wednesday, March 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
